<html>
<title> - LOOKING TO THE FUTURE: LESSONS IN PREVENTION, RESPONSE, AND RESTORATION FROM THE GULF OIL SPILL</title>
<body><pre>[Senate Hearing 112-249]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-249

                         LOOKING TO THE FUTURE:
                    LESSONS IN PREVENTION, RESPONSE,
                AND RESTORATION FROM THE GULF OIL SPILL

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-820 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK L. PRYOR, Arkansas              JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                     MARK BEGICH, Alaska, Chairman
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine, Ranking
JOHN F. KERRY, Massachusetts         ROGER F. WICKER, Mississippi
BILL NELSON, Florida                 JOHNNY ISAKSON, Georgia
MARIA CANTWELL, Washington           JOHN BOOZMAN, Arkansas
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
AMY KLOBUCHAR, Minnesota             KELLY AYOTTE, New Hampshire
MARK WARNER, Virginia                DEAN HELLER, Nevada








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 20, 2011....................................     1
Statement of Senator Begich......................................     1
Statement of Senator Wicker......................................     2
Statement of Senator Nelson......................................     4
Statement of Senator Lautenberg..................................     5
Statement of Senator Cantwell....................................     5
Statement of Senator Rubio.......................................    65

                               Witnesses

Rear Admiral Paul F. Zukunft, Assistant Commandant for Marine 
  Safety, Security, And Stewardship, United States Coast Guard...     7
    Prepared statement...........................................     8
David M. Kennedy, Assistant Administrator, National Ocean 
  Service, National Oceanic And Atmospheric Administration, 
  Department of Commerce.........................................    12
    Prepared statement...........................................    14
Hon. Grover C. Robinson, Commissioner, Escambia County, Florida..    33
    Prepared statement...........................................    35
Dr. R. Eugene Turner, Chaired Professor, Distinguished Research 
  Master, Louisiana State University.............................    37
    Prepared statement...........................................    39
Erik Milito, Group Director, Upstream and Industry Operations, 
  American Petroleum Institute...................................    47
    Prepared statement...........................................    49
    Letter dated August 3, 2011 to Hon. Mark Begich from Erik 
      Milito.....................................................    72
Jim Ayers, Senior Advisor and Consultant, Ocean Conservancy......    50
    Prepared statement...........................................    52

                                Appendix

Response to written question submitted to David M. Kennedy by:
    Hon. John D. Rockefeller IV..................................    75
    Hon. Mark Begich.............................................    75
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Erik Milito..................................    76
Response to written questions submitted by Hon. Mark Begich to:
    Rear Admiral Paul F. Zukunft.................................    78
    Hon. Grover C. Robinson......................................    85
    Dr. R. Eugene Turner.........................................    85
Response to written questions submitted by Hon. Olympia J. Snowe 
  to:
    Rear Admiral Paul F. Zukunft.................................    88
    David M. Kennedy.............................................    89
    Hon. Grover C. Robinson......................................    90

 
                     LOOKING TO THE FUTURE: LESSONS
                      IN PREVENTION, RESPONSE, AND
                  RESTORATION FROM THE GULF OIL SPILL

                              ----------                              


                        WEDNESDAY, JULY 20, 2011

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. I'm just reviewing--my family is in Alaska 
right now fishing, and my brother-in-law just caught a 40-pound 
king salmon. The uniqueness of technology is he could send me 
that photo right now and say, ``I'm sorry you're in Washington, 
but, oh, by the way, please look at this king salmon I just 
caught.''
    [Laughter.]
    Senator Begich. So, thank you all very much. Give me one 
second here.
    I'd like to welcome the witnesses and thank them for taking 
the time to testify before the Committee today.
    On July 15, 2010, just over a year ago, BP finally 
succeeded in stemming the seemingly never-ending flow of oil of 
the Deepwater Horizon spill. When the well was capped, the 
people of the Gulf Coast and people across the country, who 
were mesmerized by the video of the subsea gusher; we were 
finally able to breathe a collective sigh of relief.
    Yet, capping the Macondo well was not the end of this 
tragedy. We're still understanding and accounting for its 
costs--the cost to the environment, the cost to the individual 
people in the Gulf communities, and the cost to their 
economies.
    Over 200 million gallons of oil spewed out into the Gulf 
for nearly 3 months, becoming the largest accidental marine oil 
spill in history. The long term impacts to the wildlife and 
ecosystems of the Gulf, while still ill-defined, are sure to be 
long-lasting.
    Eleven men lost their lives in the explosion that preceded 
the blowout. Many other lives and livelihoods were, and 
continue to be, upended by the spill.
    Alaskans sympathize with the Gulf and its plight. We've 
lived through this before. In 1989, Alaska suffered the Exxon 
Valdez disaster, then the largest marine oil spill this country 
had faced. More than 20 years later, Alaskans are still dealing 
with the aftermath. The environmental impacts are still being 
monitored and assessed in the waters of the Prince William 
Sound. Affected Alaskans, many who waited decades before seeing 
justice in the courts, still feel the impacts of the trauma 
which the spill caused within their communities.
    While the effects of both spills are tragic, the greatest 
tragedy of both could and should have been avoided. In each 
case the responsible parties cut corners and took unnecessary 
risks for the promise of greater profits.
    While the risk-taking and mistakes made leading up to the 
Deepwater Horizon disaster were reckless and flagrant, our 
response to it must be thoughtful and measured. The United 
States needs to put itself firmly on the path to energy 
security, and we cannot do that without increasing our domestic 
supply of oil. Oil production must be an integral part of any 
balanced energy plan, including development of the OCS, whether 
in the Gulf or the Arctic waters of my state. We need to 
rededicate ourselves to taking the prudent steps to ensure that 
these kinds of spills never happen again.
    Industry needs to rigorously develop and implement better 
standards and best practices, and regulators must keep them 
accountable. While they may trust, they must also verify.
    In the event of a future spill, industry needs to have the 
capabilities to act swiftly and decisively. We must also make 
sure our front line responders, like the Coast Guard and NOAA, 
have the resources and flexibility and expertise they need to 
mitigate impacts and get the job done.
    We must provide local and State stakeholders and responders 
a strong voice in the process. It's their way of life and 
prosperity on the line. And we must make sure we have the best 
science available to guide the response efforts, to understand 
the impacts, and to restore the damage that was wrought by a 
spill.
    These are the reasons we're here today. I'm looking forward 
to hearing from our witnesses. They come from varied 
perspectives. And I hope that collectively their insight can 
put us on the path toward improved spill prevention, response 
and restoration.
    We'll have two panels. Before I introduce the first panel, 
let me ask Senator Wicker, here representing the Ranking 
Member, to make his opening.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Chairman Begich.
    I'm standing in for Ranking Member Snowe at the moment. She 
will possibly join us for a few moments, but will not be able 
to be here for the entirety of the hearing because of 
scheduling conflicts.
    I appreciate you holding this hearing to investigate 
lessons learned from the Gulf oil spill--the tragic explosion 
of the Deepwater Horizon claiming the lives of four 
Mississippians and seven others.
    It took 87 days to contain the flow of oil, and even longer 
to seal the blown-out well permanently. This caused extensive 
damage to the Gulf ecosystem, and significant harm to the Gulf 
Coast economy, which has still not fully recovered.
    I hope to hear from the witnesses on both panels today--how 
we can prevent spills of this magnitude in the future in a 
responsible and sensible manner. Just as importantly, I would 
like to hear how we can mitigate the economic damages that 
resulted from the Deepwater Horizon spill.
    The administration's moratorium on offshore drilling added 
significantly to the spill's negative economic effects. Thirty-
three deepwater rigs were forced to suspend operations in the 
Gulf, impacting thousands of American jobs. At least eight of 
these rigs have left, or plan to leave the Gulf in order to 
pursue operations elsewhere. It is highly unlikely they will 
ever return.
    At a time of record unemployment and soaring debt we should 
be implementing policies that increase American jobs and 
income, instead of ones that restrict them.
    It was clear at the onset that the administration and BP 
were not prepared to handle a spill of this magnitude. Although 
I praise the efforts of the Coast Guard and NOAA, the initial 
shortcomings and response efforts in coordination were 
disheartening. BP showed it lacked the proper planning and 
response capabilities for such an event.
    I'm pleased that the oil and gas industry have since 
responded by establishing the Marine Well Containment Company, 
a not-for-profit organization that can provide containment 
response should another significant blowout occur in the Gulf.
    As the coast continues to recover, it is my hope that 
responsible parties will work with State and Federal officials 
to restore the ecosystem and economy.
    For Mississippi, the long-term environmental impacts are 
not yet fully known, but it is clear the immediate economic 
damages have been significant. Many regular visitors to our 
beaches and coastal towns have stopped coming, and our fishing 
industry--steeped in tradition and a way of life on the Coast--
has not recovered from the misperception that Gulf seafood is 
tainted with oil. The truth is, Gulf seafood is safe to eat, 
and it continues to be tested for oil and other toxins more 
than any other seafood in the world.
    A significant piece of the recovery will be directing fines 
collected under the Clean Water Act to impacted states. I have 
supported this effort from the beginning, and I would like to 
thank my colleagues from other Gulf states for their hard work. 
I'm confident we will soon have a proposal supported by every 
Gulf delegation to dedicate Clean Water Act fines to the 
environmental and economic recovery of the Gulf Coast.
    Thank you, again, Mr. Chairman. And I look forward hearing 
from our distinguished witnesses.
    Senator Begich. Thank you, Senator. Thank you, Senator 
Wicker.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, when you see oil floating on 
the surface, and you see it approaching a pass like Pensacola 
Pass; and then, because of the on-rushing tide, you see that 
oil come on in to Pensacola Bay, or whatever bay, Perdido Bay--
some of it, we wanted to keep it out of Choctawhatchee Bay--I 
can't tell you what an awful sight it is. Like some of the 
sights that you don't like to look at. That's what it looks 
like. And then, once it reaches a destination, either on ocean 
floor or on the beach, or all gathered up around the marsh 
grasses, then it just makes it even look all the worse. And it 
wreaks havoc. It wreaks havoc on the environment and on the 
economy.
    I'll never forget, with all the problem we've had in the 
Gulf Claims Facility, of getting them to try to help out 
people--what about the little lady that had the advertising 
business in Destin? Now, her business was a little 
advertisement, single owner, small business. But, she was 
advertising to go to this restaurant, that restaurant, this 
tourist destination. Well, when the tourists stopped coming, 
she didn't have any business. And so she had no income. And so 
she couldn't pay her mortgage. And it went on and on and on. 
And sometimes the banks cooperated, and sometimes the banks 
didn't cooperate.
    I looked at local government, and they're doing everything 
they can. It's like being the little boy sticking his finger in 
the dike, and it, the water breaks out over here, and they 
stick their finger there, and so it happens over and over.
    Now, I don't want this to happen again. And there are lot 
of lessons learned--that we learned from your state--that we 
didn't pay any attention, and it happened again. And if we 
don't pay attention to the lessons learned from the Gulf oil 
spill, it's going to happen again. And when it does, let me 
just give you a little preview.
    Repsol--the big Spanish drilling company that drills in the 
Gulf of Mexico and drills according to U.S. standards--they're 
getting ready to drill 40 miles off the North Coast of Cuba in 
over 5,000 feet of water. If there's a spill there, do you know 
what runs right by there? It's the Gulf Stream. And where does 
the Gulf Stream go? It parallels the delicate environmentally 
highly sensitive Florida Keys and all those coral reefs. And 
then the Gulf Stream comes to within one mile of the beaches of 
Miami Beach, all the way up to Palm Beach. And that is a part 
of the state that has an extraordinary amount of tourism.
    A lot of our Florida beaches oil did not get to. But the 
scare of oil there, when they saw the pictures of the oil on 
Pensacola Beach--and do you remember that newspaper photograph 
that had the entire beach? That white sugary sand beach was 
covered in black oil. And the tourists stop coming. And they 
stopped coming to the entire Gulf Coast of Florida. So, this is 
what we are facing.
    I am pleased, at my request, and, you and the Ranking 
Member were kind enough to invite the chairman of our county 
commission from Pensacola, Escambia County, who was at the 
front line of this. They were having to do a lot of it 
themselves, making it up as they went, because in many cases 
the U.S. Government did not have its act together.
    I'll just close with this. Mr. Chairman, I'll never 
forget--when I went to one of the centers, the command centers, 
and it was explained to me that the Coast Guard was in control 
51 percent, and BP was in control 49 percent. Well, that 
doesn't work. And we saw that didn't work. You've got to have a 
military chain of command. And who is at the top of that chain 
has got to have their orders carried out. So that's one of the 
significant lessons that we learned from this spill.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you, Senator Nelson.
    Senator Lautenberg, do you have any quick openings?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Well, if I could trade it for an 
earlier position in the questioning, I'd like to do that. But 
just to say----
    Senator Begich. The negotiations.
    Senator Lautenberg.--Mr. Chairman, thanks very much. We 
were not--we know how expedient you'd like to try to make the 
hearing. It's too important to just bypass it. But I will 
relinquish my present position here, and plead for mercy on 
the, in the questioning. And with that, I surrender the chair. 
Thank you, Mr. Chairman.
    Senator Begich. Thank you.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. And I commend 
you for holding this important hearing today, and I thank the 
witnesses for being here.
    Oil spill prevention and response capability was a major 
focus of mine when I was the chair of this subcommittee, and so 
I'm pleased that you're continuing to focus on such a vital 
issue.
    We did manage to significantly strengthen our Nation's oil 
spill safety net in last year's Coast Guard bill--the biggest 
improvements since OPA 1990. But there is much more to be 
done--particularly in light of what we have learned from the 
devastating Deepwater Horizon spill.
    So, I have many questions for the witnesses today, on 
issues like steering restoration funds, to the Gulf cleanup--
which I support--and possibly earmarking offshore drilling 
revenues to states for coastal restoration. But, I'm going to 
submit those for the record.
    Today I was hoping to get some answers from our hearing 
today, Mr. Chairman, from the administration witnesses on the 
emerging threat in the Northwestern United States.
    As many of my colleagues probably know, Canada planned to 
double production for the Alberta massive tar sand fields over 
the next decade, and much of that oil will come to the U.S. But 
some would also likely go to places like China.
    The nexus with this hearing is that much of that oil would 
be shipped by supertankers from Vancouver through the fragile 
waters of the San Juan Islands and the Strait of Juan de Fuca. 
This is a major threat to our region, and we have already 
accommodated oil tankers and barges carrying 15 billion gallons 
of oil--much coming from Alaska to Washington State's five 
refineries. In fact, we refine twice as much gasoline as we 
need in our state for consumption. So, there is always a risk 
there. But, we have tried to do our utmost to minimize that.
    The tankers traversing Puget Sound need tug escorts, 
steered--pilots, and people that know our waters. Just like 
what happened with Prince William Sound, we need to have people 
on the ground who knows what's happening. So, we have a very 
robust oil spill response network in place, including vessel 
traffic control systems.
    Unfortunately, these systems seem to have led to a free 
ride for Canada. It seems that the Canadian oil spill response 
plan in the Pacific Northwest is, ``call the Americans.''
    An internal audit last year revealed that, ``the Canadian 
guard--Coast Guard lacks the training, equipment, and 
management systems to fulfill its duties and response to the 
offshore pollution incident, such as an oil spill.''
    That is a scary situation for us in Washington State, 
particularly when plans by one oil company alone would increase 
oil tanker traffic by 45 percent. And, these super tankers we 
are talking about can hold up to a million barrels of oil. 
That's about four times what was spilled in the Exxon Valdez, 
and covered 1,300 miles of very pristine coastline. Obviously, 
such a spill in the narrow and heavily polluted waters of the 
Strait of Juan de Fuca would cause tens of billions of dollars 
in damage and have a significant impact.
    So, with that I will, Mr. Chairman, if I could, just show a 
chart for, that shows you where this vessel traffic goes. And, 
while it can go along the coast of Vancouver Island and out the 
Strait of Juan de Fuca, we're talking about a very busy traffic 
area, very pristine parts of both Canada and the United States. 
And I think it deserves a very robust oil spill response plan.
    So, thank you for allowing me to make this opening 
statement. I'll look forward having a chance to, asking of our 
panels today questions.
    Thank you.
    Senator Begich. Thank you very much.
    And, again, thank you to our two witnesses.
    The first witness on our panel is Rear Admiral Zukunft.
    And, honestly, I'm very impressed with your Federal onsite 
coordination you did on Deepwater Horizon. A lot of kudos to 
the work you did there.
    We also have Mr. Kennedy, David Kennedy, Assistant 
Administrator for NOAA's National Ocean Service. And thank you, 
again, for NOAA, doing what you do--not only in the Gulf, but 
around the country in the sense of protecting our natural 
resources and beauty.
    So let me first open--Admiral, if you'd like to make your 
opening statement, and Mr. Kennedy. And then we'll open for 
questions.
    Does it work? OK.

           STATEMENT OF REAR ADMIRAL PAUL F. ZUKUNFT,

     ASSISTANT COMMANDANT FOR MARINE SAFETY, SECURITY, AND 
             STEWARDSHIP, UNITED STATES COAST GUARD

    Admiral Zukunft. Good afternoon, Chairman Begich and 
Ranking Member Wicker, and distinguished members of the 
Subcommittee.
    I'm honored to appear before you today to speak about the 
status of lessons learned from the Deepwater Horizon response 
and efforts the Coast Guard is undertaking.
    As you know, on April 20, 2010, an explosion aboard the 
Mobile Offshore Drilling Unit or MODU, Deepwater Horizon 
resulted in the sinking of this MODU and the tragic loss of 11 
lives, and the worst spill in U.S. history.
    The spill was designated as the first ever Spill of 
National Significance, and the first time we have designated a 
national incident commander. Under the framework of the Oil 
Pollution Act of 1990 and the National Contingency Plan, a 
monumental response was undertaken through the unified efforts 
of over 47,000 Federal, State, and local responders, including 
7,000 active and reserve Coast Guard members.
    I served as the Federal on-scene coordinator for over 6 
months. Today, 15 months later after the explosion occurred, we 
continue our response efforts, while concurrently--yet distinct 
from the response--the natural response damage assessment is 
occurring as well.
    Following the Deepwater Horizon incident, there had been 
numerous reports generated and investigations conducted, not 
only to determine the causes of the casualty, but also to 
evaluate the effectiveness of the spill response. These reports 
include the President's national commission on the BP Deepwater 
Horizon oil spill and offshore drilling, the National Incident 
Commander's Report, and the incident specific preparedness 
review. The Coast Guard has reviewed these reports, in addition 
to conducting our own internal review to determine areas where 
the Coast Guard needs to take corrective action.
    Two more reports are forthcoming--the Coast Guard, in B-O-
E-M-R-E et. seq., or BOEMREs Joint Investigation Report, into 
the cause of the casualty, and the Federal On-Scene 
Coordinators Report, that will contain observations and 
perspectives of the Federal on-scene coordinator regarding the 
response effort. Both reports are concurrently undergoing final 
agency review and should be released within the next month.
    As we continue to inventory and analyze the lessons from 
these reports in our own inner, internal review, I'd like to 
highlight several actions we've already taken to address areas 
where response planning and preparedness should be improved, 
including directing Captains of the Port to review oil spill 
response plans for offshore facilities--and this is already an 
ongoing effort; requiring area committees to include worst case 
discharge scenarios for offshore facilities in their respective 
area contingency plans; developing subsea dispersant 
application guidelines; increasing state and local outreach, 
and participating in area committee meetings and activities; 
and participating in a Coast Guard Federal Emergency Management 
Agency and Environmental Protection Agency workgroup to develop 
recommendations to harmonize the National Contingency Plan and 
National Response Framework governance constructs.
    While there are several areas for improvement that we are 
pursuing overall, we have concluded that the framework provided 
for OPA 1990 in the national contingency plan for oil spill 
response served us extremely well, and that the National 
Contingency Plan provided the necessary discretion and freedom 
of action to address the very unique circumstances of the 
Deepwater Horizon response. The Coast Guard is also committed 
to ensuring the safety of activities on the outer continental 
shelf.
    The Coast Guard is primarily responsible for vessel safety, 
and BOEMRE is responsible for drilling systems and wealth 
safety. This division of responsibilities is captured in a 
Memorandum of Understanding between our two agencies. The Coast 
Guard and BOEMRE are working together to ensure there are no 
safety seams whatsoever in our oversight responsibility in the 
offshore drilling domain. To that end, we've established a 
Coast Guard/BOEMRE prevention workgroup, chartered to improve 
coordination and communication between the two agencies.
    In light of the Deepwater Horizon incident, we give renewed 
focus to the expansion of natural resource exploration in the 
Arctic. The remote and harsh environment presents unique 
prevention and response challenges for the industries operating 
in the region and the government agencies providing oversight 
of the increasing activities in the Arctic domain. We ask for 
Congress' continued support as we work to address the unique 
challenges posed by the Arctic region.
    In a similar vein, as Cuba prepares to begin offshore oil 
exploration, we have been updating our contingency plans, and 
engaging Federal, State and private entities including, Repsol, 
to ensure we are ready to address a potential discharge 
impacting U.S. waters.
    Finally, I want to thank Congress for their timely action 
in passing Public Law 111-191, which allowed significant 
advancements from the principal fund within the Oil Spill 
Liability Trust Fund in the midst of this unprecedented 
response. This was critical to me, to ensure that sufficient 
funds were available to support this Federal response.
    Thank you for the opportunity to testify today, and I am 
pleased to take any questions that you may have. Thank you.
    [The prepared statement of Admiral Zukunft follows:]

     Prepared Statement of Rear Admiral Paul F. Zukunft, Assistant 
Commandant for Marine Safety, Security, and Stewardship, United States 
                              Coast Guard
    Good Afternoon, Chairman Begich, Ranking Member Snowe, and 
distinguished members of the Subcommittee. I am honored to appear 
before you today to discuss the lessons learned from the BP Deepwater 
Horizon oil spill.
Comprehensive Overview of Coast Guard Lessons Learned Review and 
        Implementation Strategy For the BP Deepwater Horizon Incident
Background
    On the evening of April 20, 2010, an explosion aboard the Mobile 
Offshore Drilling Unit (MODU) Deepwater Horizon led to the sinking of 
the MODU, the tragic loss of 11 lives, and the worst oil spill in U.S. 
history. Given the size and scope of the spill, Secretary Napolitano 
designated the incident a Spill of National Significance (SONS) and 
designated then-Commandant of the Coast Guard Admiral Thad Allen as the 
National Incident Commander (NIC). Due to the severity of the spill, 
the complexity of the response effort, and the large-scale potential 
for adverse impacts on the environment and public health, this response 
required extraordinary coordination of Federal, state, local, tribal 
and commercial resources to contain and mitigate the effects of the 
spill. Using the framework provided for in the National Contingency 
Plan (NCP), a monumental response was undertaken through the unified 
efforts of more than 47,000 Federal, state, and local responders, 
including more than 7,000 active and reserve Coast Guard members. We 
established five Incident Command Posts (ICPs) across the Gulf Coast 
states and 15 staging areas to help flow critical resources to impacted 
locations. I served as the Federal On-Scene Coordinator (FOSC) for more 
than 6 months during the response and recovery period.
    The size and scope of this incident required significant 
coordination of public and private resources at both the strategic and 
operational level. The command and control structure facilitated the 
NIC and FOSC's ability to direct and coordinate with other Federal, 
state and local stakeholders to address the most critical needs. The 
FOSC worked with other parties to address operational resource requests 
and state-by-state concerns throughout the operation. The NIC provided 
national-level support to the operational response--from resources to 
policy decisions--to secure the source and mitigate the impact of the 
spill. The NIC and the FOSC met regularly with key stakeholders, 
including the Governors of each state on the Gulf Coast and established 
a critical line of communication to resolve conflicts. At the 
operational level, a Unified Area Command was established to oversee 
operational activities across the entire Gulf Region. The FOSC served 
as the Unified Area Commander in accordance with established incident 
command doctrine, and under the Unified Area Command (UAC) there were 
the five ICPs: Houston, TX; Galveston, TX; Houma, LA; Mobile, AL; and 
Miami, FL.
    Although the role and functions of the NIC evolved considerably 
during the response, the NIC concept proved to be an extremely 
effective command organization that promoted unity of effort across all 
levels of government, ensured that timely information was provided to 
the public and first responders, and efficiently marshaled the 
resources of the Federal Government, private sector, and international 
sources to combat this unprecedented oil spill. As the first SONS and 
NIC designation in U.S. history, the BP Deepwater Horizon (DWH) oil 
spill response enabled us to learn a great deal about NIC roles and 
responsibilities. Going forward, the Coast Guard will work with our 
interagency partners to memorialize in doctrine and policy the 
responsibilities that accrued to the NIC during this response.
    The effort to contain and secure the well and the resulting spill 
response effort became extraordinarily large and complex. This effort 
required two drilling ships, numerous oil containment vessels used to 
control the source, and the highly coordinated use of mechanical 
recovery, surface burning, and dispersant applications. The weather 
significantly impacted our ability to carry out skimming and surface 
burn operations. Despite these constraints, we employed more than 835 
oil skimmers, more than 6,100 response boats and 3,190 vessels of 
opportunity, and over 120 aircraft. More than 34.7 million gallons of 
oil-water mix were recovered through skimming, 411 controlled in-situ 
burns removing over 11 million gallons of oil from the open water, and 
the dispersion of oil both at the surface and at the wellhead.
    Response operations took place in four zones: at the source of the 
spill, off-shore, near-shore, and in-shore. At the source, the drilling 
rigs and remotely operated vehicles necessary for deep water drilling 
were the only means of accessing the well at a depth of 5,000 feet. 
Off-shore, as close to the source as possible, the response focused on 
removal of the oil. Key to these operations were large skimmers and in 
situ burn task forces. Near-shore operations focused on skimming and 
the use of booms to protect sensitive areas and as much of the 
shoreline as possible. In Barataria Bay, for example, shoreline 
operations involved extensive assessment, environmental protection, and 
treatment strategies. After the well was capped, shoreline cleanup 
became the focus of continued response operations.
    Health and Safety was a primary strategic goal throughout this 
response, as reflected by our efforts to address the potential public 
health impacts of the spill and the remarkably low injury rate for 
responders across the operation. At its peak, there were 47,000 people 
working on the response, ranging from those drilling relief wells on 
ships fifty miles off-shore to those working on skimming and booming 
vessels and the work crews cleaning the shoreline. Thousands of 
personnel worked to decontaminate oiled booms, vessels and equipment. A 
significant safety organization was staffed by numerous Federal and 
state agencies and private safety experts who oversaw and examined 
broad aspects of worker safety.
    Overall, Section 311 of the Clean Water Act, as amended by the Oil 
Pollution Act of 1990 (OPA '90), as well as the NCP and the supporting 
National Incident Management System (NIMS), proved effective during the 
DWH oil spill response. The NCP provided a sound framework that allowed 
for the needed discretion and freedom of action to address 
contingencies that arose.
Major Report Summaries
    As with any incident, there are ongoing assessments and reviews to 
gain a better understanding of lessons learned from the response to 
inform equipment standards, technology, and preparedness to respond in 
the future. These assessments come from both Coast Guard and third 
party reviews.
    The National Incident Commander's Report, released on October 1, 
2010, discussed the effectiveness of the NCP as the United States' 
blueprint for responding to both oil spills and hazardous substance 
releases. The report reviewed the roles and responsibilities of the NIC 
and examined whether existing legal authorities and doctrine were 
adequate. Coast Guard Admiral Thad Allen provided his observations and 
recommendations regarding the authorities, doctrine, and policy that 
collectively provide the governance constructs used for oil spill 
response. Admiral Allen offered key recommendations to improve our 
collective ability to respond to the next major oil or hazardous 
substance release. These key recommendations include:

  <bullet> Incentivizing the private sector to develop 21st century oil 
        spill response capabilities to keep pace with advancing 
        technologies in oil exploration, deepwater offshore drilling, 
        oil production, and maritime transportation;

  <bullet> Ensuring that all appropriate Federal, state, local, and 
        tribal government authorities and response structures are 
        included in response plans and their elected or appointed 
        officials are invited to participate in oil spill response 
        exercises; and

  <bullet> Ensuring a NIC has appropriate authorities necessary for the 
        execution of the position.

    The National Commission on the Deepwater Horizon Oil Spill and 
Offshore Drilling was created by Executive Order 13543 on May 21, 2010 
as an independent, nonpartisan entity directed to provide a thorough 
analysis and impartial judgment of the DHW oil spill. The Commission 
was charged with examining the facts and circumstances concerning the 
root causes of the DWH explosion, improving the country's ability to 
respond to oil spills associated with offshore drilling, and 
recommending reforms to make offshore energy production safer. The 
report develops options to overhaul the U.S. approach to drilling 
safety and greatly reduce the chances of a similar, large scale 
disaster in the future.
    The Coast Guard's Marine Safety Manual prescribes a process to 
conduct a comprehensive review to capture lessons learned from a major 
spill response. The Incident Specific Preparedness Review (ISPR) is the 
process by which the Coast Guard examines the implementation and 
effectiveness of the preparedness for and response to a major response, 
as it relates to the National Oil and Hazardous Substances Pollution 
Contingency Plan, Area Contingency Plans and other oil spill response 
plans. On June 14, 2010, the Commandant of Coast Guard Admiral Robert 
Papp, Jr., chartered an ISPR team to conduct an independent, third-
party review of the Deepwater Horizon response. The ISPR team was 
comprised of Federal and state government representatives along with 
representatives from the oil exploration and production industry, non-
governmental organizations, community groups and the professional oil 
spill response industry who served as technical advisors. The report 
represents the views of the ISPR team and provides an assessment of the 
Coast Guard's preparedness process as well as recommended corrective 
actions.
    On April 27, 2010, the Department of Homeland Security and 
Department of Interior jointly convened an investigation into the 
marine casualty, explosion, fire, pollution, and sinking of the DWH. 
Volume I of the report of this joint investigation concerns matters 
under the jurisdiction of the Coast Guard. The Coast Guard members of 
the joint investigation released Volume I on April 22, 2011. Volume II 
of the report will address matters under the jurisdiction of the Bureau 
of Ocean Energy Management, Regulation and Enforcement (BOEMRE).
    Lastly, the FOSC report is under development. The FOSC report will 
contain observations and perspectives of the FOSC regarding the oil 
removal operation and actions taken. As required by 33 C.F.R.  
300.165, the report will document the situation as it developed, the 
actions taken, the resources committed, and challenges.
Coast Guard Initiatives Resulting From Deepwater Horizon Lessons 
        Learned
    The BP Deepwater Horizon oil spill and other incidents have 
prompted the Coast Guard to review all operations and systems under its 
responsibility for potential improvements to both regulations and the 
inspection regime for foreign-flagged MODUs on the U.S. Outer 
Continental Shelf (OCS). Prior to the incident, we were already 
pursuing improvements to our offshore inspection capability through our 
marine safety improvement program. We recently increased our inspection 
resources and established an Offshore National Center of Expertise that 
greatly enhances inspector competency.
    All MODUs operating in the United States are subject to annual 
examinations to verify compliance with area laws and international 
conventions. If that exam finds ``questionable equipment, systems, or 
crew competency issues'' the Coast Guard can expand its investigation 
to determine whether a deficiency exists, and may require additional 
tests, inspections, or crew drills. On July 7, 2011 we announced in the 
Federal Register a risk-based oversight program for MODUs that will 
result in more frequent examinations of the highest risk MODUs based on 
accident history, past discrepancies, flag state performance, and 
classification society performance. Marine inspectors will focus on 
critical areas representing the greatest risks, such as dynamic 
positioning systems and operator competency. The President's Fiscal 
Year (FY) 2012 budget request seeks additional Marine Safety personnel, 
including Inspectors and Investigators, to staff vessel inspections and 
post-incident investigations.
    Additionally, we are actively engaged in oversight of rapidly 
developing well spill containment capabilities (Marine Well Containment 
System and Helix Well Control Group) to promote rigorous testing to 
ensure these response vessels are capable of responding to a deepwater 
well spill and meet applicable safety and environmental requirements. 
We recently established an OCS Activities Matrix Team to leverage 
expertise throughout the Coast Guard including various headquarters 
offices, the Marine Safety Center, the Eighth Coast Guard District in 
New Orleans, LA, and the OCS Center of Expertise. This team will focus 
on emerging OCS issues and enhance the Coast Guard's ability to address 
them, increase our plan review and inspection oversight, support 
investigations and casualty analysis, and provide a holistic approach 
to management of OCS safety programs.
    The Coast Guard shares MODU regulatory responsibilities with the 
BOEMRE and each agency's areas of responsibility are delineated in 
regulations as well as in Memorandums of Understanding. In general, the 
Coast Guard's primary responsibilities are related to vessel operations 
and safety systems including firefighting, lifesaving, electrical 
systems, and hull structures on the MODU and BOEMRE's primary 
responsibility is subsea operations and drilling systems. The Coast 
Guard does not oversee drilling systems, but the interface between 
subsurface and surface operations warrants close coordination and 
collaboration between both agencies. We continue to engage and improve 
coordination with BOEMRE through a Prevention Working Group that 
focuses on enhancing alignment and consistency between the two agencies 
on how inspections are conducted. The team will coordinate closely with 
Coast Guard-sponsored OCS stakeholder organizations such as the 
National Offshore Safety Advisory Committee (NOSAC) and other BOEMRE-
Coast Guard meetings and Working Groups as vehicles for improving OCS 
safety.
    The lessons learned from the BP Deepwater Horizon oil spill 
emphasize the importance of updated and comprehensive Regional and Area 
Contingency Plans around the Nation. The Coast Guard, as the FOSC for 
oil spills in the coastal zone, is ensuring the Worst Case Discharge 
(WCD) planning scenarios are accurate and reflect all potential sources 
for oil spills, including offshore facilities.
    The Coast Guard and BOEMRE have formed a joint Response Workgroup 
to improve interagency partnerships and collaboratively work on 
improving preparedness efforts in several areas post-Deepwater Horizon. 
Significant Workgroup initiatives include joint Oil Spill Response Plan 
(OSRP) Review, Regional Contingency Plan and Area Contingency Plan WCD 
Gap Analysis, joint BOEMRE/Coast Guard pollution equipment compliance 
inspections, and a review of the effective daily recovery capacity 
standard for mechanical recovery equipment. The Coast Guard and BOEMRE 
have conducted a joint review of OSRP in BOEMRE's OCS Gulf of Mexico, 
Pacific, and Alaska Regions. This review, which included Coast Guard 
participants from each region, identified the most accurate, up-to-date 
WCD information for offshore facilities. In addition to the OSRP 
review, a comprehensive analysis of Regional Contingency Plans (RCP) 
and Area Contingency Plans (ACP) was conducted to identify significant 
WCD preparedness gaps.
    The Coast Guard directed Area Committees to address these gaps and 
ensure WCD planning scenarios in all oil spill contingency plans 
reflect WCD information identified during the joint OSRP review. As 
mentioned in several key Deepwater Horizon lessons learned reports, the 
Coast Guard identified the need for Area Committees to encourage more 
participation from state, local and tribal officials in oil spill 
planning and preparedness efforts. The Coast Guard also re-emphasized 
existing guidance for District and Sector Commanders to develop 
aggressive outreach programs with state, parish, county, and other 
local officials.
    The Federal Emergency Management Agency (FEMA), Environmental 
Protection Agency (EPA), and Coast Guard, via the chairs of the 
National Response Team (NRT) and the Emergency Support Function 
Leadership Group (ESFLG), have formed a working group to develop 
recommendations that support improvements for responses involving the 
whole of government under both the National Response Framework (NRF) 
and the NCP. This working group is conducting a comprehensive review of 
the similarities, differences and synergies between the NRF and the 
NCP.
    The BP Deepwater Horizon oil spill response also highlighted the 
need for Oil Spill Research and Development. The FY 2011 appropriations 
included $4 million for research, development, test, and evaluation of 
technologies to prevent and respond to oil and hazardous substance 
spills. In addition, the President's FY 2012 budget request includes a 
full-time position for the Interagency Coordination Committee on Oil 
Pollution Research (ICCOPR) and Research Development Test & Evaluation 
funding for Oil Spill Detection/Response.
    The DWH response highlighted the need for highly qualified surge 
personnel in the event of pollution incidents. Swift identification of 
trained and experienced personnel is critical in supporting FOSCs as 
they carry out their statutory responsibilities. To improve personnel 
competency in areas that support the Coast Guard FOSCs, we are 
strengthening our Marine Environmental Response training program for 
all responders. The President's FY 2012 budget request seeks 87 new 
environmental response personnel.
    We are also developing a FOSC Representative course that will 
provide greater competency among junior officers and enlisted personnel 
who may be called upon to provide command and control functions during 
a range of oil spill and hazardous material incidents. The President's 
FY 2012 budget request also includes funding to establish a Coast Guard 
National Incident Management Assistance Team (IMAT) to an immediate, 
highly proficient, and deployable surge capacity to Coast Guard 
Incident Commanders nationwide to responds to threats and other 
disasters.
    We continue to provide leadership and direction toward the 
establishment of a permanent civilian Regional Response Team (RRT) Co-
Chair position at each Coast Guard District. These permanent Co-Chairs 
will provide leadership, continuity and subject matter expertise to 
regional elements of the National Response Systems and NRF.
    Finally, we are considering personnel enhancements in the pollution 
response field that will allow our high-performing Marine Science 
Technician enlisted members to advance into greater leadership roles. 
Once in place, these experts will be able to lead the Coast Guard 
through future pollution incidents.
Conclusion
    The BP Deepwater Horizon oil spill response required the 
collaborative and sustained response of more than 1,000 organizations 
and the lessons learned will help inform future Coast Guard operations. 
The OPA '90 as well as the NCP were used effectively, and the Incident 
Command System's scalable organizational structure proved effective in 
bringing together Federal, state, local, tribal, and private sector 
entities. The division of responsibilities between the NIC and staff 
working at the National level, and the FOSC serving as Unified Area 
Commander at the regional level, was effective in managing national, 
regional and local demands of this first ``Spill of National 
Significance.''
    Thank you for the opportunity to testify before you today and I 
will be pleased to answer your questions.

    Senator Begich. Thank you very much, Admiral.
    Mr. Kennedy?

                 STATEMENT OF DAVID M. KENNEDY,

        ASSISTANT ADMINISTRATOR, NATIONAL OCEAN SERVICE,

NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, DEPARTMENT OF 
                            COMMERCE

    Mr. Kennedy. Thank you, Chairman Begich, members of the 
Committee, for the opportunity to testify on the ongoing 
response to, and lessons learned from, the Deepwater Horizon 
oil spill.
    I appreciate the opportunity to discuss NOAA's response to, 
and lessons learned from, the Deepwater Horizon oil spill. NOAA 
has been working tirelessly from the first day of the BP 
Deepwater Horizon spill, and we will continue in our efforts 
until cleanup of residual oil, assessment of the spill's 
ecological and human use impacts, and restoration of the 
injuries, are complete.
    My testimony today will discuss the continuing challenges 
NOAA faces in the wake of the spill, the progress of ongoing 
and long-term removal and restoration activities, and the 
emerging needs for improved oil spill prevention response and 
restoration.
    The Deepwater Horizon oil spill was a grave reminder that 
Spills of National Significance can occur despite the many 
safeguards and improvements in place since the passage of the 
Oil Pollution Act of 1990. Although our best option is still to 
prevent spills from, to, from occurring, the risk of spills 
remains a concern, given the limitation and age of offshore and 
onshore oil infrastructure, and frequency and volume of oil 
transported through our waterways.
    If a spill does occur, responders must be equipped with the 
appropriate tools and information. An effective response based 
on solid science and smart decisionmaking does not just produce 
cleanup costs--it ultimately decreases environmental and 
socioeconomic impacts which can be more costly in the long 
term.
    To ensure that appropriate tools and information are 
available to responders and decisionmakers facing the next 
Spill of National Significance, the public and private sectors 
must continue to invest time and resources in spill-response 
research and development in the aftermath of this disaster. 
While existing research has resulted in advancement of some 
response technologies, more must be done to strengthen our 
Nation's response and restoration capabilities.
    Critical needs for further research and development are 
amplified when we examine challenges realized during Deepwater 
Horizon spill, and when we consider the emerging prospects of 
expanded offshore exploration and production in remote and 
ecologically sensitive areas. Examples of these well-documented 
needs include better understanding of the oil fate and behavior 
from deepwater releases; technological innovation for oil 
detection and modeling at the surface and in deep water; 
increased information on the long-term effects to injured 
species and habitats; and greater perspective, in particular, 
on social dimensions of spills, including community effects, 
risk communication methods--I think, very important, and 
valuation of natural resources.
    In addition, many of today's standard approaches to oil 
spill response, cleanup, and restoration have not been 
extensively evaluated in remote areas like the Arctic, and 
their utility in such environments is known to be significantly 
less effective. For example, the need to better understand oil 
in ice, weathering and transport, effectiveness of 
countermeasures in Arctic conditions and ecosystem impacts to 
that unique area in order to make responsible decisions.
    This issue also exemplifies the need for focused peer 
review research on oil spill response technologies, and 
development of new strategies and recommendations for key 
decisionmakers in the event of emergency.
    NOAA, along with our co-trustees, is also charged with 
assessing and restoring natural resources injured by an oil 
spill. The goal of the assessment process is to determine the 
type and amount of restoration needed to compensate the public 
for injury to said resources. Trustees also assess the public's 
lost was of the resource, which includes losses in recreational 
fishing, boating, hunting and swimming. The ultimate goal of 
NRDA is to implement a package of restoration projects that 
compensate the public for all ecological injuries and human 
recreational loss use combined.
    Concurrent with the Deepwater Horizon injury assessment, 
NOAA and the co-trustees are planning for and beginning to 
implement restoration. To date, the Trustees and BP had agreed 
to implement several emergency restoration projects designed to 
curtail further injury to resources. In particular, the 
trustees will implement a project to mend scars created in sea 
grass beds caused by response equipment--mainly boat propellers 
in Florida. Designated areas in Mississippi wildlife management 
areas that have also been flooded to attract migratory birds 
that otherwise might gather in oil-impacted area, areas.
    The Trustees are also preparing an environmental impact 
statement, which will identify a range of restoration 
alternatives that Trustees will consider to compensate the 
public for lost natural resources and services in the future. 
On April 21 of this year the Trustees announced an agreement 
under which BP committed to make $1 billion available to fund 
appropriate early restoration projects. Public input on early 
restoration projects has already begun, and will continue 
through the summer.
    The Deepwater Horizon oil spill presented a unique 
challenge to NOAA and all who have worked, and are still 
working, to address its impacts. NOAA has the underlying 
capacity and expertise to coordinate and deliver essential 
science-based services under oil and--during oil and hazardous 
material spills efficiently and effectively. As a result of 
Deepwater Horizon, NOAA examined and critically evaluated our 
capacity and ability to respond to such large scale events.
    For NOAA to continue to be the scientific leader for 
response to coastal marine spill, as well as other coastal 
hazards, it is critical to have adequate capacity and necessary 
resources to conduct, lead, and coordinate scientific research, 
and develop decision-support tools for informed and effective 
response and damage assessment.
    Thank you for allowing me to provide the update on the 
Deepwater Horizon oil spill. I'd like to close today by 
assuring you that we will not relent in our efforts to protect 
the livelihoods of Gulf Coast residents, and mitigate the 
environmental impacts of the spill.
    I'm happy, of course, to answer any questions you might 
have.
    [The prepared statement of Mr. Kennedy follows:]

   Prepared Statement of David M. Kennedy, Assistant Administrator, 
       National Ocean Service, National Oceanic And Atmospheric 
                 Administration, Department of Commerce
    Thank you, Chairman Begich and members of the Subcommittee, for the 
opportunity to testify on the Department of Commerce's National Oceanic 
and Atmospheric Administration's (NOAA) ongoing involvement in the 
Deepwater Horizon BP oil spill response effort.
    My name is David Kennedy, I am the Assistant Administrator for 
NOAA's National Ocean Service, and I am honored to be here to discuss 
the critical role NOAA serves in the Natural Resource Damage Assessment 
(NRDA) process following oil spills and the importance of our 
contributions to protect and restore the natural resources affected by 
this tragic event.
    NOAA's mission is to understand and predict changes in the Earth's 
environment and conserve and manage coastal and marine resources to 
meet our Nation's economic, social, and environmental needs. NOAA, 
acting on behalf of the Secretary of Commerce, is also a natural 
resource trustee and is one of the Federal agencies responsible for 
protecting, assessing, and restoring the public's coastal and marine 
natural resources when they are impacted by oil spills, hazardous 
substance releases, and, in some cases impacts from vessel groundings 
on corals and in seagrass beds. For over 20 years, NOAA has assessed 
and restored coastal, marine, and riverine habitats impacted by oil 
spills. During this period, NOAA was instrumental in evolving the field 
of restoration ecology and is one of the Nation's leaders in 
environmental restoration following an oil spill.
    The Deepwater Horizon BP oil spill, the largest accidental oil 
spill in history, is only the most recent example of the environmental 
and socioeconomic damage caused by oil spills, and underscores the 
importance of and the linkage between healthy environments and our 
socioeconomic wellbeing. As such, the entire Department of Commerce is 
deeply concerned about the immediate and long-term environmental, 
economic, and social impacts to the Gulf Coast and the Nation as a 
whole from the BP oil spill. NOAA and our co-trustees have been working 
tirelessly to assess the ecological impacts and identify restoration 
opportunities along the coastal and offshore areas of the Gulf of 
Mexico, and will continue to do so until restoration from those impacts 
is complete.
    My testimony today will discuss NOAA's involvement in the NRDA 
process, the status of the NRDA for the Deepwater Horizon BP oil spill, 
successes and challenges of the Deepwater Horizon NRDA, and the current 
status of restoration efforts.
NOAA's Natural Resource Damage Assessment Role
    NOAA has several critical roles mandated by the Oil Pollution Act 
(OPA) of 1990 (33 U.S.C. 2701 et seq.), one of which is as a natural 
resource trustee. As a trustee, NOAA, along with our co-trustees, is 
charged with conducting a NRDA to assess and restore natural resources 
injured by an oil spill. The NRDA process is a legal process that is 
resolved through a claim for restoration submitted to the courts. The 
essence of the process is to determine the type and amount of 
restoration needed to compensate the public for harm or injury to our 
collective natural resources that occur as a result of an oil spill. 
Inherent in this process is the need to assess the injuries to natural 
resources that are caused by the oil spill itself, as well as those 
caused by actions carried out as part of the oil spill response. 
According to NOAA's regulations implementing the OPA, injury is 
determined relative to baseline, which is ``the condition of the 
natural resources and services that would have existed had the incident 
not occurred'' (15 C.F.R.  990.30). For restoration, OPA requires the 
trustees to restore, rehabilitate, replace, or acquire the equivalent 
of the injured natural resources and services (33 U.S.C. 2705, see also 
15 C.F.R.  990.30) and in doing so seeks a nexus between the types and 
magnitude of the injury and the restoration.
    In assessing the injuries to the suite of ecological services 
provided by the natural resources, NRDA also assesses the public's lost 
uses of those resources, such as recreational fishing, recreational 
boating, hunting, and swimming. The goal is to implement a 
comprehensive package of restoration projects that compensate the 
public for all of the ecological and human use loss injuries.
    Stewardship of the Nation's natural resources is shared among 
several Federal agencies, states, and tribal trustees that conduct 
NRDAs. NOAA, acting on behalf of the Secretary of Commerce, is the lead 
Federal trustee for many of the Nation's coastal and marine resources. 
NDRA regulations explicitly seek participation by both responsible 
parties and government (15 C.F.R.  990.14(c)(1)) to facilitate the 
restoration of natural resources and their services injured or lost by 
hazardous substance releases and oil spills. OPA also encourages 
compensation of injured natural resources in the form of restoration, 
with public involvement in determining the types and magnitudes of the 
restoration (33 U.S.C. 2706(c)(5)). NOAA and our fellow trustees 
conduct a NRDA in three main phases:

  <bullet> Preassessment--The trustees evaluate injury and determine 
        whether they have jurisdiction to pursue restoration and if it 
        is appropriate to do so.

  <bullet> Restoration planning--The trustees evaluate and quantify 
        potential injuries and use that information to determine the 
        appropriate type and scale of restoration actions.

  <bullet> Restoration implementation--The trustees and/or the 
        responsible parties implement restoration and monitoring. This 
        may include corrective actions if necessary.

    Within NOAA, the Damage Assessment, Remediation, and Restoration 
Program (DARRP) conducts NRDA. Established in 1990 after the Exxon 
Valdez oil spill, DARRP is composed of a team of scientists, 
economists, restoration experts, and attorneys to assess and restore 
injured resources. Since 1990, NOAA, together with other Federal, 
state, and tribal co-trustees recovered over $800 million for 
restoration of natural resources injured by oil, hazardous substances, 
and vessel groundings, including the recent early restoration agreement 
with BP. NOAA works cooperatively with co-trustee agencies and (in the 
case of a cooperative assessment of injuries) the responsible party (or 
parties) to share data and information collected during the spill and 
during the injury assessment. Working cooperatively with the 
responsible party and co-trustees can save time and money and can 
result in restoration being implemented faster and more efficiently.
    Although the concept of assessing injuries may sound relatively 
straightforward, understanding complex ecosystems, the services these 
ecosystems provide, and the injuries caused by oil and hazardous 
substances takes time--often years. The time of year the resource was 
injured, the type of oil or hazardous substance, the amount and 
duration of the release, and the nature and extent of clean-up are 
among the many diverse factors that affect how quickly resources are 
assessed and restoration and recovery occurs. OPA requires that the 
trustees be able to demonstrate connections between the release of the 
oil, the pathways the oil moves along from the release point to the 
resources, exposure of the resources to the oil, and finally a causal 
connection between exposure and resource injury. The litigation context 
in which NRDA is conducted requires an elevated level of scientific 
rigor for the studies that are required to demonstrate these 
connections in order to ensure that our studies are accepted into court 
as evidence in the case. This level of scientific rigor coupled with 
the complexity of the ecosystems that are impacted by the spill means 
that the studies necessary to prove injury to resources and services 
may also take years to implement and complete. The NRDA process seeks 
to ensure an objective, scientifically rigorous, and cost-effective 
assessment of injuries--and that harm to the public's resources is 
fully addressed.
Current Status of NOAA's Natural Resource Damage Assessment Efforts
    At the outset of the Deepwater Horizon BP oil spill, NOAA quickly 
mobilized staff from DARRP to begin coordinating with Federal and state 
co-trustees and the responsible parties to collect a variety of 
ephemeral data that are critical to help inform the NRDA. The trustees 
are currently assessing the injuries to the Gulf of Mexico and 
soliciting public involvement in various restoration initiatives. On 
September 29, 2010, the trustees sent BP a Notice of Intent to Conduct 
Restoration Planning. This indicates that the trustees determined they 
have the jurisdiction to pursue restoration under OPA and moves the 
case from Pre-assessment Phase into the Restoration Planning Phase. In 
this phase, the trustees formally identify and document impacts to the 
Gulf's natural resources, and the public's loss of use and enjoyment of 
these resources in order to determine the appropriate restoration 
projects to compensate for those losses.
    The Deepwater Horizon NRDA focuses on assessing the injuries to all 
ecosystem resources from the deep ocean to the coastlines of the Gulf 
of Mexico. Information continues to be collected to assess potential 
impacts to fish, shellfish, terrestrial and marine mammals, turtles, 
birds, and other sensitive resources, as well as their habitats, 
including wetlands, beaches, mudflats, bottom sediments, corals, and 
the water column. Lost human uses of these resources, such as 
recreational fishing, hunting, and beach use, are also being assessed. 
Technical teams consisting of scientists from state and Federal 
agencies, from academic institutions, and from BP have been in the 
field conducting daily surveys and collecting samples for multiple 
resources, habitats, and services. To date, several hundred scientists, 
economists, and restoration specialists have been and continue to be 
involved in our NRDA activities.
    These assessment teams, called technical working groups (TWG) have 
been established to determine the oil spill's impact on multiple trust 
resources. The TWGs are responsible for identifying endpoints and 
developing procedures and methods to measure potential injury to their 
respective resources in study plans. Currently, there are thirteen TWGs 
divided into the 1following categories: water column and sediments, 
turtles and marine mammals, shorelines, terrestrial species, human use, 
shallow water corals, oysters, birds, submerged aquatic vegetation, and 
deep sea benthos. Several support TWGs have also been established to 
help ensure TWGs have the resources and data that they need. The study 
plans are selected and designed based upon our experiences from past 
oil spills and sound science with the main purpose of documenting and 
quantifying injury to a particular trust resource or service.
    There are several steps in the development of a NRDA study plan. 
First, the TWG members identify an injury assessment approach or 
methodology for a particular resource. They then design and draft the 
study plan to address one or more questions related to the release, 
pathway, exposure, and injury resulting from the release of oil. The 
study plan is reviewed within the TWG, for scientific and statistical 
rigor, before the plan is reviewed by Deepwater Horizon case managers. 
As prescribed under the Oil Pollution Act NRDA regulations, the 
trustees afford BP the opportunity to review and provide input to the 
trustees in the development of study plans and many of the plans have 
been agreed to by representatives of the trustees and BP. Cooperation 
facilitates the cost effective collection and sharing of data, while 
allowing all parties to conduct their own analysis and interpretation 
of that data. It is important to note that at any time the trustees 
have the authority to withdraw from any cooperative assessment. Current 
study plans are focused on the causal connections between documented 
exposure to oil and injury to resources and services.
    Once BP or their contractor weigh in, the trustees then decide 
which, if any, of BP's comments to accept. The plans are then submitted 
to BP, as one of the responsible parties, to either approve and fund or 
decide not to fund. When trustees cannot reach agreement with BP, or BP 
decides not to fund the study, the trustees use their own funding 
sources (e.g., from the Oil Spill Liability Trust Fund) to conduct the 
study. Once the source of funds has been identified, the study plan is 
sent to contracting for processing if necessary. Studies have been 
developed over the course of days to weeks, and have not been delayed 
by the source of funds. It should be noted that even if the agencies 
fund the study, they still expect to recover those costs as 
``reasonable costs'' of the assessment (33 U.S.C. 2702(b)(2)(A)).
    Due to the size of the Deepwater Horizon release and the large 
potential for injury, NRDA field efforts have far surpassed any other 
for a single oil release. As of June 9, 2011, the trustees had approved 
over 115 study plans and collected more than 36,000 water, tissue, 
sediment, soil, tarball, and oil samples. More than 90 oceanic cruises 
have been conducted since early May 2010 and many more are scheduled 
for the summer and fall of 2011. From these sample collection efforts, 
more than 21,300 laboratory analyses have been completed. Of those, 
more than 20,400 have been validated through a rigorous quality 
assurance process. Once these data clear the validation process, they 
are then made publicly available; a new milestone in NRDA public 
transparency.
Current Status of Restoration Efforts
    The NRDA regulations define three types of restoration: emergency 
(15 C.F.R.  990.26), primary (15 C.F.R.  990.30), and compensatory 
(15 C.F.R.  990.30). Emergency restoration is undertaken during the 
response phase to minimize or prevent (further) injury to natural 
resources. Primary restoration is any action, including natural 
recovery that returns injured natural resources and services to 
baseline. Compensatory restoration is any action taken to compensate 
for interim losses of natural resources and services that occur from 
the date of the incident until recovery.
    To date, the trustees and BP have agreed to implement several 
emergency restoration projects designed to curtail further injury to 
different resources. In particular, the trustees will implement a 
project to mend scars created in submerged aquatic vegetation 
(seagrass) beds caused by response equipment, namely boat props, in 
Florida. Designated areas in Mississippi Wildlife Management Areas have 
been flooded to attract migratory birds that otherwise may gather in 
oil impacted areas. One initiative will collect, store, and propagate 
plants, and replant damaged shorelines along the Gulf Coast to prevent 
further injury and erosion. Another project will improve the nesting 
and rearing success of endangered sea turtles on the Padre Island 
National Seashore.
    Early restoration is the implementation of projects prior to the 
final quantification of injury. It is an emerging tool in NRDA that is 
not defined in the regulations and thus requires a great deal of 
discussion and agreement on how it will be implemented. It can fall 
under the purview of either primary or compensatory restoration.
    On April 21, 2011, the trustees announced an agreement, called the 
Framework Agreement, whereby BP agreed to fund $1 billion in early 
restoration projects. Under a separate allocation agreement the 
Department of the Interior (DOI), NOAA, and each of the five Gulf 
States (Florida, Alabama, Mississippi, Louisiana, and Texas) will 
receive $100 million to implement projects. The remaining $300 million 
will be used for projects selected by NOAA and DOI in coordination with 
the State trustees. All projects must meet the other requirements of 
the Framework Agreement, which insure a consistency with OPA, and be 
approved by the Trustee Council (comprised of all the natural resource 
co-trustees) and BP. Public input on proposed early restoration 
projects has already begun and will continue through this summer, and 
will culminate in a formal opportunity for comment once Phase 1 of the 
Draft Early Restoration Plan has been completed (some time in the 
fall).
    The benefits provided by these early restoration projects will 
eventually offset a portion of the Responsible Parties' total 
liability. Under the Framework Agreement, BP and the trustees must 
agree to the ``offsets'' that each project will generate. Each project 
will have its own stipulation, which will be filed with the court 
hearing the multi-district litigation on the accident. BP, all 
trustees, and the Department of Justice will sign each stipulation. 
This restoration should not compromise or negatively impact the NRDA 
process. Rather, it provides a rare opportunity for active restoration 
to begin prior to the full quantification of injury, a process that can 
often take years.
Next Steps
    The immediate next steps for the Deepwater Horizon NRDA are to: (1) 
continue with the injury assessment; (2) implement early restoration 
with public input; and (3) continue broader restoration planning also 
with public input.
    The trustees have assessment activities planned throughout 2011 and 
into 2012. These activities will continue to assess impacts to habitats 
and resources as warranted. This year of field activity is crucial for 
discerning sub-lethal and temporal changes in populations or habitats; 
a key component to any damage assessment.
    A draft Programmatic Environmental Impact Statement will be 
available for public review and comment in early 2012. This document 
will identify the range of restoration alternatives that the trustees 
will consider to compensate the public for lost natural resources and 
services and lost human use. Concurrently, the trustees are focused on 
engaging the public to identify early restoration projects and begin 
the implementation process.
Highlights of Success in the NRDA
    To meet the requests from academia, non-governmental organizations, 
and the general public regarding data and ongoing NRDA actions, NOAA 
and co-trustees have developed data sharing and other outreach 
practices that have resulted in one of the most transparent damage 
assessments in history. As noted previously, NRDA is a legal process, 
designed to resolve liability through restoration for the American 
public. The legal nature of damage assessment requires a degree of 
confidentiality to preserve the government's ability to make the 
strongest damage claim possible on behalf of the public in settlement 
negotiations and litigation. Nonetheless, the trustees have developed 
new public information sharing protocols to address the American 
public's unprecedented request for NRDA information, while at the same 
time, preserving the trustees' responsibility to ensure a strong legal 
case. The Administrative Record can be found online at http://
www.doi.gov/deepwaterhorizon/adminrecord/index.cfm.
    One of the key actions the trustees have taken to ensure enhanced 
transparency is the public distribution of cooperative assessment work 
plans and data during the NRDA process. Early in the Deepwater Horizon 
NRDA process, NOAA developed a NRDA Deepwater Horizon website (http://
www.gulfspillrestoration.noaa.gov) which has become an effective tool 
in providing the public with important information. This website 
currently provides access to over 80 pre-assessment work plans and 
resulting validated data that are normally kept internal to the 
trustees until the NRDA has reached a legal settlement. These efforts 
to make data publicly accessible as soon as possible while ensuring 
that rigorous scientific protocols are upheld has required substantial 
coordination efforts.
    In addition, NOAA has continued to update its publicly accessible 
Gulf Environmental Response Management Application (ERMA) website 
(http://www.geoplat
form.gov/gulfresponse), a NOAA tool that served critical operational 
and situational awareness roles during the response and will continue 
to be a vital tool during the assessment and restoration planning 
phases of the NRDA. The team that developed and evolved ERMA was 
recently named a finalist for the Homeland Security Medal for helping 
crisis managers respond to the Gulf oil spill by providing critical 
information on the flow of oil, weather conditions, location of 
response vessels, and the impact on fisheries and wildlife.
    Along with providing an unprecedented amount of data during the 
NRDA, NOAA and the other trustee agencies have sustained efforts to 
educate and communicate with the public. Since the beginning of the 
spill, NOAA has conducted numerous roundtable discussions with 
stakeholder groups and has facilitated stakeholder field trips where 
NRDA actions were observed and discussed. NOAA has also used multiple 
social media tools and videos to help disseminate information regarding 
the NRDA's status and the opportunities for public involvement. As part 
of the Programmatic Environmental Impact Statement process to solicit 
restoration project ideas, eleven public meetings were held across the 
Gulf States and in Washington, D.C. More than 500 citizens attended 
these meetings. The trustees received several hundred comments on 
restoration alternatives at the meetings, through a website, and via 
mail. Throughout the rest of the NRDA process, NOAA and our co-trustees 
envision holding public meetings where input will be formally sought on 
the damage assessment and restoration planning process.
Conclusion
    The task of quantifying the environmental damage from this spill is 
no small feat. NOAA knows that our efforts are just one of the many 
pieces required to restore the larger ecosystem within the Gulf. I 
would like to assure you that we will not relent in our efforts to 
protect the livelihoods of Gulf Coast residents and mitigate the 
environmental impacts of this spill. In the wake of such an event, we 
are reminded of the fragility of our coastal ecosystems and the 
dependence of coastal economies on the health and prosperity of our 
seas. Thank you for allowing me to testify on NOAA's damage assessment 
efforts. I am happy to answer any questions you may have.

    Senator Begich. Thank you very much, Mr. Kennedy.
    I will ask Senator Wicker to go first, and then I will hold 
to the end. That will give Mr. Lautenberg, Senator Lautenberg 5 
minutes. We'll move quicker to you. So, boom, boom. So, Senator 
Wicker first, and then I'll jump to you.
    Senator Wicker. Thank you, Mr. Chairman. It's kind of you 
to do that.
    First of all, Admiral and Mr. Kennedy, thank you for your 
service, and thank you for your testimony.
    Let me ask you first Admiral, during the height of the oil 
spill there was a lot of discussion about how international 
assistance might have been hampered by the Jones Act. Tell us 
what your investigation has found. Did, in fact, the Jones Act 
impacts skimmer and other response equipment availability 
during a spill?
    Admiral Zukunft. Yes, Senator, I'd be pleased to answer 
that.
    As the Federal On-Scene Coordinator, I approved every 
pollution response funding authorization thousands of these 
authorizations. This is everything from domestic to 
international. And when I approve those, I hand them to BP and 
then BP writes the check. The responsible party pays. And 
that's where, when we talk about the division of labor, it is 
driven from the Federal down in holding the responsible party 
accountable. And if the responsible party fails to fund that, 
then we would fund that out of the Oil Spill Liability Trust 
Fund. So, that was the mechanism in process--in place.
    And so, when I looked at what my most critical gaps were. 
It was offshore skimming capability. And so, we reached out to 
Norway and their skimming systems that they use in the North 
Sea to get that skimming equipment to the Gulf Coast, but not 
to transit by vessel, but to get it on a heavy lift, and get it 
onto an OSV and to the Gulf of Mexico. But, we invoked over 60 
foreign offers of assistance where there are critical gaps that 
need to be closed.
    There is a waiver procedure under the Jones Act, and at no 
time did the Jones Act impede the resourcing that we needed to 
respond to this unprecedented spill.
    Senator Wicker. So it's your testimony the Jones Act was 
not a problem in getting international skimmers in?
    Admiral Zukunft. That is exactly correct. That it was in no 
way an impediment.
    Senator Wicker. OK. Now, let me ask you, then, about 
whether or not, in testing for cleanups we need to try 
technologies right there in the marine environment. Do Federal 
regulations restrict the Coast Guard's ability to test cleanup 
technologies and conduct response drills on controlled oil 
spills?
    For example, are there Environmental Protection Agency 
rules that prohibit you or others from testing the 
effectiveness of new technologies in answering this type of a 
spill?
    Admiral Zukunft. We work very closely with our National 
Response Team that is co-chaired, and with the Environmental 
Protection Agency, to consider controlled spilled in the 
environment. What we, and as a rule, we do not. And it's 
primarily due to environmental concerns.
    However, we do use a facility in New Jersey called OHMSETT 
where we do, on a daily basis--I was just there 6 weeks ago. 
It's a very large area. We can introduce ice into that as well 
and----
    Senator Wicker. And so, you spill the oil in New Jersey, 
and that's just fine with me.
    Admiral Zukunft. This is a----
    [Laughter.]
    Admiral Zukunft. Yes. This is a closed facility. But, a 
very, very large body of water, and none of that does get into 
the environment.
    Senator Wicker. OK. Thank you very much for that.
    I have to ask you, Mr. Kennedy, recently there has been a 
high number of sea turtle deaths in the Gulf of Mexico . Some 
people are blaming the shrimpers. I don't know what the 
shrimpers have done differently this year than they had done in 
previous years. Have you ruled out scientifically the oil spill 
as a cause of the sea turtle deaths?
    Mr. Kennedy. No, we have not. We, though, are looking very, 
very carefully at the mortalities, try and collect as many of 
those turtles as we can, conduct necropsies, and look very 
carefully at what we think the cause of death might be. The 
studies are ongoing. And----
    Senator Wicker. What do your initial findings show?
    Mr. Kennedy.--the initial findings are that the majority of 
the necropsies that we have conducted, and these are on the 
near shore--shallow areas where the turtles have been found--
that the turtles are quite healthy, that they're feeding 
normally, and that their mortality is acute. All of those 
things are not normally associated with some sort of exposure 
and longer term mortality.
    So, what we're finding, at least in a number of the 
necropsies, is that this appears to be somehow associated with 
bycatch.
    Senator Wicker. I see. With some sort of trauma.
    Mr. Kennedy. Yes.
    Senator Wicker. And not toxicity----
    Mr. Kennedy. Yes.
    Senator Wicker.--in the water.
    Mr. Kennedy. Having said that, we absolutely have not ruled 
out--and continue to investigate what is going on there. And 
there are some examples that do not fit into that category I 
just described. So, I think the answer to your question is, we 
have not ruled that out, and we're aggressively continuing to 
look.
    Senator Wicker. Thank you both.
    Senator Begich. Thank you very much.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    Gentlemen, thank you for your public service.
    We had a failed decision-making apparatus. The Unified 
Command, to begin with, did not react as hard as people were 
working, and as individually as they were just giving it their 
all. The decision-making apparatus was not quick enough, and 
there was too much leeway for BP.
    I don't want to take the time, but I may as well, just to 
remind everybody that it started out, oh, it was only going to 
be 1,000 barrels a day, and then that was revised upwards, and 
it was revised upwards and upwards, and it ended up being 
something in excess of 26,000 barrels a day.
    What would you two recommend as an improved decision-making 
apparatus in a command structure that, the next oil spill, that 
we have in place?
    Why don't I ask the civilian first?
    And then to you, Admiral.
    Admiral Zukunft. Yes, sir.
    Mr. Kennedy. I will just start, I think, by saying that 
I've been doing oil spill response, one kind or another, for 25 
years. I know I look like I'm 35, but I'm actually a little 
older. And I have never--and I was involved in the Exxon Valdez 
spill deeply, as well. I've never seen anything that even 
approached the complexity of the issues that we had to deal 
with. And I think it's not, I think you have to start there. I 
think you have to start with the fact that none of us could 
have anticipated, even with a Spill of National Significance, 
how complex the issues were, and how they continued to kind of 
expand in their complexity, and all of this under a very, very 
strong, strong public spotlight and scrutiny.
    Having said that, I think there are a number of things that 
we potentially could do better. But, to stand up an 
organization of this magnitude, where you had, from every 
agency, parts of it brought in that had never been in a 
response mode before, you probably would start with more 
training for more of the entities within--just speaking for 
NOAA--for more of the entities within your organization, to get 
them better equipped, to know what to do on a response. 
Response mode is kind of a special mode, and it takes a lot of 
training and kind of a mindset.
    As we brought more and more and more of NOAA, for instance, 
all of our ships which, you know, are not normally involved in 
oil spills, the satellites, the aircraft, and all of our 
experts from every discipline, into this event, it took a 
little time to spin them up. And I think, so communication, 
training, and I----
    Senator Nelson. All right. Let me just stipulate----
    Mr. Kennedy. Yes.
    Senator Nelson.--with you there that it was complex, and it 
was extraordinary. But, you all let BP, basically, direct a lot 
of the response. It wasn't until some of us up here, including 
Senator Boxer, forced the availability of that live streaming 
video, that scientists could then see how much oil was coming 
out 5,000 feet below the surface, and do their calculations. 
This wasn't anywhere close to 1,000 barrels.
    So, what would you do in the command structure so that BP 
is not running the show?
    And I take nothing away from all the people that gave their 
heart and soul in doing this. What we're trying to do here is 
lessons learned, so that we don't repeat the mistakes of the 
past.
    Mr. Kennedy. Oil Pollution Act and National Contingency 
Plan, as the Admiral mentioned, I think, do lay out what we're 
supposed to do. I think when you have something this complex, 
you maybe have some learning curves on how that structure 
works. But there is a very specific structure in place. And I'm 
going to turn to the Admiral and let him handle this. This is 
his business.
    Senator Nelson. OK, so, what you're saying is, a specific 
structure in place. So----
    Mr. Kennedy. Yes.
    Senator Nelson.--does that mean we need to amend the law so 
that we don't fall back? Because if you're saying the statute 
required the way it was operated in the past, then that's one 
of the lessons learned.
    Mr. Kennedy. I think we're all saying that we should look 
at the Oil Pollution Act and see if there are amendments that 
are needed. But I think a better understanding across the board 
of what the current act is and how it is executed would help us 
as well.
    Admiral Zukunft. OK.
    Leading up to this, you know, we have a very mature area 
contingency plan process, where we work with all the 
stakeholders, we work with the Regional Response Teams, 
identify environmentally sensitive areas. And that's leading up 
to--and we exercise this in our Spills of National 
Significance.
    Those Spills of National Significance exercises do not get 
fully exercised at the local level. We're working in the Gulf 
of Mexico. For example, the state of Louisiana had five ongoing 
federally declared disasters under the Stafford Act. And this 
was the first time that the SONS--the NIC construct--under the 
Oil Pollution Act had seen the light of day since Exxon Valdez.
    Working communities that were very used to State-driven 
Stafford Act responses, which is a co-shared expense process 
to, now under National Contingency Plan, which is federally 
driven, where the Federal Government holds the responsible 
party accountable for paying every bill associated with that 
response and taking every measure necessary.
    The challenge we had was in critical resources. Because of 
the challenges with the planning process, and full ownership, 
from local up to State, when that first drop of oil came 
ashore, it may not have been on an environmentally sensitive 
area, but there was a mandate to boom the entire Gulf of 
Mexico, to the point where we had nearly 4 million feet of hard 
boom, another 10 million feet of sorbent boom, strung across 
the Gulf of Mexico. That boom did not exist in our Nation's 
inventory.
    Senator Nelson. Yes, But boom doesn't work off of a beach. 
So right there you have to adjust.
    Admiral Zukunft. Yes, sir.
    Senator Nelson. Well. I don't want to take any more time. I 
want others to have a chance.
    But, in all of this conversation I've been seeking a 
recommendation from you all on how we can make that command 
structure better. And I have not heard a recommendation. So, my 
recommendation, Mr. Chairman, would be, if they would like to 
respond in writing with a specific recommendation. If we need 
to change the statute, then that's what we're here for.
    But the next time around we sure want a crisp, chain of 
command. The order is given, and you don't have somebody trying 
to bungle it up, regardless of how complicated it is.
    Senator Begich. Let me----
    Admiral Zukunft. Thank you.
    Senator Begich. Thank you very much, Senator Nelson.
    And I'd make that as a formal request of the Committee, 
that you could respond to that. Actually, that was one of my 
questions for both of you also, to, if you could give 
recommendations that you might think in the law could be 
changed in order to make it--and I'll use the words of Senator 
Nelson--a more crisp and efficient response. We'll make that as 
one of the questions for the record from the Committee in 
total.
    [The information referred to follows:]

    NOAA recommendations on (1) how to improve the Unified Command 
structure and on (2) what changes are necessary in the Oil Pollution 
Act to improve it.

        1. Under the National Oil and Hazardous Substances Pollution 
        Contingency Plan, the U.S. Coast Guard acts as the Federal On-
        Scene Command for oil spills in U.S. navigable waters. NOAA 
        provides scientific support to the Coast Guard for such spills 
        and may also assist EPA and state authorities if requested. 
        NOAA is also a member of the National Response Team and 
        Regional Response Teams. Through training, exercises, and 
        workshops, we work with Federal, state and local agencies and 
        coastal communities to improve preparedness for oil spill 
        response.

        Given the unfortunate scale, complexity, and unprecedented 
        nature of the Deepwater Horizon oil spill, some aspects of the 
        Unified Command Structure may not have been executed by design; 
        however, this was mainly a result of the tremendous challenge 
        presented by the equivalent of a new major spill every day for 
        more than 3 months. From NOAA's perspective, greater and more 
        consistent support for oil spill research and development as 
        well as more emphasis on planning activities, training, 
        exercises, and workshops are needed for Federal, state, and 
        local agencies and coastal communities to improve preparedness 
        for coastal environmental disasters.

        Furthermore, while needed improvements based on lessons from 
        Deepwater Horizon have been well documented and will need to be 
        addressed, the Unified Command I Incident Command System, as 
        designed, is an effective and efficient structure for managing 
        oil spill response.

        2. NOAA supports recommendations of the National Commission on 
        the Deepwater Horizon Oil Spill that call for mandatory funding 
        for oil spill response research and development (R&D) and 
        provide incentives for private-sector research and development.

        One recommendation of the Commission is to ensure R&D funding 
        is not subject to the annual appropriations process and is 
        provided at a level equal to or greater than the amount 
        authorized by the Oil Pollution Act of 1990. These funds should 
        be focused on increasing sustainable Federal funding for oil 
        spill response research by agencies such as NOAA.

        By removing oil spill research and development funding from the 
        ordinary appropriations process, Congress can avoid the 
        experience that followed the Exxon Valdez spill, when support 
        for response research and development decreased over time.

    Senator Begich. Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman.
    We are at this hearing to learn what to do as a result of 
the several serious oil spills in the past, and most recently 
in the Gulf of Mexico.
    Chemical dispersants to break down large amounts of surface 
and subsurface oil were used. And despite concerns about 
dispersant safety, that actually predates the Exxon Valdez oil 
spill, we're still not sure about what the effects are for the 
concentrations of these dispersants. They were never made 
available to the public.
    Now, when we look and see that we are still reeling from 
the oil spills that took place years ago like Exxon Valdez, 
we're still, have many species that haven't yet returned to 
their quantity, or their, the quality of their existence.
    Now, I have introduced legislation that required testing of 
dispersants, including their long-term effects, before they're 
used, and the required disclosure of the ingredients in these 
dispersants.
    Now, would more information about dispersants, do you 
think, affect your oil spill response efforts? Might there be 
an influence there? Admiral?
    Admiral Zukunft. Thank you, Senator.
    When we use, made the decision to use Corexit 9500, we 
worked off an EPA-approved product list. The Regional Response 
Team had preapproval to apply dispersants. Obviously, we were 
in uncharted territory when we reached a magnitude of 1.8 
million gallons of dispersants applied both on the surface and 
subsurface.
    I will say, as the Federal On-Scene Coordinator, there were 
periods of up to 16 consecutive days where, because of the wind 
state, the sea states, we had to draw down the response on two 
occasions because of potential approaching hurricanes, and 
we're streaming live video of oil spilling. And then watching 
that oil come in to Barataria Bay and to Perdido Pass, and 
other locations, where we're trying to knock this down as far 
offshore as possible. And so you really, at that time, it would 
be great to have that information, you know, at my disposal, 
rather than waiting 3 months for a study. But I have to make a 
decision within 24 hours. After the 24-hour window expires, 
that dispersant is no longer effective.
    So, those are the tradeoff decisions I had to make--you 
know, how do I mitigate the effect of the spill, apply 
dispersants as far offshore as possible? And then, after the 
well was permanently plugged and abandoned, we did, working 
with NOAA, undertook the most aggressive undersea monitoring 
effort ever conducted in the Gulf of Mexico, looking for oxygen 
depletion, concentrations of oil and oil debris on the sea 
floor in depths of 5,000 feet.
    In the preliminary findings--and this was to determine if 
any further response, oil removal, was necessary--and as a 
result of that study, no further findings were necessary. That 
report was made public in the late December time-frame.
    Senator Lautenberg. So, do you think we've appropriately, 
now, analyzed the material that's in the dispersants and the 
dangers that it, they could represent? Are you satisfied that 
because you didn't find further damage at that time, that we 
are fully familiar with what the dispersants might bring, and, 
to the continuing following up of the accidents?
    Admiral Zukunft. I'm not, because we don't have a whole of 
science peer review. And so, the challenge I would deal with on 
a daily basis is, getting whole of science concurrence, and so, 
that's a challenge as well. So, it really needs to be fully 
peer reviewed and concurred with. So, further work is needed.
    Senator Lautenberg. And let it not be thought for a moment 
that we didn't appreciate the work and the bravery of the Coast 
Guard, their people. There was no task that was asked, that 
they didn't fulfill, and we're very proud of----
    Admiral Zukunft. Thank you, sir.
    Senator Lautenberg.--you and your people, and I want you to 
keep up the courage and the response that you give to things in 
your bailiwick.
    Now, the Coast Guard and NOAA play leading roles in 
responding to oil spills. But even in the best of times these 
agencies are called on to do more with less.
    Now, if the budgets for NOAA and Coast Guard are cut even 
further, as some are proposing, would your agency be able to 
help--both agencies--to respond to two major spills at the same 
time?
    Admiral Zukunft. First of all we're very thankful for the 
proposed budget in Fiscal Year 2012. That does address some of 
our resource shortcomings for incident management response.
    But, in reflecting on the Deepwater Horizon, this was 87 
major spills. And I say that because we had one day we 
recovered 30,000 barrels of oil, most of this well offshore. 
And this is not oily water, this is oil, it's in situation 
burning oil recovery, 1.2 million gallons, about 20 percent of 
Exxon Valdez. The next day we had the same amount of oil, and 
the next day we had the same amount of oil. So, every day the 
spill duplicated itself, and it almost became exponential.
    So, the fact that we are able to respond to 87 spills, with 
the augmentation of personnel that is in the 2012 budget, with 
the cooperation of inter-agencies, this was a tremendous 
learning experience at the local, Federal, tribal, 
international level. And shame on us if we don't take these 
lessons and apply those to future challenges, especially in the 
Arctic, in the Northwest, and to Cuba as well.
    Senator Lautenberg. Admiral, are you saying--and I'll be, 
this will be it--that you, 87 spills, and your response 
suggests that, maybe you could be doing with less funding in 
response to my question?
    Admiral Zukunft. We were sorely stressed in,--this was a 
campaign. We had exhausted our reserve call-up capability, and 
so we were thankful that this well was capped when it was. If 
we were still responding today--again, this was, most spills 
are an instantaneous release like Exxon Valdez. But, when you 
have a spill in deepwater dealing with hydrates, the 
complexities, great depths, and access, that is a, you know, 
that is the new frontier we're living in. And where is that 
exploitable oil and gas? You know, it's in that new frontier. 
It's either in deep water, or maybe in the Arctic, or it may be 
in a country where we don't have diplomatic relations.
    Senator Lautenberg. Thanks very much, Mr. Chairman.
    We, I have other questions which I'll submit for the 
record.
    Senator Begich. Thank you very much, Senator Lautenberg.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. And, again, 
thank you for this hearing.
    Obviously, looking to the future, lessons in prevention, 
response and restoration are very important issues. As I 
outlined in my opening statement, I'm very concerned about the 
future as it relates to the Pacific Northwest. And so, Rear 
Admiral, I appreciate your testimony today, and wanted to ask 
you--we put into the Coast Guard reauthorization bill language 
pushing Coast Guard to do analysis of the U.S.-Canadian oil 
response agreements.
    Can you tell me whether some analysis has been done, and 
what you think the agreements are in oil response between the 
United States and Canada?
    Admiral Zukunft. I can't on the record produce that. But, 
certainly, I'd be pleased to do so. I will say that we have 
regular, at least on a quarterly basis, interactions with our 
Canadian partners on everything from oil spill to, you know, to 
security among our common border. But, I would be glad to 
provide you an update.
    Senator Cantwell. Thank you. So, you will give me an 
analysis of those, what you think the existing agreements are, 
and how they work and----
    Admiral Zukunft. Yes, Senator.
    Senator Cantwell. Thank you.
    Do you think--I mean, God forbid that such oil spill would 
happen in Canadian waters. Do you think, according to this, 
whatever it is, verbal agreements, or things that you have now, 
do you think the United States can enter those waters without 
the oil spill entering the United States?
    Admiral Zukunft. We have shiprider agreements where we do 
law enforcement in Canadian waters, just as we invite RCMP 
officers on our vessels, so we eliminate that seam between the 
United States and Canada. And I'm quite satisfied that we can 
do that in a, in an environmental capacity.
    And I'll just follow it with--I'm also, as part of our 
Arctic Council for search and rescue--and the next part of that 
is looking at carbon emissions in maritime environment in the 
Arctic domain. Canada is signatory to that, and they are very 
committed to living up to that commitment as well.
    Senator Cantwell. Well, so you think the answer is, yes, 
you can respond to an oil spill in Canadian waters?
    Admiral Zukunft. I am confident that we will be able to do 
so.
    Senator Cantwell. OK. And do you think that you can require 
supertankers to have a tug escort when they are a few miles 
within American waters?
    Admiral Zukunft. We traditionally will work with the 
International Maritime Organization to ensure that, you know, 
these are global, oftentimes global issues that may affect the 
ship routing, that could have unintended consequences. So, so 
we look for those best practices. They certainly exist. When I 
was the Commander of the Eleventh District in California, where 
we had the Exxon--I mean the CoscoBusan, there are areas for 
tankers as they come in to Richmond, where we do require tug 
escorts. So, certainly, that governance structure is in place 
in select ports based on the given risk.
    Senator Cantwell. Do you think that we should look at that 
policy as it relates to this increase in traffic, given the 
fragile nature of, you know, Puget Sound? I mean, the, it's a 
tricky waterway as our--I think our chart's still here--shows 
and designates, and some very pristine area in the country. So, 
do you think we should be reviewing this increase in tanker 
traffic? I mean, it's almost a 45 percent increase.
    Admiral Zukunft. With any of these decisions, we do an 
extensive amount of outreach, whether it's with advisory 
committees, with the pilot associations, you know, with our 
port authorities, because there are, you know, if there's a 
rulemaking, you know, it does have cost implications as well. 
But, certainly, if those risk factors are made known to us, you 
know, it would be the impetus for a rulemaking to advance that. 
This would create challenges since it would apply, you know, in 
an, in Canadian waters where this, this traffic originates, 
that would be a challenge for us.
    Senator Cantwell. What is your assessment of the Canadians' 
ability to respond to a major oil spill in this area?
    Admiral Zukunft. I'll just go back to the Spill of National 
Significance exercise that we conducted last year. And it was a 
scenario where--it was up in New England, and that oil would 
have then impacted Canadian waters as well. We invited Canada 
to participate, and they participated at the executive level, 
not in an observer status. But certainly, recognize that we 
cannot allow seams to exist, because oil is agnostic to 
borders, and that we need to be able to bridge that gap with 
appropriate response measures on both sides of that border.
    Senator Cantwell. I feel you're being very diplomatic, and 
so if I asked you to grade them you would probably hesitate. 
But, my point is, do you think they have the same preparedness 
that we do in responding to oil spills in the Northwest?
    Admiral Zukunft. You know, any comment I would make, 
Senator, would be speculative. But, certainly their earnestness 
in being a partner with the U.S. Coast Guard, and with our 
Regional Response Team process for, under National Contingency 
Plan, I see them as committed partners.
    Senator Cantwell. Do you think they have the same capacity 
that we do?
    Admiral Zukunft. I could not answer that question.
    Senator Cantwell. OK. Well, will you in your analysis of 
the U.S. agreements give us a sense of what you think their 
capacity is?
    This is a very big issue. The amount of traffic increase 
going through this very delicate waterway's tricky systems, 
where, again, most of the traffic we're talking about from 
Puget Sound does require local pilots and a variety things--
these are very important issues. So we'll look to get your 
views on the record on that.
    Admiral Zukunft. I will be pleased to provide that. Thank 
you.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you very much, Senator Cantwell.
    Let me also emphasize that last point, obviously, with 
Alaska on the border along with Washington, to Canada. I think 
it is--if there are issues that you identify that may be gaps, 
or you're unaware, because the information isn't there--I think 
we need to know that because of the work. I know my state 
does--I know your state does with Canada on regular basis. They 
visit our offices fairly regular because of issues of trade and 
fish, and many other things--that, I think it would be very 
important for us to know.
    And I think a part of our role should be to assist to make 
sure their standards equal--obviously we'd love them to 
exceed--but, at least, equal what we are requiring at this 
point.
    So, as you do that analysis, can you step to that next 
level and say, ``Here are some areas that we were unable to 
analyze. But it's clear we need some current review of?'' 
Because we're, I think that's what Senator Cantwell was trying 
to get to, is that we want to help make sure Canada, if--we 
need to know. You should be able to sit in a room like this and 
say, ``They are--'' fill in the blank. Because that's the kind 
of relationship we need to have with their oil spill capacity.
    I think that's what you were going. Is that----
    Senator Cantwell. Yes. Thank you, Mr. Chairman.
    Senator Begich. Very good.
    Senator Cantwell. Absolutely.
    Admiral Zukunft. Mr. Chairman----
    Senator Cantwell. Thank you.
    Admiral Zukunft.--I look forward to providing that 
information.
    [The information referred to follows:]

    The Coast Guard is actively working to update the comparability 
analysis related to the Cooperative Vessel Traffic Service agreement 
between the United States and Canada for the management of maritime 
traffic in Puget Sound, the Strait of Georgia, Haro Strait, Rosario 
Strait, and the Strait of Juan de Fuca.
    The United States Coast Guard and the Canadian Coast Guard have a 
long history of cooperation in executing our responsibilities to 
prepare for and respond to oil and hazardous substance events under the 
auspices of the Canada-United States Joint Marine Pollution Contingency 
Plan (JCP).
    The Coast Guard is in the process of updating both the JCP and the 
suite of geographical annexes under the JCP in regards to oil spill 
response. In February 2011, at the Canadian Coast Guard-United States 
Coast Guard Summit, the leaders of both organizations agreed and 
committed to revise and update the JCP with a focus on improving the 
ability of both nations to support regional planning and response. 
Specifically, the updates aim to create broader agreements under the 
JCP for managing mutual aid between the nations for incidents which are 
not trans-boundary, such as Deepwater Horizon and also encouraging 
coordination of exercises and training among the regions which hold 
geographic annexes to the JCP.
    The JCP Annual Meeting will be held in Halifax, Nova Scotia, on 
August 30-31, 2011. This meeting will be attended by both national and 
regional representatives of both nations, including: RDML Cari Thomas, 
U.S. Coast Guard Director of Response Policy; and Jacqueline Gonclaves, 
Canadian Coast Guard Director General, Maritime Services. The objective 
of the meeting is to conduct a strategic review of the JCP in regards 
to cooperation for oil spill preparedness and response as informed by 
lessons learned from Deepwater Horizon. Specifically, the meeting 
attendees will examine the JCP and its regional annexes in terms of the 
strength of communications, incident management coordination, worst 
case discharge threats and assumptions, strategic priorities for 
response and recovery, equipment lists, and equipment sharing. The 
revised JCP is expected to be ready for final review by the end of 
2011.

    Senator Begich. OK.
    Admiral, I have a couple of questions for you. But, let me 
hold for a second.
    Mr. Kennedy, I want to ask, I know there's the 
Environmental Response Management Application, which is a tool 
that was used quite a bit in the Gulf. I know there's one in 
the Arctic being developed.
    Mr. Kennedy. Yes.
    Senator Begich. Can you give me, kind of, what's happening 
with that at this point, and, kind of, the status of that 
development?
    Mr. Kennedy. So, this is a product that we have developed 
just as a tool to help with data management of spill response. 
It more or less had been launched in the months prior to 
Deepwater Horizon, and turned out to be an extremely accessible 
tool. Basically, a product with data layers, and the ability to 
process and receive data in the event of a spill, so that you 
have kind of a central location where all of the information 
that's required by all the responders is available, and in a 
variety of different forms.
    And so, we have started that process. It's somewhat 
geography specific, and so you need to have it set up so that 
it can specifically respond to the uniqueness of the region 
that you're trying to develop it for. So, we have begun the 
Arctic. I'm, I will have to get back to you to give you a 
specific date. But, it's underway, and we expect to have a 
product, I think, by the end of the year. But, let me get back 
to you----
    Senator Begich. Can you provide that?
    Mr. Kennedy.--for specifics on that.
    [The information referred to follows:]

Update on the status of the development of the Arctic ERMA
    Development of NOAA's Arctic Environmental Response Management 
Application (ERMA) is ongoing with plans to finish in Spring 2012, 
pending additional funding to support final stages of tool development, 
stakeholder meetings to refine functionality, and additional 
infrastructure to support a public facing website similar to 
Geoplatform.gov, which was deployed during the Deepwater Horizon oil 
spill last summer.
    Currently, NOAA has a working demo product (i.e., development site) 
for Arctic ERMA and we continue to add data and information applicable 
to planning for and responding to oil spills in the arctic. NOAA also 
continues to work with Alaska native communities to better access local 
traditional knowledge; however, a lack of resources is currently 
limiting our ability to fully engage these communities in a productive 
way.
    NOAA's goals for Arctic ERMA in 2012 include the following 
attributes: a platform that easily crosses boundaries; improves data 
sharing and communication; is easy to use even for non-GIS savvy users; 
conveys real-time data sets overlaid with baseline ecological and 
operational data; is accessible from anywhere as both a planning and 
preparedness tool, and serves as a common operating picture for an 
actual response.

    Senator Begich. You bet. Thank you.
    Another question--I know you have developed an MOU, 
memorandum of understanding between yourself and BOEMRE. Can 
you tell me--and it's related to information that's provided 
on, that you would provide in their process. Can you tell me 
how that coordination is going? This is in regards to offshore 
energy decisionmaking. And can you just give me a sense--I will 
tell you from, industry folks are all nervous about what that 
means in time, if it'll create delay. So I want to get a sense 
from you on that.
    And then, do you have the resources and expertise to really 
do that work?
    Mr. Kennedy. Sir, yes, we do have an MOU. We work with the 
old BOEMRE. MMS over the years had a partnership with them. We 
always felt like there was more that we could do to partner. 
So, this MOU, I, we think is the next best good step to have us 
at the table.
    As we have these kinds of discussions, I think it will do 
two things. I think it will bring a level of expertise and, I'm 
hoping, efficiency to the process that we haven't had, because 
we haven't been at the table as appropriately as we'd like to 
have been.
    So, to date, I think that relationship is blossoming, and 
that we are now engaging much more quickly and often with them 
as we discuss leasing and drilling issues. And we look 
forward--I think it's a new enough relationship, and a new 
enough organization, that we want to watch and see how it goes. 
But, we look forward to having the ability, and we think it 
will prove to be more efficient and effective.
    Senator Begich. And do you have the resources to do that 
expertise?
    Mr. Kennedy. I was hoping I would have the opportunity to 
answer Senator Lautenberg's question as well, because I thought 
it was a very good question for us. And, we for a long time 
have tried to look at our ability to respond to two spills. 
It's kind of the basis for, are we at a point where we think 
that nationally we can do our job? And the answer for NOAA is, 
no. We don't have the resources to respond to two spills. And 
over the last several years, the resources for the specific 
group that does most of our core response has had to be right-
sized because of a lack of resources. And during the course of 
this event, everybody that still wasn't in a walker that had 
retired and was still somewhere around, we brought back to try 
and just have enough resources to respond to this one spill.
    So, given the budgets that we're looking at, we're very 
concerned about our ability to continue.
    Senator Begich. Can you for the record do two responses on 
that? One is on the decision-making process, which is the new 
MOU that you have with BOEMRE----
    Mr. Kennedy. Mm-hm.
    Senator Begich.--what kind of resources you think you need 
in order to accomplish that. And then, the second part is more 
global, which is on the oil spill capacity itself, what you 
think the response or resources need is for that. Can you do 
that, if possible, for the record?
    Mr. Kennedy. For, yes.
    [The information referred to follows:]

    What resources does NOAA need to implement the new relationship 
between NOAA and BOEMRE and what resources does NOAA need to be able to 
respond to two spills at the same time?

    (1) The following list of activities would enhance NOAA's ability 
to meet the terms of the new Memorandum of Agreement with the Bureau of 
Ocean Energy Management and Enforcement.

  <bullet> Improve NOAA capacity to review the adequacy of oil spill 
        and hazardous material response plans associated with oil and 
        gas development in 26 lease areas on the outer continental 
        shelf.

  <bullet> Develop new I enhance existing oil spill response and damage 
        assessment tools.

    <bullet> New and enhanced scientific tools (e.g., ERMA) and 
            protocols are needed to increase the effectiveness of oil 
            spill response and improve efficiency and effectiveness of 
            natural resource damage assessment in coastal and offshore 
            areas identified for oil/gas exploration and production 
            throughout the Nation.

    <bullet> Addressing the backlog of outdated Environmental 
            Sensitivity Index (ESI) maps and developing new maps for 
            offshore oil and gas lease areas. Accurate, up-to-date ESI 
            maps are essential to development of spill response plans 
            as they identify and catalog resources at risk and also 
            guide critical response decisions during an event. 
            Currently, over 60 percent of NOAA Office of Response and 
            Restoration's ESI maps are out of date (i.e., greater than 
            7 years old) and do not provide the most recent information 
            on shoreline characteristics, endangered species, nursery 
            areas for commercially valuable fisheries, and other types 
            of critical response data.

    (2) The following list of activities will enhance response and 
restoration capacity to ensure that NOAA can effectively respond to of 
two simultaneous spills of national significance.

  <bullet> Rebuild the Office of Response and Restoration's (OR&R) 
        response and damage assessment capacity.

    <bullet> Ensure NOAA has the capacity to effectively respond to two 
            simultaneous major spill events. The Deepwater Horizon 
            spill underscored a large capacity gap for both oil spill 
            response and natural resource damage assessment (NRDA). For 
            example, the majority of OR&R's natural resource damage 
            assessment staff were reassigned to the Gulf of Mexico 
            region in order to meet the immediate needs of the spill, 
            severely restricting OR&R's ability to conduct 140 other 
            ongoing damage assessments from previous events across the 
            Nation.

    <bullet> Support additional trained response staff and augment 
            external contract support, including enhancing expertise in 
            analytical chemistry, environmental chemistry, biology, 
            oceanography, NRDA, GIS and data management, logistics, and 
            required NRDA financial/cost documentation functions. These 
            funds will allow NOAA to conduct the necessary training and 
            preparedness activities between incidents.

    Senator Begich. So, then there are some real numbers and 
expertise--
    Mr. Kennedy. Mm-hm. We'd be happy to do that.
    Senator Begich. Great.
    Let me ask the Admiral just a couple of quick questions, 
and then I'll have a series of questions for both of you that 
I'll submit for the record, for more detail.
    I know the Oil Spill Commission recommended that the Coast 
Guard work, and you mentioned it, too, they work more with 
State and local entities. And, in Alaska we have successful 
Regional Citizen Advisory Councils. One in Prince William 
Sound, and one in Cook Inlet. We're advocating one for the 
Arctic also.
    Can you tell me, is that the kind of increased local 
participation that makes sense for the Coast Guard, those kind 
of regional advisory councils to help do your work better, and 
also respond to the commission's recommendation?
    Admiral Zukunft. Certainly, Chairman. And, we have a lead 
role in that process as well.
    And that was, one of the key lessons learned is that, at 
the local level, that there was not full awareness of the oil 
spill contingency plans, the environmentally sensitive areas, 
and just the governance structure that's in place. And 
certainly, that's going to be especially critical as we look at 
the Arctic. And it's understanding the culture of the Arctic, 
and the tribal entities that reside there, as well.
    And so we've been doing a lot of outreach, you know, in 
those communities as we look at increased human activity, and 
then the impact of that activity in that precious environment.
    Senator Begich. And if I can just emphasize a point earlier 
that, again, regarding OPA 1990 and other processes that we 
have put into place over the years--your recommendations and 
thoughts on that will be critical. I know we mentioned that 
earlier. And, again, to follow up to Senator Nelson's comment, 
please do what you can there.
    And then the last question for both of you, because I 
cannot remember if you, either one of your agencies are doing 
this, or who is doing it. But, I don't know why I have this in 
my mind. But, is there a competition right now for oil spill 
technology that's undergoing literally as we speak? Because, I 
think there's an Alaskan company involved. But, there's, like 
10 companies. I don't know if it's NOAA, or it's Coast Guard, 
or someone else. Does this ring a bell to either one of you?
    OK. Mr. Kennedy, you shook your head yes, so you're the 
target here. Can you----
    Mr. Kennedy. Well----
    Senator Begich.--tell me, this is--am I right on this? 
There are 10 companies kind of competing for the best oil spill 
skimming technology?
    Mr. Kennedy. I can only highlight the issue because I 
haven't been in, directly involved. I have one of, an 
individual that works for me, who is more specifically 
involved. But, in the course of this event and the idea of what 
else should we, could we be thinking about that might be the 
silver bullet or help somehow, there was an idea hatched to 
come up with a prize and a, through a competition. There was a 
team put together.
    And Admiral Z, I don't know whether you recall the 
specifics of it.
    But, yes, there is an effort under-way, there was a call 
for proposals. There are some finalists, and there is a 
competition that's being--I don't know that it's been 
completely evaluated yet. But, it's in the process of being 
evaluated, with a winner, or winners, that would be awarded 
some funds to move forward.
    Senator Begich. Yes. I would be very interested, and I'm 
sure the Committee, too. I know there is an Alaskan company--
that's why it's just kind of in my mind. And I think they're 
starting this month. But, I would be very interested to see 
what that is, because that's a great--I have to commend you. 
It's a great idea to challenge the private sector for 
innovation around this, because the spill technology or spill 
cleanup has not changed much in the last 20 plus years. And so, 
challenging the industry, I think, is a great--and also, 
innovating. So, I think it would be very interesting as you 
develop the response to that, or how it comes about, if you 
could share that with the Committee, that'd be great.
    Mr. Kennedy. OK.
    Senator Begich. Let me end there, and say thank you, both, 
for being our first panel. And, again, thank you for being here 
to help us understand what more we can do, and have a future 
sense for oil spill technology.
    Again, I'll present some additional questions to you for 
the record, and we thank you both for being here.
    Admiral Zukunft. Thank you.
    Mr. Kennedy. Thank you.
    Senator Begich. The next panel, if they can get, we'll give 
a couple seconds here to get some adjustment.
    As the next panel gets situated, we thank you.
    To the second panel, we appreciate you being here.
    Again, we have four additional witnesses. And, again, some 
members here have already submitted questions for you for the 
record that you'll see soon after this meeting. So, be prepared 
for that. Several have already indicated that.
    Let me introduce the next panel.
    It's--the first one will be the honorable Grover Robinson, 
Commissioner of Escambia County in Florida; Dr. Eugene Turner, 
Chaired Professor, Distinguished Research Master, and 
Distinguished Faculty at Louisiana State University, Baton 
Rouge; Erik Milito, Group Director for Upstream Operation for 
American Petroleum Institute; and Jim Ayers, Senior Adviser, 
Ocean Conservancy.
    Thank you all very much for being here today. What I'd like 
to do is, I'm just going to go right down the row here. If you 
can keep your comments to 5 minutes, I'll have some questions 
afterwards. Again, same thing--I'll have some for the record 
that I will not be able to get to, based on our time.
    So, let me start with Mr. Robinson.

 STATEMENT OF HON. GROVER C. ROBINSON, COMMISSIONER, ESCAMBIA 
                        COUNTY, FLORIDA

    Mr. Robinson. On behalf of Florida's 67 counties and, more 
specifically, the eight Gulf Coast counties in northwest 
Florida, I would like to thank Chairman Begich and the 
Committee members for the opportunity to address the Senate's 
Oceans, Atmosphere, Fisheries, and Coast Guard Subcommittee 
this afternoon.
    I stand before you today as a seventh generation Floridian 
and Escambia County resident. Over 200 years, my family has 
survived and thrived in Escambia County through a civil war, 
countless hurricanes, and various cycles of economic booms and 
deep recessions. However, the Deepwater Horizon spill of 2010 
has rocked our community like no other event.
    As Chairman of the Escambia County Commission, I found 
myself at the epicenter of Florida's oil spill response for the 
last 14 months. It is my experiences during that time that I 
would wish to share with your committee today for suggestions 
related to OPA reform, as well as suggestions for monies for 
Clean Water Act penalties.
    In April 2010, the United States and the Gulf Coast faced a 
crisis unlike anything we have ever seen. The tragedy that 
struck that day took 11 lives, countless jobs, and caused 
extensive damage to our coastal resources.
    Florida is experienced with disasters, and Escambia County 
is no exception. Each year we prepare and respond to hurricanes 
that threaten our homes and beaches. Florida's emergency 
response teams are the best in the country and, arguably, the 
world. City, county and State first responders practice and 
prepare year round to respond and recover from potential 
disasters.
    Shortly after the oil spill, Escambia County was given 48 
hours to prepare for oil on our beaches. Our county did what we 
were trained to do--we declared a state of emergency which 
predated the State of Florida and prepared a plan to block oil 
from entering our more fragile inland water estuaries. Within 
24 hours of Escambia County declaring our state of emergency, 
the State of Florida declared a state of emergency, and we were 
introduced to the Unified Command Structure.
    With the threat of oil imminent and a plan in place, we 
were ready to do what was needed to protect our environment 
and, ultimately, our economy. Yet, we were stopped instead, and 
told that we must accept the protection plans of experts that 
had never stepped foot in Escambia County and knew nothing 
about the tidal flows and intricacies of our bays. Now, instead 
of putting up boom and protecting Pensacola Bay and the Perdido 
Bay Passes, we were arguing with strangers about what was best 
for the local waterways.
    This system of a Federal-down approach, set up through the 
Oil Pollution Act of 1990, OPA, simply did not work in disaster 
situation. While there are many aspects of OPA that are 
effective, such as Command Structure for Federal Waters, and 
the National Resource Damage Assessment, otherwise known as 
NRDA, process, the response process in local jurisdictions must 
be changed.
    While I recognize the Stafford Act, which is implemented 
during natural disasters, could not be applied uniformly to a 
man-made disaster, there is a fundamental element that should 
be applied regardless, of the cause. It is that local experts 
need to be included in determining the response and recovery 
plans for local jurisdictions. The very people that have lived 
and made their livelihoods in their community are best suited 
to know where priorities must be placed, and what is needed to 
provide adequate protection to the environmental resources of 
that community.
    I would no more pretend to know how to adequately respond 
to an oil spill in the Gulf of Alaska, or even how to defend 
Cape San Blas in Gulf County Florida, than an outsider would 
know how to protect the gulf shores and estuaries in Escambia 
County.
    Ultimately, the oil that was 48 hours off shore actually 
ended up taking 30 days to make it to our beaches. This should 
have allowed us ample time to implement plans to protect our 
passes and waterways. Unfortunately, OPA prevented us from 
effectively implementing our plans until July, by which time 
the well was already capped. We spent the first 75 days using 
inadequate plans provided to us by Unified Command that were 
not effective and wasted money.
    My essential point today is, local government provided 
better protection to the estuaries of Perdido and Pensacola 
Bays and the citizens of Escambia County, as well as provided 
cost savings to Unified Command and even British Petroleum. The 
only thing that prevented us from this protection was OPA.
    I've said many times, including to Admiral Landry, that it 
is my belief that the Coast Guard and other Federal agencies 
were staffed with good people who wanted to do the right things 
for our community and nation. However, they were prevented by 
the rules presented in the Oil Pollution Act of 1990. 
Therefore, OPA reform must be enacted to allow for more 
effective and coordinated defense of our environmental assets 
by local, State and Federal jurisdictions working together. 
Local government has a place in the planning, coordination, 
communication, and implementation of disaster strategies and 
decisions, and its omission will lead to failure, as seen in 
May and June of 2010.
    I would like to close by saying that there's still time to 
make some of this right through the NRDA process and the Clean 
Water Act.
    Through the NRDA process, NOAA, DOI, and other State 
trustees are conducting studies to identify the extent of 
resource injuries, the best methods for restoring those 
resources, and the type and amount of restoration required. 
This process so far has been inclusive and collaborative, and 
for that we are grateful.
    I'm also pleased to say that Escambia County is recovering 
and our beaches are as beautiful as they ever were. But, as 
with most tragedies, while we may recover on the outside, the 
scars never leave us.
    Prior to the Deepwater Horizon Oil Spill, I operated a 
successful real estate business started by my late father in 
1977. Like so many other businesses, I filed and received a 
claim due to the oil spill. Yet, my business has not fully 
recovered--so much so that, ultimately, my wife and I had to 
make the hard decision to merge our, merge with another firm 
after 34 years of existence.
    I am not alone. There are countless small businesses there 
that have suffered a similar fate. Any funds received due to 
fines from the Clean Water Act should be directed to the 
coastal counties that were impacted from the spill so that 
investments can be made for the long-term recovery of this 
region and our communities, both environmentally and 
economically.
    We must take, we must now turn this disaster around and 
seize the opportunities before us. We must take the opportunity 
to learn from our mistakes and reform OPA. We must take the 
opportunity through the NRDA process to help our environment 
fully recover from the tar on our white sand. And we must take 
the opportunity to use the Clean Water Act fines to invest in 
the Gulf Coast and our economies--not just to survive this 
disaster, but to thrive in spite of it.
    Thank you for the work that each of you do for our country 
and its citizens, and thank you for the time today to hear my 
testimony.
    [The prepared statement of Mr. Robinson follows:]

     Prepared Statement of Hon. Grover C. Robinson, Commissioner, 
                        Escambia County, Florida
    On behalf of Florida's 67 counties, and more specifically the 8 
Gulf Coast counties in Northwest Florida, I would like to thank 
Chairman Begich and the Committee members for the opportunity to 
address the Senate Oceans, Atmosphere, Fisheries and Coast Guard 
Subcommittee this afternoon.
    I stand before you today as a seventh generation Floridian and 
Escambia County resident. Over nearly 200 years, my family has survived 
and thrived in Escambia County through a civil war, countless 
hurricanes, and several cycles of economic booms and deep recessions. 
However, the Deepwater Horizon oil spill of 2010 has rocked our 
community like no other event.
    As Chairman of the Escambia County Commission I found myself at the 
epicenter of Florida's oil spill response for the last 14 months. It is 
my experiences during that time that I would like to share with your 
committee today suggestions related to OPA reform, as well as 
suggestions for monies from Clean Water Act penalties.
    In April 2010, the United States and her Gulf Coast faced a crisis 
unlike anything we have ever seen. The tragedy that struck that day 
took 11 lives, cost countless jobs and caused extensive damage to our 
coastal resources.
    Florida is experienced with disasters and Escambia County is no 
exception. Each year we prepare and respond to hurricanes that threaten 
our homes and beaches. Florida's emergency response teams are the best 
in the country and arguably the world. City, county and state first 
responders practice and prepare year round to respond and recover from 
potential disasters.
    Shortly after the spill, Escambia County was given 48 hours to 
prepare for oil on our beaches. Our county then did what we were 
trained to do--we declared a state of emergency which predated the 
State of Florida and prepared a plan to block oil from entering our 
more fragile inland water estuaries. Within 24 hours of declaring our 
state of emergency, the State of Florida declared a state of emergency 
and we were introduced to the Unified Command Structure.
    With the threat of oil imminent and a plan in place we were ready 
to do what was needed to protect our environment and ultimately our 
economy. Yet, we were stopped and instead told that we must accept the 
protection plans of experts that had never even stepped foot in 
Escambia County and knew nothing about the tidal plans and intricacies 
of our bays.
    Now instead of putting up boom and protecting Pensacola Bay and the 
Perdido Bay Passes, we were arguing with strangers about what was best 
for local waterways.
    This system of a Federal-down approach set up through the Oil 
Pollution Act (OPA) simply does not work in a disaster situation. While 
there are many aspects of OPA that are effective such as Command 
Structure for Federal Waters and the National Resource Damage 
Assessment (NRDA) process, the response process for local jurisdictions 
must be changed.
    While I recognize that the Stafford Act, which is implemented 
during natural disasters, could not be applied uniformly to a man-made 
disaster, there is a fundamental element that should be applied 
regardless of the cause.
    It is that local experts that should determine the response and 
recovery plans for local jurisdictions. The very people that have lived 
and made their livelihoods in their community are best suited to know 
where the priorities must be placed and what is needed to provide 
adequate protection to the environmental resources of that community. I 
would no more pretend to know how to adequately respond to a spill in 
the Gulf of Alaska or even how to defend Cape San Blas in Gulf County 
Florida than an outsider could know how to protect the gulf shores and 
estuaries in Escambia County.
    Ultimately the oil that was 48 hours off shore actually ended up 
taking 30 days to make it to our beaches. This should have allowed us 
ample time to implement our plans to protect our passes and waterways. 
Unfortunately, OPA prevented us from effectively implementing our plans 
until July by which time the well was nearly capped. We spent the first 
75 days using inadequate plans provided to us by Unified Command that 
were not effective and wasted money.
    My essential point today is local government provided better 
protection to the estuaries of Pensacola and Perdido Bays and the 
citizens of Escambia County, as well as provided cost savings to 
Unified Command and even British Petroleum. The only thing that 
prevented us from this protection and cost savings was OPA. I have said 
many times, including to Admiral Landry, it is my belief that the Coast 
Guard and the other Federal agencies were staffed with good people who 
wanted to do the right things for our community and the nation; 
however, they were prevented by the rules presented in the Oil 
Pollution Act of 1990.
    Therefore, OPA reform must be enacted to allow a more effective and 
coordinated defense of our environmental assets by local, state and 
Federal jurisdictions working together. Local government has a place in 
the planning, coordination, communication, and implementation of 
disaster strategies and decisions and its omission will lead to failure 
as seen in May and June of 2010.
    I would like to close by saying that there is still time to make 
some of this right through the NRDA process and the Clean Water Act.
    Through the NRDA process, NOAA, DOI and other State trustees are 
conducting studies to identify the extent of resource injuries, the 
best methods for restoring those resources, and the type and amount of 
restoration required. This process so far has been inclusive and 
collaborative and for that we are grateful.
    I am also pleased to say that Escambia County is recovering and our 
beaches are as beautiful as they ever were. But as with most tragedies, 
while we may recover on the outside, the scars never leave us.
    Prior to the Deepwater Horizon Oil Spill, I operated a successful 
real estate business started by my late father in 1977. Like so many 
other businesses I filed and received a claim due to the oil spill, yet 
my business has never recovered. So much so that ultimately, my wife 
and I made the hard decision to merge with another firm after 34 years 
of existence.
    I am not alone. There are countless small businesses out there that 
have suffered a similar fate. Any funds received due to fines from the 
Clean Water Act, should be directed to the coastal counties that were 
impacted from the spill so that investments can be made for the long 
term recovery of this region and our communities, both environmentally 
and economically.
    We must now turn this disaster around and seize the opportunities 
before us. We must take the opportunity to learn from our mistakes and 
reform OPA. We must take the opportunity through the NRDA process to 
help our environment fully recover from the tar on our white sand. And 
we must take the opportunity to use the Clean Water Act fines to invest 
in the Gulf Coast and help our economies not just survive this disaster 
but thrive in spite of it.
    Thank you for all the work you do for our country and its citizens 
and thank you for taking the time today to hear my testimony.

    Senator Begich. Thank you, Mr. Robinson.
    Mr. Turner?

               STATEMENT OF DR. R. EUGENE TURNER,

       CHAIRED PROFESSOR, DISTINGUISHED RESEARCH MASTER,

                   LOUISIANA STATE UNIVERSITY

    Dr. Turner. Thank you, Senator, and thank you for holding 
these hearing.
    I'm a, I do field work. I've been working this 35 years. I 
was in the marshes last week. I'll be offshore for 2 weeks as 
of Sunday. And I'm going to speak to you about what some of the 
things are in the field, as asked.
    The oil has not gone away. It's still there. You can walk 
in the marsh, and you can smell it. And the crust on the marsh 
is still there, and you can probe the marsh and come up with 
fresh oil on the end of whatever you're probing.
    It hasn't gone away. It's had its impacts in the marsh and 
offshore. We have the, kind of, the Grand Canyon, Grand Tetons 
offshore that we do not see, very few people see. But, we know 
that's been impacted, and we know there's oil on there. We know 
things have been killed. And a disproportional amount of the 
oil that went onshore was in the Central Gulf from Mexico. 
Sixty percent of the oiled shoreline is in Louisiana. I think 
70 percent of the birds that were oiled and 40 percent of the 
turtles that were oiled came off of Louisiana, so it was in the 
Central Gulf that it had these impacts. I'll come back to make 
some recommendations about what might be done the next. But, 
I'd make some comments about the context of what's happening.
    We can't say that we know very much right now because the, 
we're trying it figure out. For example, is the shoreline 
eroded more because of the oil, or just as, just a little bit 
more? Is it synergistically larger? Erosion to an area that 
already has a huge, it's already lost 22 percent of the wet 
lands? So, this is going to make it a lot larger? Or, in fact, 
maybe, it strengthened the shorelines in some cases.
    But, if you figure out that the context, you know, I am 
talking about, that a certain amount of the oil went into the 
marsh and how much is lost, and how much of the area was, 
shoreline was, it might be in the order of a few square miles a 
year that could be lost if everything went the worst possible 
way. And we're losing that much every year already--and 
primarily through the permitting programs. So, we have a very 
dramatic loss that might happen, and we have this chronic 
background loss. And I think if the restoration is taken in the 
context of what's going on as a whole, restoration could be 
done as a whole, with this background factors in mind.
    The human dimension that's going on for restoration, as we 
have understandable desires to protect the shoreline from 
hurricanes and flood protection, and that's, going, may 
require, or, being asked to require for levees, but those very 
levees will destroy some wetlands behind them. So, we're trying 
to restore wetlands, and yet we're losing wetlands in these 
conflicting desires. And I think the agreements we reach about 
that have, to have more people at the table, not fewer, and 
that includes the national agencies, the local, as the whole 
suite of things that were involved in the oil spill, of course. 
And the oil spill funds are being asked to carry some of this. 
And I guess it'd be fairly complex. And that doesn't mean we 
have to be timid about engaging in these.
    As an example of the complexity, a Pew panel who works out, 
that's making recommendations on what to do with the oil spill 
money. It'll be out in a few weeks probably. But, one of the 
things that's in there is going to be to address this issue of 
hypoxia offshore, which is a dead zone the size of 
Massachusetts and is driven mainly by eutrophication nutrient 
release from the Midwest.
    The same nutrients are driving wetland loss in Louisiana 
through the restoration technique of diverting river water into 
them, which is actually because of the--more detail than you 
want to probably hear right now--but it's causing wetland loss 
because of the nutrients in the rivers going into these 
wetlands.
    The win-win solution is for, restoring the water probably 
offshore, and for the wetland restoration technique to be used 
in a productive way, is to reduce nutrients in the river. And 
the way to use the oil spill money in that is perhaps to have a 
watershed, demonstration watersheds on the scale of the TVA 
projects. So, it could facilitate a more effective use of the 
farm bill funds, whatever allowed, and have the communities be 
allowed to use them, so the farmers actually--according to all 
the models we've done and all the work in the communities, they 
actually use fewer subsidies, have greater profits, and better 
water quality, and all the rest. And, it's totally a win-win 
solution, including local governance, and it'll be outlined in 
the Pew workshop.
    In terms of some quick observations about what's went 
wrong, or what might go better next time, one of the salient 
issues is that we have to have greater involvement, and it 
would help to have greater local involvement, understanding, 
and participation, expertise available. And there are several 
Federal programs that are underutilized in the Gulf--the 
National Estuarine Program, the National Estuarine Reserves--
there's a series in the table in my comments. They ought to be 
used better. And, Florida and Texas have made use of these, but 
the middle three states have not, including--I think, Louisiana 
is the only state that doesn't have a National Estuarine 
Reserve Program. They probably by proportion ought to have four 
or five, and that's, if anything could be done, to help that. 
It would build local support, participation, shared governance, 
greater monitoring.
    And that's one thing that's missing out of this. We didn't 
have a good baseline monitoring going on, long-term monitoring. 
We didn't have funding when the oil spill happened. We had, we, 
it was, you can't measure impacts if you don't have pre-impact 
data. And we could not get that. The only agency that helped us 
in that is the National Science Foundation. It was unusual, but 
they did come through with some.
    And the last little detail on this is that most of the 
assessments for damages for toxicity and things like that are 
based on individual species, and they're not based on the 
interactions they all have. It may be good for the lawyers, but 
it's not--because it's very precise. You can defend the, what 
the results are. But, they don't represent reality out in the 
field. They need to have a greater sense of, a more holistic 
view of damages when they do these assessments.
    And I'm out of time, so I'll stop.
    Thank you.
    [The prepared statement of Dr. Turner follows:]

    Prepared Statement of Dr. R. Eugene Turner, Chaired Professor, 
       Distinguished Research Master, Louisiana State University
    Good afternoon, Presiding Senator Begich, Chairman Rockefeller, 
Committee Ranking Member Senator Snowe, and members of the 
Subcommittee. Thank you for this opportunity to participate in this 
timely hearing concerning the lessons from the Gulf Oil Spill and how 
we might do things better. I will briefly address the following topics 
and remain for any questions/comments you might have time for.

  <bullet> The current understanding of the short-term environmental 
        effects from the Deepwater Horizon oil spill,

  <bullet> The long-term degradation of the Gulf of Mexico,

  <bullet> The appropriate restoration activities that should be 
        undertaken, particularly by the National Oceanic and 
        Atmospheric Administration (NOAA), but other entities as well, 
        including in the watershed

  <bullet> What is needed to improve oil spill response and restoration 
        in the future.
Background
    Oil sheens and the smell of volatile organics remain in coastal 
Louisiana 15 months after the 20 April, 2010 BP Macondo (aka, DWH; 
Deepwater Horizon) oil spill disaster began at Mississippi Canyon Block 
252, located about 66 km offshore of the Mississippi River delta. This 
disaster resulted in 13 deaths and 17 people injured, and released an 
estimated 4.4 x 10<SUP>6</SUP> barrels of oil into the Gulf of Mexico 
(804,877 barrels were also collected at the seafloor (Crone and Tolstoy 
2010). It was the largest spill event in U.S. history, equal to 7 times 
the size of the Exxon Valdez oil spill, and was the fifth largest in 
the world.
    Oil from this industrial accident was first found on the Louisiana 
beaches on 11 May; fresh sightings of the oily mousse and tar balls in 
the estuaries continued after the leak was stopped using relief wells 
on 15 July and officially declared closed on 19 September 2010.
    The Louisiana coastal ecosystems were disproportionately exposed to 
the released oil (Table 1). It had the highest percentage of its 
lengthy shoreline oiled (45 percent) resulting in 60 percent of the 
oiled shoreline in the GOM. The majority of the recovered oiled birds, 
turtles and mammals were in the three central states, and 70 percent of 
the recovered oiled birds were from Louisiana.
    Table 1. Indicators of oil spill exposure and impact in the GOM 
States. These metrics indicate that Louisiana had the greatest onshore 
exposure and impact by oil.

------------------------------------------------------------------------
                         West Coast
      Indicators       --------------    AL       MS       LA       TX
                             FL
------------------------------------------------------------------------
Percent of the GOM              30%       4%       2%      45%      20%
 Tidal shoreline in
 State
Oiled Shoreline of               3%      15%      44%       8%       0%
 State shoreline
Turtles oiled (live             16%      40%       4%      40%       0%
 and dead)
Mammals oiled (live             17%       0%      67%      17%       0%
 and dead)
Birds oiled (live and           11%       8%      11%      70%       0%
 dead)
Percent of the oiled            16%       9%      15%      60%       0%
 GOM shoreline found
 in this State
------------------------------------------------------------------------
Sources: http://www.nmfs.noaa.gov/pr/pdfs/oilspill/turtle_data.pdf;
  http://www.nmfs.noaa.gov/pr/pdfs/oilspill/cetacean _data.pdf;http://
  www.restorethegulf.gov/sites/default/files/documents/pdf/
  Consolidated%20 Wildlife%20Table%20110210.pdf.

Current Understanding
Natural Systems
    The ongoing research results that I am aware of document damages to 
fish, birds, marsh, coral, and bottom-dwelling organisms, and changes 
in food webs. Oil on the sea surface injured or killed seabirds, sea 
turtles and dolphins, put at risk many commercially valuable marine 
organisms, such as blue-fin tuna, blue crabs, penaeid shrimps, and many 
fish. Shorebirds, tourists, and fisher(wo)men were harmed. Seafood was 
contaminated, and oyster reefs destroyed. Deep-sea organisms on hard- 
and soft-sediment habitats died from apparent oil deposition within 
some as yet undetermined distance from the wellhead.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The results from studies examining other oil spills suggests that 
the oil making its way into coastal ecosystems will persist for decades 
(Reddy et al., 2002). Its ecological effects may be immediately toxic 
to a variety of organisms, and the long-term effects last several 
decades (Teal et al., 1992; Culbertson et al., 2007a, b). Any damage 
incurred is expected to be dependent on exposure length and frequency. 
Recovery is possible, but not guaranteed. This is because, in part, oil 
quality changes with temperature, volatilization, and decomposition, 
and moved between ocean, estuary and marsh as droplets, tar balls, a 
brownish mouse with colorful descriptive names, or ``mousse''. This oil 
might coat the emergent wetland plants up to the high water mark or 
weigh them down as far as 10 m into the marsh. Its effects might 
combine with other influences to have a synergistic and maladaptive 
outcome. A series of cascading effects on the plant-dependent food web 
are expected to follow from these impacts.
    The ecosystem consequences of exposures to and incorporation of 
toxicants at the base of the pelagic food chains and the massive 
organic carbon subsidy to the shallow and deep ocean remain uncertain, 
requiring new advances in oil spill oceanography to assess. The 
illumination of the indirect impacts and the dismissal of many presumed 
impacts will play out for decades in the scientific literature, in 
government reports, and in the courts.
    A major coastal problem in Louisiana is to reduce wetland loss 
rates and to restore wetlands. Twenty-two percent of the wetlands 
existing in 1930 are now open water. These losses are primarily a 
consequence of dredge and fill operations, which were permitted by 
State and Federal agencies. It took 8,000 years to build these marshes, 
and so 22 percent of the wetland represents 1720 years of net land 
building. It is hard to see how to restore these wetlands faster than 
the natural system builds them, and so preventing more losses is 
extremely cost-effective. It is reasonable to ask if this oil spill 
accelerated these losses. I estimated how much this might be based on 
the penetration of oil into the oiled shoreline to address this 
question and estimate that there will be far more wetland loss (direct 
and indirect) from the annual dredge and fill permitting every year 
than from this one oil spill over the next 10 years. The chronic demise 
of the marsh may be more significant than the losses due to a one-time 
dramatic oil spill.
The Human Dimensions
    These impacts took place in an ecosystem and socio-political system 
that already had many significant ``stressors,'' including: (1) intense 
hurricanes arising from global climate change exposes the Gulf coast to 
greater risks of catastrophic flooding, shoreline erosion, sea-level 
rise, (2) marsh channelization from petroleum-industry activities, (3) 
excessive nutrient (largely N) loading from agriculture and other 
anthropogenic sources extending into the Mississippi River watershed, 
(4) the exploitation of apex predators like sharks and blue-fin tuna, 
(5) bottom trawling and dredging, (6) industrial development, including 
petroleum production and refining, (7) failure to treat and control 
storm water and atmospheric emissions that have led to the introduction 
of mercury and other heavy metals and organic pollutants like dioxin, 
DDT, and PCBs into the Gulf. In addition, development of low-lying 
lands and coastal barriers has degraded and destroyed shoreline 
habitats and led to engineering of structural responses and dredge-and-
fill projects to protect housing and infrastructure at risk, but such 
responses interfere with natural roll-over and transgression of barrier 
islands and resilience of natural shoreline habitats.
    This set of conditions poses extreme socio-economic challenges: how 
can resilience of human communities, culture, and ecosystems be 
sustained or created when maintaining coastal residency increasingly 
risks property and life, yet retreating inland by entire communities 
challenges the fabric and glue of social cohesion and place-based 
history?
Synergisms
    There were synergisms between the existing stressors and the oil 
spill. The State, for example, opened river diversions and this killed 
oyster beds; businesses closed that had been around for 100 years. It 
was the cumulative effect of the ill-informed State government, the 
threat of oil impacts, that finally forced them out of business for the 
first time in 100 years. The diversion volume would not have been as 
high and for the length of time, in my opinion, if the oil spill was 
not occurring. The State neglected the oyster fishermen, ignored 
scientists, and over-reacted because of some perceived need to open the 
diversions as much as possible.
    There was (is) shoreline erosion before the oil spill, but I don't 
know that the combination of shoreline erosion and overzealous oil 
clean up caused more wetland loss than each operating separately. I 
suspect that is the case, but don't know it to be true. They would not 
have done some of the inappropriate things they did if it were not an 
oil spill.
Restoration in Context
Principles
    Addressing the impacts of the DWH oil spill should be integrated 
into a holistic understanding of how all stressors may potentially 
combine to destabilize the ecosystem by passing through a critical 
threshold and into an undesirable state of the system. Restoration 
should be holistic, not piecemeal, and should be durable and 
sustainable under the conditions of dynamic change expected in the Gulf 
for over a century and longer. Traditional tests of restoration 
appropriateness of ``in-place'' and ``in-kind'' are likely to fail the 
criteria for sustainability under a changing climate, rising sea level, 
and more intensely stormy regime.
    Below are a few simple operating principles that may help avoid 
potentially fatal flaws of logic, administration lapses, and financial 
waste (adapted from Turner 2009).

        (1) Assume that key pieces of information are missing and may 
        not be revealed (ever);

        (2) Because of the collective and respected ignorance, be 
        flexible in how to develop, evaluate and apply new information 
        and perspectives; learn how to create the context for that new 
        situation;

        (3) Include many small steps that are addressed in multiple 
        ways;

        (4) Let data trump concepts, not the reverse. If ``the bigger, 
        the better'' is the operating model, then the model is likely 
        to be superficially abstract (this is not to dispute the need 
        for hierarchy or a division of labor);

        (5) Assume that surprises will occur;

        (6) Develop exit strategies, including how to reverse 
        interventions;

        (7) Do no harm; do not implement plans that will be 
        irreversible if they go awry; If irreversible outcomes are 
        anticipated, then start with the smallest plans, not the 
        largest ones.
Pew Panel Recommendations
    A workshop panel was recently completed under sponsorship of the 
Pew Foundation to make recommendations about the long-term 
sustainability of the Gulf of Mexico within the context of the DWH oil 
spill. I am one of 15 authors of this report. The report (Peterson et 
al., 2011) offers guidance on how funds from the Deepwater Horizon 
Blowout might be used for restoration. This report is due to be 
completed within 2 months and contains the following relevant 
recommendations about priority areas for restoration of the Gulf of 
Mexico following the DWH oil spill.

------------------------------------------------------------------------

------------------------------------------------------------------------
Restore water quality and damaged habitats
Restore habitats directly and indirectly damaged by the oil release;
Demonstrate transformative farming in Mississippi Basin to reduce
 nutrient loading;
Remove marine, estuarine, and riverine debris and inhibit future
 discards;
Restore water flows, water quality, riparian habitats, and ecosystem
 services of smaller rivers.
------------------------------------------------------------------------


------------------------------------------------------------------------

------------------------------------------------------------------------
Rebuild fish stocks and wildlife populations by protecting habitat
 functions
Purchase and preserve functionally valuable habitat for fish and
 wildlife sanctuaries;
Protect habitat and implement recovery plan actions for injured species;
Sustain and enforce existing Federal legislative habitat, fish, and
 wildlife protections;
Create networks of protected habitats to enhance fish stocks and
 valuable species;
Manage Gulf fisheries sustainably by recognizing ecosystem processes.
------------------------------------------------------------------------


------------------------------------------------------------------------

------------------------------------------------------------------------
Make the Gulf coast resilient--A single integrated human and natural
 system
Investigate deep-sea oil fate and injury to allow restoration of
 ecosystem services;
Determine full impact of oil on, and restore, Sargassum and associated
 fish and wildlife;
Engage Gulf communities to adapt to increasing coastal inundation--while
 sustaining fish and wildlife;
Assess with rigor the potential fishery benefits of trawling protections
 of shelf bottom;
Endow capacity building of GoM in social-environmental monitoring and
 problem solving;
Communicate within communities to inspire informed environmental
 decisions.
------------------------------------------------------------------------

 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Example--Hypoxia (aka ``Dead Zone'')
    Hypoxia (dissolved oxygen < 2 mg l<SUP>-1</SUP>) is a symptom of 
too many nutrients in the water. Hypoxia is a growing problem worldwide 
(Rabalais et al., 2010), and the extent and persistence of hypoxia on 
the continental shelf of the northern Gulf of Mexico makes the Gulf of 
Mexico `Dead Zone' one of the most extensive manifestations of 
anthropogenic coastal nutrient over-enrichment (Figure 1). Systematic 
mapping and monitoring of the area of hypoxia in bottom waters began in 
1985 (Rabalais 2002. An Integrated Assessment (CENR 2000) of the 
causes, consequences and actions needed to reduce hypoxia was completed 
and a 2008 Action Plan for Reducing, Mitigating, and Controlling 
Hypoxia in the Northern Gulf of Mexico (Mississippi River/Gulf of 
Mexico Watershed Nutrient Task Force 2001) was endorsed by Federal 
agencies, states and tribal governments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Several models have summarized various relationships between the 
river loading of nitrogen and the severity of the hypoxic zone 
(Rabalais et al., 2007). These models link the area of hypoxia and 
nutrient loading, and support the key component of the management 
action, which is to reduce nutrient loading to the Gulf of Mexico so 
that the average hypoxic area in summer is 5,000 km2 or less by 2015.
    Reducing nutrient loading to the GOM can happen with `win-win' 
outcomes if the agricultural communities are constructively involved in 
more flexible ways than presently allowed. We propose the creation of a 
network of research and demonstration projects that will establish and 
evaluate new bio-economic enterprises based on multi-functional 
production systems. This program will help develop and refine Federal 
farm-bill policy by using existing subsidies, but applied in regional-
specific ways. The Deepwater Horizon Oil Spill Restoration funds would 
be the catalyst for this change.
    Administrative bodies that integrate across political, economic, 
and social boundaries (Roux et al., 2008) will be required to 
successfully apply management practices in ecological units stretching 
from small upland watersheds to coastal waters. To address problems of 
this magnitude requires working in watersheds at sufficiently large 
temporal and spatial scales to match the needs of the farming 
communities. These ``demonstration'' watersheds would be used to 
improve outcomes arising from the relationships between farm policies, 
on-the-ground outcomes, and environmental benefits or consequences that 
are suggested as benefits by others (e.g., Jordan et al., 2007; Batie, 
2009). In particular, the Farm Bill should provide the agricultural R&D 
infrastructure with incentives to evaluate multi-functional production 
as a basis for a sustainable agricultural bio-economy. We judge that 
this can be done with very modest public investments (ca. $10 million 
annually x 5 sites x 25 years). A variety of strong political 
constituencies now expects a very different set of outputs from 
agriculture, and the U.S. farm landscapes. The cooperation of NOAA, 
EPA, USDA and others is important for this to succeed in the existing 
mosaic of balkanized jurisdictional mandates.
    A key positive outcome of this proposed effort involves how river 
diversions are used to restore Louisiana's wetlands. The diversions are 
causing more wetland loss, not less (Kearney et al., 2011) in the 
organic soils lining the flanks of the lower Mississippi River. We 
suggest that their vulnerability to storms reflects the introduction of 
nutrients in the diversions (that add insignificant amounts of 
additional sediments), which promotes poor rhizome and root growth in 
marshes and oxidizes the existing soils. Improving water quality 
through implementation of sustainable farming practices will keep 
working farms working (and with better profits), decrease the size of 
the Dead Zone, and improve prospects for wetland restoration.
Example--Conflicting Agendas
    A number of daunting restoration issues existed even before the BP 
oil disaster. Louisiana's legal integration of coastal restoration and 
hurricane protection in 2005 still left the issue of how to prioritize 
between these two necessities unresolved. The Comprehensive Master Plan 
for a Sustainable Coast (2007) is primarily a summary of major options 
and alternatives for restoration and protection.\1\ Neither the Master 
Plan nor the LaCPR Report (2010) provides the final decisions on which 
specific alternatives to choose.\2\
---------------------------------------------------------------------------
    \1\ Integrated Ecosystem Restoration and Hurricane Protection: 
Louisiana's Comprehensive Master Plan for a Sustainable Coast, 2007; 
http://www.lacpra.org/.
    \2\ LaCPR Final Technical Report, 2009, U.S. Army Corps of 
Engineers, http://lacpr.usace
.army.mil/default.aspx?p=LACPR_Final_Technical_Report. The National 
Research Council Review Team noted that the LaCPR Report ``produced no 
actionable project recommendations.'' Final Report from the NRC 
Committee on the Review of the Louisiana Coastal Protection and 
Restoration (LACPR) Program, 2009; p. 11; http://www.nap.edu/
openbook.php?record_id
=12708&page=11.
---------------------------------------------------------------------------
    One problematic decision involves the large new levee systems being 
planned for the Louisiana coast. These systems would consist of 
continuous levees, with a number of hydraulic gates to allow or block 
tidal flow, which would be closed to keep out storm surge. The 
construction of these levees would, essentially, wall off the coast, 
and cause more wetland loss. People are being polite about it, but make 
no mistake, wetland restoration will be compromised if these levees are 
built. These are not abstract issues, because some coastal parishes, 
with state approval and funding, have constructed sections of the 
Morganza to the Gulf levee system.\3\ Louisiana cannot afford to 
complete the entire project itself, it is expected that state and local 
officials plan to ask the Federal Government to perform this function 
at some point in the future.\4\ Fungible BP oil spill funds could well 
be sought to pay for these projects.
---------------------------------------------------------------------------
    \3\ N. Buskey, ``2010 will see unprecedented levee spending,'' 
Houma Courier, December 26, 2009, http://www.houmatoday.com/article/
20091227/ARTICLES/912269966.
    \4\ M. Brossette, ``Morganza's J-2 work to begin soon,'' Tri-Parish 
Times, September 16, 2009; http://www.tri-parishtimes.com/articles/
2009/09/16/news/106_51_morganzapg1.eml.
---------------------------------------------------------------------------
    In addition, both the existing sea-level rise and the acceleration 
of sea level rise from climate change puts major Gulf cities like New 
Orleans and Houston at risk of flooding. When hurricanes are added to 
this mix, then the long-term human occupation of the Mississippi delta 
and coastal shorelines of all Gulf states becomes problematic. There 
have also been attempts to decouple the climate and coastal issues that 
should not escape national scrutiny. While Louisiana is not the only 
state to oppose the EPA's Endangerment Finding of greenhouse gases, it 
is the only one asking for an estimated $60-$100 billion in Federal 
funds to restore and protect its coast.
    Resolution of these issues is critically important to create 
sustainable systems. Federal resources, leadership and participation 
are (still) essential to optimizing fruitful outcomes.
Improving Future Oil Spill Response and Restoration
    The status quo is not enough, and never will be in a changing 
world. The existing resources for adaptation might be supplemented by 
the fines and legal settlement from this spill, that are projected to 
be as large as $20 billion, which is equivalent to $320 per capita for 
the GOM states. These are significant funds that can be spent to 
prevent or reduce the unknown consequences of past, present and future 
actions. They can be invested in the natural system capital supporting 
sustainable systems, or used inefficiently as fungible funds spent for 
projects with short-term goals in mind. They can be used to create the 
knowledge and experience to deal effectively with the unknown. Here are 
three areas that need attention to improve the status quo.
    (1) Increase rapid funding: There was an undeniable lack of quick-
response funding to determine baseline conditions before the oil spread 
out from the wellhead, and just after it polluted an area. The National 
Science Foundation is the only agency that spent quick-reaction funds 
in a merit- reviewed way to figure out what was happening. It was a 
hectic process and could have been faster if funded adequately, but 
these NSF funds allowed people with expertise, local knowledge, and 
limited appearances of conflicted interests to get into the field 
quickly. We were left to our own devices to get around the 
administrative obstacles offered by State and Federal agencies, and 
from the industry consultants seemingly in charge for too long. But we 
could not have been nimble without these quick-reaction funds. These 
options need to be encouraged for the next spill, the next unexpected 
set of circumstances, and the next unexpected event.
    (2) Expand the long-term observations of natural systems: Measuring 
impacts and creating a baseline against which to measure restoration 
requires long-term measurements, and not just in one location, but 
many. These science-based observations need to be encouraged through 
funding and accomplished by independent scientists that can append 
additional inquiries onto them. I recommend that any funds from the 
polluting party that funds science studies by academics, are not to be 
used by academics (or non-profits) if they are involved in the NRDA or 
BP assessments. The USGS has this policy and it is a good one that 
maintains a high standard viz a viz the appearance of conflicting 
allegiances.
    (3) Improve the NRDA capabilities for field-based assessments: For 
the most part, the current NRDA process does not have the necessary 
tools and experience to evaluate ocean ecosystem impacts and lacks the 
capacity for rigorous testing of dispersant effectiveness or toxicity 
in natural systems. The clumsy laboratory tests used in this process 
may meet the needs of the legal system, but they are fairly useless in 
telling about the in situ impacts. An NRC panel assessment is 
recommended.
    (4) Expand infrastructure support: Several Federal programs, 
including NOAA programs, support infrastructure for education, policy 
development, public support and research in coastal affairs. Some of 
these are listed in Table 2. Some states have taken advantage of these 
program, while others have not. They are usually incredibly inexpensive 
programs and demonstrably effective, like pre-emptive educational 
initiatives almost always are. Most of these offer shared governance 
with the local, regional and State governing bodies. All have been 
operational for > 20 years. Expansion of these programs will enhance 
the quality and quantity of the response to the next oil spill, the 
sustainability of coastal systems, and raise the quality of life and 
livelihood of coastal residents.
    Thank you for the opportunity to testify and for your time.
                               Attachment
    Table 2. Indices of educational and research coastal infrastructure 
in the GOM: marine laboratories, coastal reserves, conservation zones, 
and State/Federal partnerships. Data are normalized per shoreline 
length to facilitate comparisons. SAML is the professional organization 
of non-Federal marine laboratories. The others (NEP, NERR, NPS, NMS) 
are federally-supported programs, some of which are co-managed with 
State entities. These metrics indicate that the strongest 
infrastructure is in Texas and Florida, and the weakest in Louisiana.

------------------------------------------------------------------------
                     West
     Program     ------------     AL         MS         LA         TX
                   coast FL
------------------------------------------------------------------------
1. Southern
 Association of
 Marine
 Laboratories
 (SAML)
  (a) # Members          20          1          2          1         11
  (b) Km                410        977        289     12,431        492
   shoreline per
   member410
2. National
 Estuarine
 Program (EPA/
 State)
  (a) #                   3          1          0          2          5
   Estuaries
  (b) Km2 Area       19,969    115,467          0     15,769    129,293
  (c) Km2 per Km        2.4        118        0.0        1.3         24
   shoreline
3. National
 Estuarine
 Research
 Reserves (NOAA)
  (a) # Reserves          2          1          1          0          1
  (b)Km5/8 area       1,158         19         75          0        752
  (c) Km2 per           141         20        129          0        139
   1000 Km
   shoreline
4. National               5          1          1          1          0
 Parks on
 coastline
 (interior)
5. National               1          0          0          0          1
 Marine
 Sanctuaries
 (NOAA)
------------------------------------------------------------------------
Notes: 1. http://www.naml.org;
2. http://www.epa.gov/owow_keep/estuaries/programs/gom.html;
3. http://www.nerrs.noaa.gov/;
4. Park Boundaries overlap the State boundaries;
5. http://sanctuaries.noaa.gov.

References
    Batie, S.S. 2009. Green payments and the U.S. Farm Bill: 
Information and policy challenges. Front. Ecol. Environ. 7: 380-388.
    Boody, G., B. Vondracek, D.A. Andow, M. Krinke, J. Westra, J. 
Zimmermann, and P. Welle 2005. Multifunctional agriculture in the 
United States. BioScience 55: 27-38.
    CENR (Committee on Environment and Natural Resources) 2000. 
Integrated assessment of hypoxia in the northern Gulf of Mexico. 
National Science and Technology Council, Washington, D.C.
    Crone, T.J. and M. Tolstoy 2010. Magnitude of the 2010 Gulf of 
Mexico oil leak. Science 330: 634-635.
    Culbertson, J.B., I. Valiela, Y.S. Olsen, and C.M. Reddy 2007a. 
Effect of field exposure to 38-year-old residual petroleum hydrocarbons 
on growth, condition index, and filtration rate of the ribbed mussel, 
Geukensia demissa. Environmental Pollution 154: 312-319.
    Culbertson, J.B., I. Valiela, E.E. Peacock, C.M. Reddy, A. Carter, 
and R. VanderKruik 2007b. Long-term biological effects of petroleum 
residues on fiddler crabs in salt marshes. Marine Pollution Bulletin 
54: 955-962.
    Jordan, N., G. Boody, W. Broussard, J.D. Glover, D. Keeney, B.H. 
McCowan, G. McIsaac, M. Muller, H. Murray, J. Neal, C. Pansing, R.E. 
Turner, K.D. Warner, and D.L. Wyse 2007. Sustainable development of the 
agricultural bio-economy. Science 316: 1570-1571.
    Kearney, M.S., A. Riter, and R.E. Turner 2011. Freshwater 
diversions in marsh restoration in Louisiana: Twenty-six years of 
change in vegetation coverage and marsh area in three diversions. 
Geophysical Research Letters in revision.
    Mississippi River/Gulf of Mexico Watershed Nutrient Task Force 
2001. Action plan for reducing, mitigating, and controlling hypoxia in 
the northern Gulf of Mexico. 36 pages. U.S. Environmental Protection 
Agency, Office of Wetlands, Oceans and Watersheds, Washington, D.C.
    Nassauer, J., M.V. Santelmann, and D. Scavia (Eds.) 2007. From the 
corn belt to the gulf: societal and environmental implications of 
alternative agricultural futures; Johns Hopkins University Press/
Resources for the Future: Baltimore, MD.
    NOAA 1991. Coastal wetlands of the United States: an accounting of 
a national resource base. National Oceanic and Atmospheric 
Administration Rep. 91-3. 59 pp.
    Peterson, C.H., F.C. Coleman, J.B.C. Jackson, R.E. Turner, G.T. 
Rowe, R.T. Barber, K.A. Bjorndal, R.S. Carney, R.K. Cowen, J.M. 
Hoekstra, J.T. Hollibaugh, S.B. Laska, R.A. Luettich, Jr., C.W. 
Osenberg, S.E. Roady, S. Senner, J.M. Teal, and P. Wang 2011. A Once 
and Future Gulf of Mexico Ecosystem. Report from a Pew Commission Panel 
on the Deepwater Horizon Oil Spill. In press.
    Rabalais, N.N., R.E. Turner, B.K. Sen Gupta, D.F. Boesch, P. 
Chapman, and M.C. Murrell 2007. Hypoxia in the northern Gulf of Mexico: 
Does the science support the plan to reduce, mitigate, and control 
hypoxia? Estuaries and Coasts 30:753-772.
    Rabalais, N.N., R.J. D!az, L.A. Levin, R.E. Turner, D. Gilbert, and 
J. Zhang 2010. Dynamics and distribution of natural and human-caused 
hypoxia. Biogeosciences 7: 585-619.
    Roux, D. J., P. J. Ashton, J. L. Nel, and H. M. MacKay. 2008. 
Improving cross-sector policy integration and cooperation in support of 
freshwater conservation. Conservation Biology 22: 1382-1387.
    SAB (Science Advisory Board) 2007. Hypoxia in the northern Gulf of 
Mexico, An Update. U.S. Environmental Protection Agency, Science 
Advisory Board (SAB) Hypoxia Panel Advisory, Report EPA-SAB-08-003, 
Environmental Protection Agency, Washington, D.C.,
    Teal, J.M., J.W. Farrington, K.A. Burns, J.J. Stegeman, B.W. Tripp, 
B. Woodin, and C. Phinney 1992. The West Falmouth oil spill after 20 
years: Fate of fuel oil compounds and effects on animals. Marine 
Pollution Bulletin 24: 607-614.
    Turner, R.E. 2009. Doubt and the values of an ignorance-based world 
view for wetland restoration: Coastal Louisiana. Estuaries and Coasts 
32: 1054-1068.

    Senator Begich. Thank you very much, Dr. Turner.
    Mr. Milito?

           STATEMENT OF ERIK MILITO, GROUP DIRECTOR,

               UPSTREAM AND INDUSTRY OPERATIONS,

                  AMERICAN PETROLEUM INSTITUTE

    Mr. Milito. Good afternoon, Chairman Begich, and Senator 
Rubio.
    I'm Erik Milito, Upstream Director at the American 
Petroleum Institute.
    API has more than 470 member companies which represent all 
sectors of America's oil and natural gas industry. Our industry 
supports 9.2 million American jobs, including 170,000 in the 
Gulf of Mexico related to the offshore development business. It 
also provides most of the energy we need to power our economy 
and way of life, and delivers more than $86 million a day in 
revenue to the Federal Government.
    It's now been more than a year since the tragic Macondo 
well accident. We cannot forget that the industry and the 
Nation lost 11 workers that day, and our thoughts and prayers 
continue to go out to the families of those workers. To be 
certain, the incident has provided us with a sobering reminder: 
We must maintain a laser focus on safety as a priority in 
operations.
    Immediately after the accident, the industry formed task 
forces to examine every aspect of offshore safety systems, 
including equipment, operating practices, subsea well control, 
and spill response. Due to the leadership and work of the 
industry, we now have enhanced capabilities in each of the key 
areas--prevention, capping and containment, and spill response.
    As an industry, we recognize that the most effective oil 
spill response is to prevent it from ever happening in the 
first place. Therefore, a great deal of attention has always 
been placed on prevention. The recommendations developed by the 
industry task forces form the basis of some of the regulations 
we have now on prevention. These include requirements for 
maintaining multiple barriers during well construction, 
implementation of various new testing requirements during 
drilling operations, and adoption of API Recommended Practice 
65, Part 2, on so many.
    In addition, the industry is currently developing API 
Recommended Practice 96, which will help improve deepwater well 
design and installation practices, as well as Bulletin 97, 
which is a joint effort between API and the International 
Association of Drilling Contractors, intended to help link--
improve the link between the safety system of the drilling 
contractor with the safety system of the lease operator.
    Representatives of the Bureau of Ocean Energy Management, 
Regulation and Enforcement participate in the standard setting 
activities, and about 100 of the API documents are referenced 
in the BOEMRE regulations.
    Also, the industry is putting the final pieces in place for 
its new Center for Offshore Safety, which we will have up and 
running later this year. The Center will focus on the 
development and implementations of safety and environmental 
management systems in deepwater operations, drawing on the 
collective knowledge and experience of the industry, and 
promoting use of the best safety practices.
    However, should an incident occur, preparedness becomes a 
key factor in determining the effectiveness of a response. In 
the post-Macondo world, the industry has invested significant 
resources in the development of a capping and containment 
solution to stop the blowout at its source. These efforts, 
which include the Marine Well Containment Company and the Helix 
Well Containment Group, will ensure the industry can quickly 
cap and contain a leaking well.
    In terms of spill response, the actions taken following the 
Macondo incident effectively minimized the impact to the 
environment and ecosystem. The spill itself was unprecedented. 
But, with close to 50,000 people, 9,700 vessels, 13.5 million 
feet of boom, 125 planes, and several rigs, so was the 
response. A substantial contingent continues to be on scene to 
remediate any potential affected areas.
    While preliminary reports have shown that the impacts to 
the shoreline, seafood, and vitality of the area are 
significantly less than what was anticipated, the long-term 
impacts will continue to be monitored and studied. Moving 
forward, industry is committed to review the entire spill 
response system, identify any potential gaps, and address where 
necessary. We've initiated this review on issues such as 
dispersants, in-situ burning, and mechanical recovery. This 
review effort involves both U.S. and international 
stakeholders. It is open to the entire industry, covers both 
Gulf and Alaska activities, and it seeks government input into 
the program.
    Great strides have been made to enhance the industry's 
capability to prevent an incident from happening, to cap and 
contain a leaking well, and to respond to a spill, and we're 
committed to building on this progress. But, we are also 
prepared to safely and fully resume operations in the Gulf, 
Alaska, and other areas. If permitting moves forward at a 
reasonable pace for projects in the Gulf alone, then we can put 
190,000 more people to work, safely bring more of the Gulf's 
vitally needed energy to America's consumers, and deliver many 
billions of dollars in additional revenue to our Federal 
treasury.
    Thank you. This concludes my statements. I'll be happy to 
take any questions.
    [The prepared statement of Mr. Milito follows:]

    Prepared Statement of Erik Milito, Group Director, Upstream and 
           Industry Operations, American Petroleum Institute
    Good afternoon Chairman Begich, Ranking Member Snowe, and members 
of the Subcommittee.
    I am Erik Milito, Upstream Director at the American Petroleum 
Institute. API has more than 470 member companies, which represent all 
sectors of America's oil and natural gas industry. Our industry 
supports 9.2 million American jobs, including 170,000 in the Gulf of 
Mexico related to the offshore development business. It also provides 
most of the energy we need to power our economy and way of life, and 
delivers more than $86 million a day in revenue to the Federal 
Government.
    It's now been more than a year since the tragic Macondo well 
accident. We cannot forget that the industry and the Nation lost 11 
workers that day, and our thoughts and prayers continue to go out to 
the families of those workers. To be certain, the incident has provided 
us with a sobering reminder that we must maintain a laser focus on 
safety as the priority in operations.
    Immediately after the accident, the industry formed task forces to 
examine every aspect of offshore safety systems, including equipment, 
operating practices, sub-seal well control, and spill response. Due to 
the leadership and work of the industry, we now have enhanced 
capabilities in each of the key areas: prevention, capping and 
containment, and spill response.
    As an industry, we recognize that the most effective oil spill 
response is to prevent it from ever happening in the first place. 
Therefore, a great deal of attention has always been placed on 
prevention. The recommendations developed by the industry task forces 
formed the basis of some of the regulations on prevention that we now 
see. These include requirements for maintaining multiple barriers 
during well construction, implementation of various new testing 
requirements during drilling operations, and adoption of API 
Recommended Practice 65 Part 2, which focuses on zone isolation in 
wells and preventing and controlling flows in cementing operations. In 
addition, the industry is currently developing API Recommended Practice 
96, which will help improve deepwater well design and installation 
practices, and Bulletin 97, a joint effort of API and the International 
Association of Drilling Contractors, intended to help link the safety 
system of the drilling contractor with the safety system of the lease 
operator.
    Representatives of the Bureau of Ocean Energy Management, 
Regulations and Enforcement participate in the development of our 
standards, and about 100 are referenced in the BOEMRE regulations.
    Also, the industry is putting the final pieces in place on its new 
Center for Offshore Safety, which we will have up and running later in 
the year. The center will focus on the development and implementation 
of safety and environmental management systems in deepwater operations, 
drawing on the collective knowledge and experience of the industry and 
promoting use of the best safety practices.
    Should an incident occur, preparedness becomes a key factor in 
determining the effectiveness of a response. In the post-Macondo world, 
the industry has invested significant resources in the development of a 
capping and containment solution to stop the blowout at its source. 
These efforts, which include the Marine Well Containment Company and 
the Helix Well Containment Group, will ensure the industry can quickly 
cap and contain a leaking well.
    In terms of spill response, the actions taken following the Macondo 
incident effectively minimized the impact to the environment and 
ecosystem. The spill itself was unprecedented, but with close to 50,000 
people, about 9,700 vessels, 13.5 million feet of boom, 125 planes, and 
several rigs so was the response. A substantial contingent continues to 
be on scene to remediate any potential affected areas. While 
preliminary reports have shown that the impacts to the shoreline, 
seafood and vitality of the area are significantly less than what was 
anticipated, the long-term impacts will continue to be monitored and 
studied.
    Moving forward, industry has committed to review the entire spill 
response system, identify any potential gaps and address where 
necessary. We have initiated this review on issues such as dispersants, 
in-situ burning, and mechanical recovery. This review effort involves 
both U.S. and international stakeholders; it is open to the entire 
industry; it covers both Gulf and Alaska activities, and it seeks 
government input in the program.
    Great strides have been made to enhance the industry's capability 
to prevent an incident from happening, to cap and contain a leaking 
well, and to respond to a spill, and we're committed to building on 
this progress. But we are also prepared to safely and fully resume 
operations in the Gulf, Alaska and other areas. The government needs to 
issue leases, and approve and permit projects, without unreasonable 
delay. If permitting moves forward at a reasonable pace for projects in 
the Gulf, then we can put 190,000 more people to work, safely bring 
more of the Gulf's vitally needed energy to America's consumers, and 
deliver many billions of dollars in additional revenue to our Federal 
treasury.
    Thank you. That concludes my statement.

    Senator Begich. Thank you very much, Mr. Milito.
    Let me move to Mr. Ayers, and then we'll go into questions.

 STATEMENT OF JIM AYERS, SENIOR ADVISOR AND CONSULTANT, OCEAN 
                          CONSERVANCY

    Mr. Ayers. Chairman Begich. Senator Rubio, thank you for 
the invitation to be here today.
    I'm testifying today in my capacity as a Senior Advisor and 
Consultant to the Ocean Conservancy, although I have other 
conservation clients as well.
    The Ocean Conservancy is a national marine conservation 
organization of scientists and citizens and volunteers that 
promote a healthy ocean, and have done so for over 40 years, 
and headquartered here in D.C.
    My testimony will address three things: First, prevention 
preparedness and response, and recommendations with regard to 
my experience in Deepwater Horizon and Exxon Valdez; second, 
restoration; and third, a brief sentence in reference to the 
Arctic, and what I believe is an imperative approach.
    Among many other things, I served as the Executive Director 
of the Exxon Valdez Oil Spill Trustee Council, and led the 
effort to develop and implement a comprehensive restoration 
plan. I later became Chief of Staff, where I supported that 
plan and moved forward with preparedness, including issues that 
were mentioned earlier by Senator Cantwell, like shipping, and 
continued preparedness and prevention.
    In short, we are not prepared. We are not yet committed to 
prevention. And the Oil Pollution Act of 1990, though it is 
done a lot of good, has significant holes and, in particular, 
with regard to response.
    Here are my recommendations of how to fix the problem. 
First, we must integrate spill prevention and preparedness into 
the oil and gas decision-making process. Congress should 
mandate the baseline science and an understanding of the marine 
ecosystem in which we intend to drill is fully understood. That 
informed decisions about if we should drill, when, where and 
how, are based on science.
    It also means giving a stronger role to the expert agencies 
like NOAA and the Coast Guard. And, as was aforementioned, 
they're insufficiently not funded and not given the authority 
to incorporate true worst case scenarios into the planning 
process.
    We must require the best available technology in 
engineering to be brought forward into the process. That is 
currently not a mandate under OPA 1990, and I participated in 
that and find myself guilty. It is our responsibility to bring 
the best and brightest of America to bear on this project and 
on this issue of offshore drilling, and we have not done so.
    Second, we need to step up our game with respect to spill 
response. Government regulators and industry operators must 
ensure and demonstrate that they have trained personnel and 
equipment sufficient to contain, control, and clean up a worst 
case discharge. As you heard earlier, the cascading approach of 
bring supplies, equipment and personnel from other states and 
other nations is insufficient in protecting our Nation's ocean 
resources.
    The Coast Guard must be authorized and funded to ensure 
that responsible parties' oil spill response plans and area 
contingency plans are, in fact, in place and comply with the 
National Contingency Plan. Based on your question earlier, 
although it's suggested in the National Contingency Plan of how 
it should operate, it is not mandated, nor is it in place 
today.
    Third, Congress must commit the financial resources 
necessary to ensure that agencies like the Coast Guard and NOAA 
can do their job. I humbly suggest that a small increase in the 
per barrel tax that funds the Oil Spill Liability and Trust 
Fund would provide the funding necessary to ensure that 
responsibilities are met and, in fact, would be a certain 
provision that would allow and ensure that America can comply 
with the requirements of preparedness, prevention, and 
response.
    It's America's oil, America's oceans. Oil companies sell 
oil. It's the Government's responsibility to ensure that the 
public trust is protected.
    Let's move quickly to restoration. Restoration is becoming 
a part of our culture and our economy from the tundra to the 
Gulf and from Yellowstone to Chesapeake, this country is 
engaged in restoration, and will be for the rest of this 
generation.
    I'm pleased the restoration planning is moving forward in 
the Gulf, with the Gulf ecosystem task force that was created 
by the President, and that the Natural Resources Trustees under 
OPA 1990 are moving forward with the restoration plan. But, I 
have several critical elements to suggest.
    Based on my experience with the Exxon Valdez oil spill, we 
must have a common vision for a healthy biodiverse, productive 
Gulf, and we must have clear measurable objectives and rigorous 
criteria for moving forward with projects.
    To make this happen, Congress should demonstrate that 
America will not sacrifice the long-term health in fisheries 
and biodiversity of the Gulf of Mexico, or any other large 
marine ecosystems in this country, for short-term industrial 
production of any kind. That must begin with dedicating a 
significant portion of the Clean Water Act penalties, as has 
been done by Senator Rockefeller in Senate Bill 1140. Some 
piece of those penalties should be directed in a separate 
account within the Unites States Treasury, with the earnings of 
that accounts supporting a long-term Gulf ecosystem monitoring 
observation research program.
    And with that said, Mr. Chairman, let me say that the 
science-based approach that I'm suggesting would work in the 
Arctic as well. And, as you can see, it's science that's 
missing in both applications--both in the preparedness and 
response, and also in the restoration. Congress should act now 
to establish a long-term scientific monitoring observation 
research program, and ensure response capabilities are in 
place, before offshore environment is exposed to widespread 
industrial activity in the Arctic and the attendant risks 
therein.
    Finally, at broader level, Mr. Chairman, although Senator 
Snowe is not here, let me mention it--Congress should ensure 
that the United States has the financial resources necessary to 
be an effective steward of its oceans and coastal ecosystems. 
The National Endowment for Ocean's Act, co-sponsored by Ranking 
Member Snowe and other members of this committee, would do just 
that.
    The Ocean Conservancy recognizes the United States must 
continue to develop energy. It's an imperative. But, we must do 
so the right way, and we can do it right.
    Thank you, Mr. Chairman and Senator Rubio.
    [The prepared statement of Mr. Ayers follows:]

    Prepared Statement of Jim Ayers, Senior Advisor and Consultant, 
                           Ocean Conservancy
    Chairman Begich, Ranking Member Snowe, and members of the 
Subcommittee, thank you for the invitation to participate in today's 
hearing. My name is Jim Ayers, and I am the founder and President of 
Alaska Strategies, a conservation consulting firm. I am testifying 
today in my capacity as a senior advisor and consultant for Ocean 
Conservancy, a national marine conservation organization that has 
promoted healthy and diverse ocean ecosystems since its founding in 
1972. Ocean Conservancy is supported by more than 500,000 members and 
volunteers, with its headquarters in Washington, D.C.
    You have invited me here today to discuss two broad topics: first, 
the efficacy of the laws, regulations, and policies that relate to oil 
spills and spill response and prevention on the Outer Continental Shelf 
(OCS); and second, the progress and viability of long-term restoration 
in the Gulf of Mexico in the wake of the BP Deepwater Horizon oil 
disaster.
    My perspective on these topics is informed by substantial 
experience dealing with offshore oil spills and restoration efforts. 
Most recently, I was a representative on the U.S. Coast Guard's 
Incident Specific Preparedness Review for the response to the BP 
Deepwater Horizon oil spill--a review designed ``to examine the 
implementation and effectiveness of the preparedness and response to 
the BP Deepwater Horizon incident.'' \1\ Earlier in my career, I was 
the first executive director of the Exxon Valdez Oil Spill Trustee 
Council, where I led the effort to develop and implement a 
comprehensive restoration plan for the region affected by the Exxon 
Valdez spill, and helped establish a long-term research and monitoring 
fund designed to enhance recovery and restoration.
---------------------------------------------------------------------------
    \1\ U.S. Coast Guard, Final Report: Incident Specific Preparedness 
Review for the BP Deepwater Horizon Oil Spill (Jan. 2011), at 1.
---------------------------------------------------------------------------
    Before proceeding any further with my testimony, I would like to 
acknowledge that the BP Deepwater Horizon oil disaster was a human and 
environmental tragedy. It killed 11 men, seriously injured 16 others, 
and discharged roughly 205 million gallons of oil into the Gulf of 
Mexico. The disaster impacted lives, livelihoods, and the rich and 
diverse Gulf of Mexico ecosystem that is a national treasure and 
cornerstone of the regional economy.
    Now, more than a year after the BP Deepwater Horizon disaster, the 
United States stands at yet another major crossroads, and we must 
decide which way we want to go. On one hand, we can turn a blind eye to 
the shortcomings of the statutes that govern offshore oil and gas 
operations and spill response, maintaining the status quo and hoping 
for the best. On the other hand, we can acknowledge the gaps and flaws 
in the existing system and enact reforms designed to prevent future 
offshore oil disasters and promote preparedness, safety, and protection 
of ecosystem services vital to our Nation. I believe it is imperative 
that we choose the latter. In our pursuit of energy, we must minimize 
risks to the natural environment to ensure diverse, healthy ecosystems 
capable of supporting the economy and human health--for this generation 
and the next. But to do so, Congress must take meaningful action now.
    In Part I below, I address the existing framework that governs 
spill prevention and response, and recommend a series of reforms to the 
OCS oil and gas process. In general, these reforms strive to integrate 
spill prevention and response into OCS policies and decision-making 
processes. Then, in Part II, I discuss restoration efforts in the wake 
of the BP Deepwater Horizon oil spill, and recommend actions that will 
bolster effective long-term restoration in the Gulf of Mexico and 
better preparedness in frontier regions which may soon experience 
increasing levels of oil and gas activity.
I. Oil Spill Prevention And Response Must Be Integrated Into The OCS 
        Oil and Gas Process
    The Oil Pollution Act of 1990--enacted in the wake of the Exxon 
Valdez oil spill--is the primary statute governing issues of planning, 
prevention, response, and liability for oil spills in marine waters.\2\ 
OPA 90 introduced several critical reforms, including technical 
standards, improved response planning, funding for research and 
development, and liability and compensation requirements. Under OPA 
90's amendments to the Clean Water Act, the Federal Government may 
respond to a spill event by ``federalizing'' the spill and engaging 
directly in the cleanup, monitoring the responsible party's cleanup 
efforts, or directing the responsible party in implementation of the 
response.\3\ These changes have made it more likely that the relevant 
contingency plans would be properly carried out during a major spill. 
OPA 90 also expanded the role and breadth of the National Contingency 
Plan (NCP) and linked the NCP to area response plans, regional response 
plans, and facility-level response plans--a multi-layered planning and 
response system intended to improve spill preparedness and response 
effectiveness.
---------------------------------------------------------------------------
    \2\ See, e.g., Nat'l Comm'n on the BP Deepwater Horizon Oil Spill 
and Offshore Drilling, Deep Water: The Gulf Oil Disaster and the Future 
of Offshore Drilling (2011) at 83 [hereinafter National Commission].
    \3\ 33 U.S.C.  1321(c)(1)(B).
---------------------------------------------------------------------------
    Despite the benefits of the spill prevention and response framework 
established by OPA 90, the present system suffers from a significant 
flaw: for the most part, the OPA 90 framework exists separate and apart 
from the rest of the OCS oil and gas development process. As a result, 
preparedness regarding spill prevention and response is not integrated 
adequately into OCS policy, and does not play a significant role in 
many OCS decision-making processes. The following sections include 
recommendations to address this problem.
A. Prevention of oil spills should start with ensuring that energy 
        development takes place only in appropriate locations, where it 
        can be undertaken without undue risk to environmental, human, 
        and economic health.
    A little over a year ago, President Obama issued an Executive Order 
establishing a National Ocean Policy. That policy includes a set of 
overarching guiding principles for management decisions and actions 
toward achieving the vision of ``an America whose stewardship ensures 
that the ocean, our coasts, and the Great Lakes are healthy and 
resilient, safe and productive, and understood and treasured so as to 
promote the well-being, prosperity, and security of present and future 
generations.'' \4\ Prevention of oil spills should begin at the highest 
level, by ensuring that our National Energy Policy and our National 
Ocean Policy are aligned. As we pursue currently available energy 
resources, we must do so in a way that is safe for energy workers and 
allows us to maintain a healthy environment for this and future 
generations. Safe and responsible development of current energy 
sources, combined with sensible conservation measures and investments 
and a commitment to developing more sustainable energy options going 
forward, will help ensure that there are economic opportunities, 
healthy and diverse ecosystems, and a clean and safe environment in the 
future.
---------------------------------------------------------------------------
    \4\ Exec. Order No. 13547, 75 Fed. Reg. 43,023, 43,023 (July 22, 
2010).
---------------------------------------------------------------------------
    More specifically, we must ensure that energy development occurs 
only in safe and appropriate locations. Oil and gas lease sales, 
exploratory drilling, and development and production on the OCS are 
appropriate only when there is sufficient science to support informed 
decisions that such actions can proceed with minimal risk to the health 
of ocean and coastal ecosystems. To help ensure that economic sectors 
other than oil and gas development are given adequate consideration, 
Congress should support the implementation of a more comprehensive 
system of regional planning for the conservation and management of 
marine resources. In addition, Congress should amend the nation's 
existing OCS policy statement to make protection, maintenance, and 
restoration of coastal and ocean ecosystems a primary policy objective.
    To help ensure that energy development occurs safely and only in 
appropriate locations, expert agencies in addition to the Bureau of 
Ocean Energy Management, Regulation and Enforcement (BOEMRE) should 
play a greater role in decisions about, and preparation of 
environmental analyses for, oil and gas operations.\5\ These agencies 
should include the National Oceanic and Atmospheric Administration 
(NOAA), the U.S. Fish and Wildlife Service (USFWS), the U.S. Coast 
Guard, and others. For example, Congress should change Section 18 of 
the Outer Continental Shelf Lands Act to give the Secretary of Commerce 
a greater role in the initial decisions about if, when, where, and how 
to allow oil and gas leasing, exploration, and development on the OCS. 
Congress could amend Section 18 so that the Secretaries of Commerce and 
of the Interior have joint and equal responsibility for preparing five-
year oil and gas leasing programs. Alternatively, Congress could amend 
Section 18 to require the concurrence of the Secretary of Commerce 
before any five-year leasing program is finalized and implemented. 
Similarly, the U.S. Coast Guard should play a role in identifying how 
oil and gas activities on the OCS proceed.
---------------------------------------------------------------------------
    \5\ See, e.g., National Commission at 264 (recommending that 
Congress amend the Outer Continental Shelf Lands Act ``to provide NOAA 
with a formal consultative role during the development of the five-year 
lease plan and lease sale stages.'').
---------------------------------------------------------------------------
    To facilitate more meaningful environmental analysis before 
exploration and drilling activities proceed, OCS planning areas--at 
least in frontier areas--should be smaller and focused more precisely 
on specific lease tracts.\6\ Congress, for example, could amend section 
18 of the Outer Continental Shelf Lands Act to specify an upper limit 
on the percentage of a frontier planning area that may be included in 
any one five-year oil and gas leasing program. Alternatively, Congress 
could require DOI to use tract-style leasing in frontier areas, rather 
than offering enormous portions of planning areas.
---------------------------------------------------------------------------
    \6\ Cf. id. at 262 (recommending reducing the size of lease sales 
``in less well explored areas,'' so that the ``geographic scope [of the 
lease sale] allows for a meaningful analysis of potential environmental 
impacts and identification of areas of ecological significance'').
---------------------------------------------------------------------------
    Finally, areas of the marine environment that are particularly 
significant--such as essential fish habitats, areas of high 
productivity, or areas supporting important concentrations of wildlife, 
migratory pathways, and subsistence use--should be protected from the 
impacts of OCS oil and gas activities. Regulators should preserve the 
resilience of marine ecosystems by placing important ecological areas 
off-limits to drilling and ensure that such areas are well buffered 
from oil and gas activities elsewhere in the region. Congress should 
amend the law to require regulatory agencies, during their planning 
processes, to identify any important ecological areas and explain the 
protection measures necessary to preserve the integrity and function of 
those areas.
B. Making informed decisions about oil spill prevention and response 
        requires adequate baseline scientific information.
    To understand fully the potential impacts on the local ecosystem 
from a large-scale spill--and to determine how best to respond to a 
spill--decisionmakers require adequate baseline science. Scientific 
baseline data and risk analyses should inform decisions about whether, 
when, and where to allow OCS oil and gas activities. As a result, 
before permitting OCS activities to proceed, Congress should require 
the availability of specific types and quantities of baseline 
scientific information gathered over time at scales appropriate to the 
decisions that must be made. This information might include physical 
characteristics--such as data on the sea floor, ocean currents, wind 
and weather patterns, and water temperature and salinity--as well as 
information about the ecosystem, such as the presence, distribution, 
and abundance of species and the relationships among those species. 
Collection of baseline science should include and incorporate local and 
traditional knowledge from affected communities. This approach would 
ensure that expert concerns are heard from the outset, and would help 
avoid later complications. ``Doing it right'' is an expression that 
many of us use with reference to oil and gas activity, and doing it 
right means taking the time and spending the money to gather the 
necessary science to support smart decisions.
    Certain types of scientific information, such as identifying 
sensitive areas and locations of critical ecological processes, are 
necessary to help plan for and implement oil spill response operations. 
In addition, baseline science is necessary in carrying out a natural 
resource damage assessment following an oil spill, because the impacts 
from the spill must be measured against the environmental baseline that 
existed prior to the spill.\7\ This is not possible without a robust 
time series of baseline data gathered over an appropriate geographic 
area. During my time with the Exxon Valdez Oil Spill Trustee Council, 
not a day went by when we did not rue the lack of baseline data 
gathered prior to that disastrous event. Baseline data are particularly 
lacking in frontier areas such as the Arctic.\8\
---------------------------------------------------------------------------
    \7\ See, e.g., 15 C.F.R.  990.52 (noting that natural resource 
trustees ``must quantify the degree, and spatial and temporal extent of 
such injuries relative to baseline.''); see also id.  990.30 (defining 
``baseline'' as ``the condition of the natural resources and services 
that would have existed had the [oil spill] incident not occurred.'').
    \8\ See generally Holland-Bartels, Leslie, and Brenda Pierce, eds., 
An evaluation of the science needs to inform decisions on Outer 
Continental Shelf energy development in the Chukchi and Beaufort Seas, 
Alaska: U.S. Geological Survey Circular 1370 (2011); Coastal Response 
Research Center, Natural Resources Damage Assessment (NRDA) in Arctic 
Waters: The Dialogue Begins, Univ. of New Hampshire (2010). See also 
National Commission at 303 (recognizing that ``scientific research on 
the ecosystems of the Arctic is difficult and expensive. Good 
information exists for only a few species, and even for those, just for 
certain times of the year or in certain areas.'').
---------------------------------------------------------------------------
    Congress should require the collection of specific types of 
baseline science information before areas can be considered for oil and 
gas leasing. For example, before an area is considered for leasing in a 
five-year program, Congress should require at least 3 years of baseline 
weather, water, wind, ocean chemistry, and other environmental data. It 
should also require similar baseline studies for wildlife--including 
fish, birds, invertebrates, and marine mammals--and of the sea floor 
environment. Unless and until such data are compiled for a given area 
of the OCS, that area should not be eligible for leasing. In addition, 
Congress should enact requirements designed to ensure a more rigorous 
and meaningful evaluation of environmental sensitivity and marine 
productivity. This requirement should be integrated and coordinated 
with baseline science information.
    Congress should support collection of baseline scientific data 
through integrated programs that undertake research, monitoring, 
documentation of local and traditional knowledge, and synthesis. Such 
work would, for example, assess and monitor populations of principal 
species in the ecosystem and the biological and physical factors that 
affect their abundance and distribution; construct and maintain an 
updated quantitative food web model; identify sensitive species and 
important ecological areas; and enhance understanding of temporal and 
spatial variability within ecosystems. These programs would require 
secure and stable sources of funding.
C. Rigorous risk assessment is critical to preventing oil spills and 
        ensuring preparedness.
    As development planning and activities are considered, regulators 
must undertake a rigorous analysis of potential impacts and risks. As 
noted above, Federal agencies in addition to BOEMRE should have a 
greater role in planning for and conducting environmental analyses of 
OCS oil and gas activities. Risk analysis should be science-based, and 
subject to external, expert peer review. Analysis pursuant to the 
National Environmental Policy Act (NEPA) should be substantive--not 
mere window dressing--and OCS drilling operations should not be 
categorically excluded from environmental review. All OCS drilling 
activities should be subject to site-specific NEPA analysis, either an 
Environmental Assessment or an Environmental Impact Statement.
    The BP Deepwater Horizon disaster highlighted the risk of failing 
to engage in worst-case oil spill planning. When making decisions that 
involve the potential for catastrophic results--such as major oil 
spills--environmental analyses must take seriously the potential for 
disaster. This is true even if the probability of an individual 
occurrence is low, because the harm from such an event may be very 
great.\9\ Federal regulators must analyze low-probability, high-risk 
events to ensure that they are prepared for a worst-case. In light of 
the BP Deepwater Horizon disaster, the Council on Environmental Quality 
concluded that Federal regulators must ``take steps to incorporate 
catastrophic risk analysis.'' \10\ The National Commission on the BP 
Deepwater Horizon Oil Spill and Offshore Drilling (National Commission) 
recommended that regulators ``incorporate the `worst-case scenario' 
calculations from industry oil spill response plans into NEPA documents 
and other environmental analyses or reviews'' to inform the agency's 
``estimates for potential oil spill situations in its environmental 
analyses.'' \11\
---------------------------------------------------------------------------
    \9\ See, e.g., 40 C.F.R.  1502.22(b)(4) (noting that in a NEPA 
analysis when information is missing or unavailable, ``reasonably 
foreseeable'' impacts include ``impacts which have catastrophic 
consequences, even if their probability of occurrence is low, provided 
that the analysis of the impacts is supported by credible scientific 
evidence, is not based on pure conjecture, and is within the rule of 
reason'').
    \10\ Council on Envtl. Quality, Report Regarding the Minerals 
Management Service's National Environmental Policy Act Policies, 
Practices, and Procedures as They Relate to Outer Continental Shelf Oil 
and Gas Exploration and Development (Aug. 16, 2010) at 27.
    \11\ National Commission at 267.
---------------------------------------------------------------------------
D. Government regulators and industry operators must ensure that they 
        have trained personnel and equipment sufficient to contain, 
        control, and clean up a worst case discharge.
    To protect healthy, diverse ocean ecosystems for future 
generations, regulators and the oil and gas industry must ensure that 
facility-specific oil spill response plans provide for the immediate 
availability of equipment and trained personnel sufficient to contain, 
control, and clean-up a worst-case discharge. Equipment must be based 
reasonably close to potential accident sites, and trained teams of 
responders must be available in-region to operate the equipment in 
accordance with the pre-approved plan.
    Worst-case scenario planning will help Federal regulators and OCS 
operators anticipate their needs in the event of a major oil spill or 
other emergency event. The BP Deepwater Horizon disaster showed that 
the existing planning standard--responding to a worst-case scenario 
spill in 30 days--is unrealistic for an offshore well blowout. The law 
should be changed to require operators to meet a performance standard 
based on a true worst-case scenario oil spill. For an exploration well 
the worst case oil spill scenario time frame should be increased to at 
least 90 days (the time it takes to drill a relief well). The worst-
case oil spill volume should be based on that 90-day period multiplied 
by a maximum flow rate of 60,000 barrels of oil per day, unless the 
operator can provide reservoir and engineering data to prove that the 
flow rate will be less.
    To be effective in an emergency, response capability must be 
mobilized immediately. For that to happen, equipment and personnel must 
be either pre-positioned near potential spill sites or quickly 
mobilized from nearby locations that actually have those resources 
onsite. Spill response plans often rely upon contracts with spill 
response companies or regional consortia, and delays in mobilization of 
an effective spill response may result from the lack of actual capacity 
in the area of the spill. If a response plan calls for contractors to 
provide equipment and trained personnel for the response, actual 
capacity must be demonstrated ahead of time.
    In addition to implementing more stringent planning and response 
standards, assessment of industry oil spill response plans must be more 
rigorous. For example, in the Arctic, BOEMRE approved an oil spill 
response plan in which Shell Offshore, Inc. claimed that it would 
recover 90 percent of the oil spilled during a worst case discharge 
from its proposed facility in the Beaufort Sea \12\--even though a 90 
percent recovery rate is, without question, wholly unrealistic. The 
agency approved Shell's plan despite the fact that in earlier planning 
documents, the agency had acknowledged that ``[o]n average, spill-
response efforts result in recovery of approximately 10-20 percent of 
the oil released to the ocean environment.'' \13\ This lax oversight 
led DOI's Office of Inspector General to conclude that review of oil 
spill response plans ``does not ensure that critical data are 
correct.'' \14\
---------------------------------------------------------------------------
    \12\ See Shell Offshore Inc., Beaufort Sea Regional Exploration Oil 
Discharge Prevention and Contingency Plan (Jan. 2010) at unnumbered 
page following I-12 (containing BOEMRE approval letter); id. at 1-29 
(assuming that only 10 percent of the discharge from a hypothetical 
blowout will ``escape [ ] primary offshore recovery efforts'').
    \13\ Minerals Management Service, Final Environmental Impact 
Statement: Beaufort Sea Planning Area Oil and Gas Lease Sales 186, 195, 
and 202 p. IV-17 (Feb. 2003).
    \14\ Office of Inspector General, U.S. Department of the Interior, 
A New Horizon: Looking to the Future of the Bureau of Ocean Energy 
Management, Regulation and Enforcement (Dec. 2010), at 44.
---------------------------------------------------------------------------
    Finally, to facilitate more serious review of oil spill response 
plans for offshore facilities, broaden the scope of review, and promote 
better information-sharing, multiple Federal agencies should--in a 
coordinated and timely fashion--review and approve these plans. In 
addition to interagency review of oil spill response plans for OCS 
facilities, there should be public comment on such plans.\15\ The 
National Commission endorsed the idea of interagency spill plan review:
---------------------------------------------------------------------------
    \15\ See id. (``Plans should also be made available for a public 
comment period prior to final approval and response plans should be 
made available to the public following their approval.'')

        In addition to the Department of the Interior, other agencies 
        with relevant scientific and operational expertise should play 
        a role in evaluating spill response plans to verify that 
        operators can conduct the response and containment operations 
        detailed in their plans. Specifically, oil spill response 
        plans, including source-control measures, should be subject to 
        interagency review and approval by the Coast Guard, EPA, and 
        NOAA. Other parts of the Federal Government, such as Department 
        of Energy national laboratories that possess relevant 
        scientific expertise, could be consulted.\16\
---------------------------------------------------------------------------
    \16\ National Commission at 266-67.

    The National Commission also noted that interagency review of oil 
spill response plans for OCS facilities would facilitate greater 
integration of those plans with broader-level area contingency plans 
and regional contingency plans because it would ``involve[e] the 
agencies with primary responsibility for government spill response 
planning in oversight of industry planning.'' \17\
---------------------------------------------------------------------------
    \17\ Id. at 267.
---------------------------------------------------------------------------
    In particular, the Coast Guard should have a formal role in the 
review of facility oil spill response plans. As it stands now, DOI has 
the primary responsibility to review facility response plans, even 
though the Coast Guard is ultimately responsible for response efforts 
on the water. As a result, the Coast Guard--the on-scene coordinator 
and lead agency for response to offshore spills--has not taken an 
active role in reviewing facility response plans. If it did, the Coast 
Guard might be able to suggest improvements or refinements that could 
make facility response plans more effective. Congress should ensure 
that the Coast Guard participates formally in spill prevention and 
response planning for OCS oil and gas facilities.
E. OCS oil and gas operations must use the best available engineering 
        and technology in their prevention and response toolkits.
    A recent DOI Inspector General Report concluded that the ``process 
for developing or updating standards and regulations has not kept pace 
with new and emerging offshore technologies.'' \18\ Going forward, we 
must ensure that OCS facilities use the best available engineering, 
technology, and safety procedures to maximize the protection of 
workers, ocean and coastal ecosystems, and the coastal businesses and 
economies that rely on those ecosystems.
---------------------------------------------------------------------------
    \18\ Office of Inspector General, U.S. Department of the Interior, 
A New Horizon: Looking to the Future of the Bureau of Ocean Energy 
Management, Regulation and Enforcement (Dec. 2010), at 44.
---------------------------------------------------------------------------
    Operators of all new offshore leases should be required to 
demonstrate that they are using the most effective safety technology 
for exploration or development activity as a precondition to 
drilling.\19\ Standards regarding spill prevention technologies should 
be implemented, as well. These might require redundant engineering 
controls, such as multiple or improved blowout prevention systems, on-
site blowout containment structures, and double-walled pipes or tanks. 
All OCS leases should be required to incorporate the most 
environmentally protective timing and location stipulations and terms 
to reduce the potential for environmental damage.
---------------------------------------------------------------------------
    \19\ At present, OCSLA provides for ``the use of the best available 
and safest technologies . . . on all new drilling and production 
operations and, wherever practicable, on existing operations.'' 43 
U.S.C.  1347(b). However, this requirement is weakened significantly 
by other provisions: it applies only to certain types of equipment, and 
the Secretary of the Interior may waive the requirement if he 
determines that the additional cost of using the ``best'' or ``safest'' 
technology outweighs the additional benefits of using the technology. 
Id.
---------------------------------------------------------------------------
    Spill response technologies also must be improved. Estimates 
following the BP Deepwater Horizon disaster reveal that despite the 
massive effort that BP activated to clean up the oil,\20\ response 
efforts were able to remove or chemically disperse--without removal of 
the dispersed oil--only about one-third of the oil that was discharged 
from the Macondo well.\21\ The National Commission determined that 
``[t]he technology available for cleaning up oil spills has improved 
only incrementally since 1990.'' \22\ The Commission further observed 
that ``[f]ederal research and development programs in this area are 
underfunded,'' and the major oil companies have committed minimal 
resources to in-house research and development related to spill 
response technology.'' \23\
---------------------------------------------------------------------------
    \20\ At its peak, more than 45,000 people were involved in the 
response effort. National Commission Report at 133.
    \21\ See Jane Lubchenco et al., BP Deepwater Horizon Oil Budget: 
What Happened to the Oil? (Aug. 4, 2010) available at http://
www.restorethegulf.gov/sites/default/files/imported_pdfs/posted/2931/
Oil_Budget_description_8_3_FINAL.844091.pdf (estimating that of the 4.9 
million barrels of oil that was discharged, responders recovered 17 
percent directly from the wellhead, skimmed 3 percent, burned 5 
percent, and chemically dispersed 8 percent, for a total of 33 
percent).
    \22\ National Commission at 269.
    \23\ Id. at 270.
---------------------------------------------------------------------------
    To spur better on-water cleanup results and more investment in 
research and development for response technologies, regulators should 
require operators to demonstrate the ability to meet specific 
performance standards in real-world conditions in the lease area before 
allowing operators to conduct drilling operations. The performance 
standards should require operators to demonstrate in simulated field 
trials that they have in place adequate equipment, personnel, and 
resources to respond effectively in the event of a catastrophic spill. 
Operators should show that they can deploy their resources in real-
world conditions and that the chosen equipment is effective in meeting 
an established oil removal performance target. These spill response 
standards should be enforced through independent third-party review of 
facility response plans and regular audits during the period of 
exploration and production.
F. Congress must provide the funding necessary to ensure adequate 
        preparedness.
    It will not be enough to require adequate oil spill preparedness in 
legislation or agency regulations. Congress also must commit the 
necessary financial resources to enable relevant Federal agencies, such 
as the Coast Guard, NOAA, DOI, and others, to do their jobs. Absent 
stable and adequate funding for oil spill preparedness, Federal 
agencies may not be able to carry out their responsibilities to plan, 
prepare, and respond to incidents, and to contain, control, and clean-
up a major oil spill. Ensuring adequate preparedness is simply one of 
the costs of doing business. A small increase in the per-barrel tax 
that funds the Oil Spill Liability Trust Fund could provide funding for 
Federal agencies to better meet their responsibilities to prepare and 
respond to oil spills.
    Taking a broader perspective, Congress should also ensure that the 
United States has the financial resources necessary to be an effective 
steward of its ocean and coastal ecosystems. Despite the importance of 
these ecosystems and the risks posed by oil and gas and other 
activities, there is no dedicated source of funding to support 
conservation and management activities. Congress should invest revenues 
derived from offshore development in a fund dedicated to ocean and 
coastal restoration and conservation. Given the economic and ecological 
importance of our ocean and coasts, we should invest more in 
monitoring, researching, protecting, and restoring the health of these 
systems and promoting their resilience so that they can better recover 
when disasters happen, whether man-made or natural.
    In May, Ranking Member Snowe and Senator Whitehouse, along with 
Chairman Rockefeller and Senators Inouye, Nelson, Stabenow, and 
Landrieu, introduced legislation to make crucial investments in cleaner 
and healthier oceans across the country. The National Endowment for the 
Oceans Act takes the common-sense step of using money the government 
already gets from economic activities on our oceans, and directs a 
portion of those funds toward keeping our oceans clean and healthy. 
Money from the endowment could then be distributed as grants to states 
and tribes for bottom-up, on-the-ground conservation and research to 
protect our oceans. Reinvesting a portion of revenue made from ocean 
resources is a fair and reasonable way to fund the work to protect 
ocean health, and ultimately economic health. We commend the bill's 
sponsors for their leadership on this issue and urge the Committee to 
move the National Endowment for the Oceans Act forward.
II. Congress Must Commit to Long-Term Restoration in the Gulf of Mexico
    The Gulf of Mexico region and ecosystem are vital to the United 
States in many respects, including oil and gas resources, seafood 
production, shipping, and recreation, to name only a few. While the 
Gulf of Mexico region has benefited from and is heavily dependent on 
oil and gas production, it has also paid a high environmental price for 
it. Going forward, a sound energy development policy must include a 
commitment to restore the Gulf of Mexico ecosystem and communities 
following last summer's BP Deepwater Horizon disaster and decades of 
degradation. Congress must do its part to ensure that the people and 
environment in the Gulf region are made whole following that disaster, 
and the decades of environmental degradation that preceded it, by 
dedicating a major portion of Clean Water Act penalties to recovery and 
restoration in the Gulf.
A. Restoration efforts in the Gulf of Mexico require dedicated, 
        predictable funding.
    Dedicated, predictable funding will be critical to successful 
restoration. Congress should dedicate Clean Water Act penalties 
associated with the BP Deepwater Horizon disaster to fund restoration 
in the Gulf of Mexico. The National Commission recommended that 80 
percent of such penalties be dedicated to that purpose. Several bills 
have been introduced in the Senate that would accomplish that 
purpose.\24\ For example, Chairman Rockefeller introduced S. 1140, the 
``Gulf Coast Restoration Act,'' which calls for 80 percent of Clean 
Water Act penalties to be deposited into a ``Gulf Coast Ecosystem 
Restoration Fund.''
---------------------------------------------------------------------------
    \24\ National Commission at 280.
---------------------------------------------------------------------------
    Restoration funding should be structured in a way that results in 
dedicated, predictable funding streams. For example, an endowment 
should be established to support long-term research and monitoring 
needed to assess the health of the Gulf, evaluate the efficacy of 
restoration measures, and facilitate adaptive management. I will expand 
on this idea in Subsection D, below. The revenue stream from the 
endowment could also provide valuable support for the work of Gulf 
Coast research institutions, which are in a good position to make 
lasting contributions to the overall recovery of the Gulf ecosystem and 
economy.
B. Gulf restoration efforts must address a variety of issues.
    Successful restoration of the Gulf ecosystem--including preserving 
the region's unique culture and traditions and promoting its economic 
restoration--will require sound management, stable and coordinated 
funding, prudent project selection, stewardship of the full ecosystem, 
and monitoring and adaptive management over the long-term. Restoration 
should focus on five key strategies:

        1. Protecting, restoring, and enhancing the coast and wetlands: 
        Restore resilience to coastal areas and nourish wetlands 
        through major projects in the Mississippi River delta and 
        elsewhere in the five-state region.

        2. Maintaining healthy, sustainable fisheries: Restore and 
        sustain Gulf of Mexico fisheries through investments in 
        science, technology, fishing fleet performance, and strategies 
        to restore depleted fish populations and support sustainable 
        long-term management.

        3. Restoring and protecting coastal and marine habitats: 
        Enhance key coastal and marine habitats like oyster reefs, 
        seagrass beds, corals, and nesting sites for birds and turtles 
        to strengthen and restore critical ecosystem services, such as 
        shoreline protection, tourism, and fishing.

        4. Shrinking the dead zone in the northern Gulf of Mexico: 
        Implement nutrient reduction strategies in the Mississippi 
        River watershed to reduce the size and duration of the hypoxia 
        zone to improve marine health and increase fisheries 
        productivity in the Gulf of Mexico.

        5. Taking the pulse of the Gulf ecosystem: Create a 
        permanently-funded, long-term Gulf of Mexico ecosystem 
        monitoring and research program to provide the basis for 
        adaptive management of coastal and marine natural resources.
C. Restoration efforts are underway in the Gulf, but success will 
        require a common goal, a comprehensive restoration program, 
        public involvement, incorporation of science, and clear, 
        measurable objectives.
    Federal and state restoration planning activities in the Gulf of 
Mexico are currently underway through the Deepwater Horizon Oil Spill 
Trustee Council, which implements the natural resources damage 
assessment (NRDA) and restoration program under OPA 90, and the Gulf 
Coast Ecosystem Restoration Task Force (Task Force), which was 
established by Executive Order.\25\ The Executive Order instructs the 
Task Force to prepare a Gulf Coast Ecosystem Restoration Strategy by 
October 2011; \26\ this document is intended to guide development of a 
broader ecosystem restoration effort in the event that Congress 
allocates Clean Water Act fines for that purpose. The Trustee Council 
is preparing a programmatic environmental impact statement on a NRDA-
based Gulf restoration program, and we anticipate release of the draft 
late this year or early next. In the meantime, BP has provided one 
billion dollars in early restoration funds and there is a flurry of 
activity as state and Federal agencies, as well as many stakeholders, 
consider how those funds can best be allocated.
---------------------------------------------------------------------------
    \25\ Executive Order 13554 of October 5, 2010: Establishing the 
Gulf Coast Ecosystem Restoration Task Force, 75 Fed. Reg. 62,313, 
62,313-17 (Oct. 8, 2010).
    \26\ Id. at 62,315.
---------------------------------------------------------------------------
    We are pleased that the Task Force and Trustee Council are 
developing and evaluating restoration strategies and that a down 
payment of one billion dollars is now available to jump-start 
restoration efforts on the ground and in the water. However, based on 
my experience with the Exxon Valdez program, I want to share some 
perspective and offer several suggestions to help ensure that the 
restoration program in the Gulf is designed to achieve maximum long-
term benefit to the ecosystem and communities in the region.
(1) Restoration of the Gulf ecosystem will require a common vision and 
        a comprehensive program to guide restoration efforts.
    Restoration in the Gulf of Mexico must start with an understanding 
of how the ecosystem works and a shared vision of what comprises a 
restored and sustained Gulf ecosystem. To achieve that vision requires 
development and implementation of an integrated, strategic program to 
guide and coordinate restoration efforts. In the Gulf, that program 
must address not only injuries caused by the BP Deepwater Horizon oil 
disaster, but also the systemic, decades-long degradation of the Gulf 
ecosystem. The restoration program must embrace the whole Gulf 
ecosystem, from coasts and marshes under state jurisdictions to blue-
water environments managed by the Federal Government.
    To make the most of limited resources, all restoration projects in 
the Gulf--including those funded with early restoration money--must be 
part of the overarching restoration program. This will demand 
discipline. When funding is limited and money is on the table, there is 
a real temptation to use those funds for support of projects that have 
been languishing on the shelf, waiting for the availability of money. 
While I have no doubt that many of those projects are meritorious, if 
they are not part of an integrated, strategic suite of projects, they 
will not be effective tools in the pursuit of Gulf restoration. A 
haphazard assortment of unrelated efforts--however well intentioned--
will not yield success. Setting aside differences and focusing on the 
disciplined implementation of an integrated restoration program will 
greatly enhance chances for success.
(2) Transparency and public involvement are critical to successful 
        restoration.
    Having served in government in many capacities and for many years, 
I know there is a tendency to think that we--as professional public 
servants--know best how to get the job done. It is critical, however, 
that restoration in the Gulf engage the public through a formal and 
recognized process that includes broad representation from communities 
and stakeholders in the region. No major decisions should be made--
including allocation of funds for early restoration--without full 
engagement of the public in a process that is open, transparent, and 
consistent across the Gulf region. In the Exxon Valdez program we bent 
over backward to engage the public. At times it was difficult and even 
tedious, but in the end, it resulted in a better program, one in which 
the public was invested. Public engagement is critical to long-term 
success.
    Part of public participation is sharing information with the public 
about what is being studied and learned in the course of the damage 
assessment. We learned the hard way in the Exxon Valdez program that 
not disclosing information about the harm caused by spilled oil fed the 
public's worst fears and left a legacy of bitterness about government 
secrecy.
    Given the potential for NRDA-related litigation, we acknowledge the 
need for caution in what information is disclosed to the public, but 
Federal and state governments should do more to provide information in 
a way that is useful to and understandable by the public. We truly 
appreciate that the trustees are posting individual study designs 
approved by the governments and BP on the Internet, but what is lacking 
is a description of how these pieces fit together in an overall damage 
assessment plan and a summary-level glimpse of what is being learned. 
The former is essential if the public is to evaluate whether the right 
scientific work is underway. The latter is essential if we are to 
engage intelligently in restoration planning, including offering 
informed opinions about allocation of early restoration funds.
    Following the Exxon Valdez, Exxon and the governments had an 
adversarial relationship. Notwithstanding this fact, within 5 months of 
the Exxon Valdez oil spill, Federal and state trustees released a 
damage assessment plan with project descriptions and costs and invited 
public comment on their efforts.\27\ A similar document was released 
annually until a settlement was achieved. This level of information 
sharing would seem appropriate following the BP Deepwater Horizon 
event, especially given that the relationship between the responsible 
party and the governments is far more cooperative.
---------------------------------------------------------------------------
    \27\ Exxon Valdez Oil Spill Trustee Council, State/Federal Natural 
Resource Damage Assessment Plan for the Exxon Valdez Oil Spill, Juneau, 
Alaska (Aug. 1989).
---------------------------------------------------------------------------
(3) External, independent scientific peer review is vital.
    Along with public participation, there is critical need to 
incorporate external, independent scientific peer review into the 
program from the very outset. We acknowledge and appreciate that the 
damage assessment involves consultation with and review by outside 
experts, but we urge the trustees to extend that approach to every 
aspect of the restoration program. The restoration program as a whole, 
and every restoration project--including those funded through early 
restoration--should be subjected to external review.
    In the Exxon Valdez program, we contracted with a chief scientist 
who did not work for any government agency and was not associated with 
any requests for restoration funds. His job was to manage a peer review 
panel and provide independent advice to the Trustee Council's executive 
director and to the Trustee Council itself. The chief scientist and 
peer review panel examined every project funded by the Trustee Council, 
as well as the overall restoration plan itself. I am very proud of this 
effort and believe it vastly improved the quality of the work and the 
effectiveness of our restoration program.
(4) The restoration program and restoration projects must be guided by 
        objective criteria and clear, measurable goals.
    Finally, it is critical that both the restoration program as a 
whole and every project have clear, measureable goals. A series of 
objective criteria should be used to make decisions about funding. For 
NRDA-based restoration, these criteria should be the same across the 
Gulf region and be consistently applied, including early restoration 
projects. Having an appropriate set of criteria and measurable goals 
will not only improve decisions about which projects go forward, it 
will facilitate monitoring and evaluation during and after 
implementation. The sums of money potentially available for restoration 
are too large to have anything but the most rigorous approach to 
decisionmaking in order to enhance accountability and public trust. As 
a model, I have attached a set of guiding principles and criteria 
developed by Ocean Conservancy; these are based in part on policies 
adopted and implemented by the Exxon Valdez Oil Spill Trustee Council.
    In short, successful restoration of the Gulf ecosystem will require 
a common vision of restoration, one that embraces the entire ecosystem, 
from coasts and marshes to the open water environments that stretch out 
beyond the shoreline. It will also demand the development and 
implementation of a comprehensive, integrated, Gulf-wide, science-based 
strategy and program. This program must be built on strong public 
participation and must incorporate external scientific peer review at 
every level. Finally, all restoration projects should have clear, 
measurable goals and be rigorously screened using objective criteria. 
Ten and twenty years down the road, when Congress asks the Government 
Accountability Office or the National Research Council to review the 
Gulf restoration program, we all hope they will conclude that these 
efforts resulted in tangible, lasting benefit for the Gulf ecosystem 
and hence its communities and economy.
D. Congress should support a long-term scientific research and 
        monitoring program in the Gulf of Mexico, and should consider 
        exporting the model to frontier areas such as the Arctic.
    While I suspect that most people will agree that planning and 
design of restoration projects should be science-based, it is just as 
important that science is used to monitor and evaluate the results. To 
that end, we urge Congress to support the creation of a long-term 
scientific research and monitoring program to support restoration of 
and resource management in the Gulf of Mexico. In addition, we urge 
Congress to support a scientific research and monitoring program for 
the Arctic, so that we can make informed management decisions and avoid 
the type of degradation that has plagued the Gulf of Mexico.
(1) Congress should establish a long-term, permanently funded 
        scientific research and monitoring program for the Gulf of 
        Mexico.
    Even in the absence of events like the BP oil disaster, the Gulf of 
Mexico ecosystem is in perpetual flux. Natural changes in oceanographic 
conditions, combined with chronic impacts from past and present human 
activities on land or at sea, affect habitat quantity and quality, as 
well as the abundance and distribution of marine life. Understanding 
change in the Gulf ecosystem--whether from natural or anthropogenic 
causes--requires long-term science and is essential to restoration, 
management, and conservation over the long term.
    As discussed above, restoration of the Gulf ecosystem must be 
informed, supported, and evaluated by science. A robust, long-term 
science program must be in place from the outset. Such a program should 
take advantage of the work on BP oil-related impacts being carried out 
in the NRDA and by independent researchers, and should be designed to 
detect lingering or sublethal injuries that extend over many years. 
More broadly, a restoration science program should provide information 
to support the design and selection of ecosystem restoration projects, 
evaluate the effectiveness of those projects and the overall program, 
and facilitate adaptive management going forward.
    The Exxon Valdez Oil Spill Trustee Council made an early decision 
to make a major investment of restoration funds in science, both to 
facilitate restoration of oil-spill injuries and to guide management 
and conservation efforts in the future. That investment in science 
continues more than 20 years after the oil spill. In addition, Congress 
established and endowed the North Pacific Research Board in Alaska as a 
source of competitive grants to support applied research that 
contributed to management and conservation of marine resources.\28\ 
Research funded by the North Pacific Research Board has improved 
scientists' ability to forecast ecosystem changes, answered important 
questions about fish-habitat relationships, and led to more informed 
resource management decisions.
---------------------------------------------------------------------------
    \28\ P.L. 105-83,  401(e), 111 Stat. 66-67 (Nov. 14, 1997); 
codified at 43 U.S.C. 1474d(e).
---------------------------------------------------------------------------
    Drawing in part on the Alaska experience, members of the scientific 
and conservation communities have proposed versions of a permanent, 
endowed Gulf of Mexico Ecosystem Monitoring (GEM) program to supplement 
and extend beyond the restoration science carried out in connection 
with NRDA and Restoration Task Force programs in the Gulf. The GEM 
program should include and support an expanded, ongoing Ocean Observing 
System in the Gulf of Mexico so that ocean scientists can detect 
changes in the marine ecosystem and forecast the impacts of those 
changes on ecosystem productivity and fishery resources. We strongly 
recommend that Congress create a permanently-funded GEM program.
    To fund a GEM program, Congress should segregate a portion of the 
Clean Water Act penalties associated with the BP Deepwater Horizon 
disaster into a separate account within the U.S. Treasury. It should 
dedicate the revenue stream from the earnings of that account, after 
adjusting for inflation, to the support of the GEM program and its 
ecosystem monitoring and research projects. Grants should be awarded on 
a competitive basis to academic institutions, marine research 
consortia, government agencies, and other appropriate entities with an 
emphasis on developing an integrated series of scientific research and 
monitoring projects over a long time horizon. To ensure an adequate 
level of continuing support, Congress should designate on the order of 
$1 billion of the Clean Water Act penalties for the separate GEM 
account. GEM grants should be administered by a decision-making board 
established and operated by a regional entity, such as the Gulf of 
Mexico Alliance, under the fiscal and administrative authority of the 
U.S. Department of Commerce. Members of the board should include 
stakeholders from the Gulf region, as well as representatives of key 
Federal and state agencies and academic institutions.
(2) Congress should act now to establish a long-term scientific 
        research and monitoring program in the Arctic.
    Establishing a long-term scientific research and monitoring program 
will support restoration efforts in the Gulf of Mexico in the wake of 
the BP Deepwater Horizon disaster and decades of systemic degradation. 
But there is no reason that development and implementation of a science 
plan should come about only after a region has been degraded or 
affected by a catastrophe. On the contrary, the best time to conduct 
scientific research and monitoring comes before an area is exposed to 
widespread industrial activity and its attendant risks. This allows 
scientists to establish an accurate baseline that can help guide 
management decisions, including decisions about whether, when, where, 
and how to pursue oil and gas operations.
    With warming temperatures, decreasing seasonal ice, and advancing 
technology, the Arctic is becoming more accessible to commercial and 
industrial users. Ship traffic is already on the rise, and the oil and 
gas industry is anxious to explore the region. But the Arctic is a 
challenging area in which to operate, and its environment is 
particularly fragile. Moreover, the Arctic is not well understood, and 
there are significant gaps in our knowledge of this rapidly changing 
ecosystem.\29\ In short, we need to act now to ensure that we have the 
baseline scientific data that will allow us to make informed management 
decisions and no-regrets choices about industrial activities in the 
region. To that end, we urge Congress to support the immediate 
development and implementation of a long-term, comprehensive, 
integrated science program for the Arctic.
---------------------------------------------------------------------------
    \29\ See generally Holland-Bartels, Leslie, and Brenda Pierce, 
eds., An evaluation of the science needs to inform decisions on Outer 
Continental Shelf energy development in the Chukchi and Beaufort Seas, 
Alaska: U.S. Geological Survey Circular 1370 (2011); Coastal Response 
Research Center, Natural Resources Damage Assessment (NRDA) in Arctic 
Waters: The Dialogue Begins, Univ. of New Hampshire (2010). See also 
National Commission at 303 (recognizing that ``scientific research on 
the ecosystems of the Arctic is difficult and expensive. Good 
information exists for only a few species, and even for those, just for 
certain times of the year or in certain areas.'').
---------------------------------------------------------------------------
IV. Conclusion
    Ocean Conservancy recognizes that the United States must continue 
to develop energy sources needed to sustain and promote economic growth 
and support our social needs. But the catastrophe in the Gulf of Mexico 
shows that we must learn to do so in ways that are safe for energy 
workers and that allow us to maintain a healthy environment for this 
and future generations.
                               Attachment
                           Ocean Conservancy

  Principles for Effective Restoration and Criteria for Selecting and 
                      Funding Restoration Projects

Principles for Effective Restoration
    The principles below are intended to guide development of 
restoration decision-making structures, processes, and plans, to 
measure their sufficiency, and to enhance their accountability:
Sound Management

  <bullet> Efficient, transparent, responsive, and accountable to the 
        public;

  <bullet> Active, full participation by relevant Federal entities and 
        all Gulf states, individually and collectively, over time;

  <bullet> A formal and recognized process that engages the public, 
        including broad representation from regional communities and 
        stakeholders;

  <bullet> Commitment by Federal and state partners to incorporate 
        local and traditional knowledge in management decisions;

  <bullet> Coordination between the Natural Resources Damage Assessment 
        and Restoration process (NRDA) conducted in response to the BP 
        oil disaster and the broader restoration planning functions of 
        Gulf Coast Ecosystem Restoration Task Force; and

  <bullet> A comprehensive science-based ecosystem restoration 
        strategy--resting on a clear vision for a healthy Gulf 
        ecosystem--and supplemented by annual work plans, progress 
        reports, and periodic requests for project proposals.
Stable and Coordinated Funding

  <bullet> Coordination of projects from funds allocated from various 
        revenue sources (to ensure that projects are consistent, 
        complementary and not duplicative);

  <bullet> Predictable funding streams, consistent from year to year, 
        and sustained over the long-term;

  <bullet> Funding levels commensurate with the magnitude of the 
        restoration goals; and

  <bullet> Endowment established to permanently support the research 
        and monitoring needed to assess the health of the Gulf, 
        evaluate the efficacy of restoration measures, and facilitate 
        adaptive management.

  <bullet> Funds provided by the parties responsible for the oil 
        disaster under the Oil Pollution Act of 1990, Clean Water Act, 
        and other sources, such as the Migratory Bird Treaty Act and 
        Endangered Species Act; and

  <bullet> Additional funds contributed by the private sector for 
        matching or leveraging restoration funds provided by state and 
        federal governments.
Prudent Project Selection

  <bullet> Established criteria clearly link projects to specific, 
        measurable, feasible objectives;

  <bullet> Projects subject to independent scientific peer review in 
        selection and evaluation processes; and

  <bullet> Projects coordinated and integrated projects within the 
        framework of a comprehensive ecosystem restoration strategy.
Stewardship

  <bullet> Restoration and enhancement of the Gulf of Mexico ecosystem 
        from coastal to open blue-water environments;

  <bullet> Habitat protection and enhancement that provide long-term 
        resiliency and sustainability for coastal communities;

  <bullet> Rehabilitation of degraded natural resources and ecosystem 
        services that provide sustainable economic opportunity and 
        human uses.
Sentinel System for the Future

  <bullet> Monitoring and management systems in place to identify and 
        address lingering injury from BP oil and evaluate effectiveness 
        of restoration projects and make necessary adjustments based on 
        performance in achieving goals; and

  <bullet> Permanent ``take the pulse of the Gulf'' science program to 
        track ecosystem health, identify emerging problems, and 
        facilitate solutions.
Criteria for Selecting and Funding Restoration Projects
    As restoration moves from planning to implementation, there will be 
a myriad of proposals for projects on which to spend restoration funds. 
The ultimate success of these projects--which must be measured by the 
health and resilience of the ecosystem--rests on selection, 
implementation, and evaluation of a series of integrated projects, 
consistent with a Gulf-wide plan, and rigorous application of criteria 
to ensure that only the best and most appropriate projects are funded. 
The restoration program that emerges should take a comprehensive, 
integrated ecosystem approach and should strive for restoration that is 
greater than the sum of individual projects. This is no easy task, and 
criteria can be structured to emphasize different goals and values. The 
criteria described below can be applied at the strategic level, as well 
as at the level of individual projects.
    The following criteria, based in part on those developed and tested 
by the Exxon Valdez Oil Spill Trustee Council, are recommended for 
guiding project selection for Gulf restoration related to injuries or 
losses caused by the BP disaster or long-term environmental 
degradation:

  <bullet> Restoration will contribute to a healthy, productive and 
        biologically diverse coastal and marine ecosystem that supports 
        the services necessary for the people who live or work in the 
        area.

  <bullet> Restoration uses an ecosystem approach based on an 
        understanding of factors that control the populations of 
        species or condition of habitats found in coastal and marine 
        areas.

  <bullet> Priority will be given to restoration projects that 
        facilitate recovery of injured natural resources and lost 
        services by addressing systemic problems facing the ecosystem, 
        including historical degradation.

  <bullet> Priority will be given to restoration of natural resources 
        and ecosystem services that have economic, cultural and 
        subsistence value to people living or working along the Gulf 
        coast and that bring long-term benefit to multiple species.

  <bullet> Possible unintended negative effects on non-target resources 
        and services must be assessed in considering restoration 
        projects.

  <bullet> Competitive, innovative and cost-effective proposals for 
        restoration projects will be encouraged.

  <bullet> Restoration priorities and activities will be re-evaluated 
        as information on the extent and significance of injury to 
        natural resources is obtained from the Natural Resource Damage 
        Assessment and from other scientific sources.

  <bullet> Restoration activities should state a clear, measurable and 
        achievable endpoint.

  <bullet> Priority will be given to activities that involve multi-
        disciplinary, interagency or collaborative partnerships.

  <bullet> Restoration activities will be subject to independent 
        scientific review before approval.

  <bullet> Restoration must include meaningful public participation at 
        all levels--planning, project design, implementation and 
        review.

  <bullet> Restoration must reflect public ownership of the process by 
        timely release and reasonable access to information and data.

  <bullet> Long-term monitoring programs and decision support tools 
        shall be established to assess performance of restoration 
        activities, allow for adaptive management and measure the 
        health of the Gulf ecosystem.

    Senator Begich. Thank you, Mr. Ayers.
    What I'll do--Senator Rubio, I'm going to do 7 minutes on, 
because we're the only two here, so I'll allow you up at 7 
minutes. I'll let you go first, and then I'll finish up.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you. And I'm not sure I'll need the 
full 7 minutes.
    Senator Begich. OK.
    Senator Rubio. But I appreciate that. Thank you for having 
the hearing.
    And, thank you all for being a part of it.
    Commissioner Robinson, it's great to see you. I was in 
northwest Florida last week, and the Small Business Committee 
allowed us to do a field hearing on the spill.
    I have a couple, three separate questions, and I think they 
can all be promptly answered. The first is one the concerns I 
kept hearing, which I guess I had heard before, but was really 
articulated to me in way that maybe I hadn't thought about as 
deeply before, is, there's this real concern in the Gulf region 
that, the spill happened, but that the full impact of it may 
not be known for years, in essence. That people get there, they 
look around, they,--it's good news, you know. There's no oil on 
the sand, and so forth. But, in fact, there's a bunch of oil 
still unaccounted for. It's out there somewhere, and its impact 
may be delayed. And I heard a lot of concern from folks about 
that.
    In particular, their concern was that we were going to set 
up a response process, be it, you know, through the Clean Water 
Act, the fines, that a few years from now, if there is some 
delayed impact, there won't be any funds or mechanism in place 
for that. In essence, there'll be a gap between the response 
this year and the impact that may be felt years down the road.
    I don't know if there's any thoughts on that you will share 
with us. But, it's certainty something that, a line that I'm 
going to be pursuing up here as we move forward on that 
process.
    Senator Begich. Who would like to respond to that?
    Mr. Milito. Absolutely. You can have a chronic undermining 
of the strength of an ecosystem, and then have a dramatic event 
like a hurricane that will reveal it. But, the hurricane only 
comes every 15 years in that area.
    So, absolutely, there can be delayed responses, and they're 
just not obvious to the eye because they're happening--for 
example, on the marsh they're happening below ground, which you 
don't look at.
    Mr. Ayers. I think there's two separate issues that we 
really ought to address, that we learned from the Exxon Valdez. 
And let me say, we were 18 months into it before I realized the 
situation along with our science advisors.
    The first is that it's imperative that as soon as possible 
there is a monitoring observation and research program that's 
established. We did that, but only 18 months after we began the 
program. But, that research monitoring program is still in 
operation in Alaska today, and it's a separate account like the 
one I suggested be set up, which is a full monitoring 
observation research program.
    The second is the issue that you're referring to, Senator, 
and that is, in Alaska there are still places in Prince William 
Sound, in the community around Cordova and Valdez and Chenega, 
and other places where oil is still found. There are still 
storms that churn up those hydrocarbons. And I think that will 
continue to be the case in the Gulf of Mexico for many years to 
come.
    Senator Rubio. My second observation is kind of a new 
issue, and I don't know what perception you'll have about it. 
It's really related specifically, again, to the Gulf. It's, 
Cuba has recently announced that it is going to begin to 
explore off its coast. And from the science that I have been 
shown, a spill in one of those sites would be even more 
catastrophic than what happened, based on the currents and the 
way it would take it. I think they'd only be, like, 40 miles or 
50 miles away from the Florida Keys--so, much closer than even 
what happened with the recent oil spill.
    Are there any recommendations you have about how to deal 
with a foreign drilling operation like that, in terms of what 
we can do? Because ultimately, if there is a spill, say, in a 
Cuban operation, its impact would be fully felt by the entire 
Gulf region--actually, the entire Eastern Seaboard potentially. 
But, there is not a lot we can do about it. It's their 
territorial waters.
    Has any work ever been done on that? Is there a, good 
examples of transnational cooperation? And I'll leave that one 
out there.
    Real quickly, I just want to reaffirm what the commissioner 
said about the Florida based response. We're very proud of our 
emergency response operations in the state. And I hope, moving 
forward, that we have response mechanisms, not just for oil 
spills, but, in general, that recognize that the people on the 
ground who deal on a daily basis with the geography and 
topography of a certain area know a lot better than some--with 
all due respect--you know, well-intentioned scientists far away 
who think they have a better idea. I just wanted to echo that, 
because those were very strong comments, and----
    Mr. Robinson. Senator Rubio, if I could, I would--and thank 
you. And I apologize that we missed you. We wanted to come 
testify but we were doing redistricting, so you know how long 
sometimes that takes.
    But, I think it is important, just what you said. And the 
fact that we need to be at the table, Florida and its 
individual counties need to be at the table if something 
happens regarding response. Clearly, we were 110 miles away in 
Escambia County from the Deepwater Horizon well and it did not 
prevent us from having impacts.
    So, clearly, when it comes to response, I think there is 
something in here that. I've had, I was just in Portland with 
other counties, and there's a lot of comments that, again, in 
some places it worked well, and that is when they engaged the 
locals.
    By the comments we heard from some of Senator Begich's 
constituents in Alaska, there were people from Montana with the 
Yellowstone, there are other places on the Gulf that did not 
have that same experience. If we go ahead and say now that you 
have to include those local governmental authorities so that 
they can engage the process and begin response immediately, I 
think that is going to be important to continuing to help at 
least coordinate that response. Because we are all very 
concerned about what happens if we don't have a responsible 
party.
    Senator Rubio. And as far as the other countries, like, the 
particular issue of Cuba is very concerning. I think Repsol's 
one of the companies. There are some other companies we don't 
know a lot about that are talking about being a part of it. We 
don't know what safety standards they would have.
    My point being, a spill there would have just as disastrous 
an impact, as disastrous, if not more, as the one that already 
occurred, but our ability to influence it is a lot less. Is 
there any thought, is there any model we would follow, is there 
any precedent----
    Mr. Ayers. Mr. Chairman, Senator Rubio, this committee has 
led the way with regard to fisheries and taking major 
standards, or, important standards of this country into the 
international arena, both in terms of action policy, and even 
legislation, and a recent senate joint resolution. And 
certainly, it's my view that that ultimately is what's going to 
have to happen, including with Senator Cantwell's concern over 
shipping, although it is governed by the IMO, the International 
Maritime Organization.
    But, it, the standards for off-shore drilling, it's first 
matter of this country, and I won't repeat my suggestions, but 
those standards are really the beginning of a discussion that 
ought to go into the international arena, and we have done that 
with Fisheries in many ways, from drift nets to bottom 
trawling. And certainly, the State Department and NOAA and the 
Coast Guard have been very involved, and I have worked with 
them.
    Senator Rubio. And I have exhausted my time.
    My only point I would like to raise for further discussion 
at some point--I don't think we have the time to do it today, 
and quite frankly, it wasn't the sole focus of this hearing. 
But, at some point, especially if it's companies that are doing 
business here, in this country, and you are dealing with 
nations that perhaps aren't following the same safety 
standards, I'd like to figure out a way where we can create 
some leverage there, because a spill in one of these places 
would be deeply disastrous as much as anywhere else. And so, I 
hope we'll be able to have those conversations in the future.
    Senator Begich. Thank you very much, Senator Rubio.
    And actually, that is a really good point. As you were 
talking, I was just thinking that many of those same companies 
do business in Federal waters and State waters and Federal 
lands, and you never know if, maybe there's opportunity through 
our lease agreements that we have, what opportunity we have. 
So, it's a good question.
    And Mr. Ayers brought up a good point on fisheries--
especially out of this committee, they have done international 
activities that have created international standards. So, it's 
a good question, it's a good point for later down the road, 
too. Thank you.
    Let me, Mr. Robinson, if I could follow up. Because I think 
your response to Senator Rubio intrigued me because some of the 
work we are doing in Alaska, and let me just ask you--last year 
we had a piece of legislation called the Shore Act that we were 
moving through. It created a Gulf Citizen's Advisory Council 
similar to what we would have, what we have in Prince William 
Sound, what we have in Cooks Inlet, where citizens are engaged. 
They're not regulatory, but they are advisory in early stages 
of prevention and other things, as well as monitoring a lot of 
activities.
    Is that an avenue or something that would be a positive 
step? I know in the legislation we had last year, we had that 
in there, and it seemed like you know, it's always, we do these 
after spills, that is the problem. You know, we always, that is 
why we are advocating one for the Arctic before we develop the 
Arctic----
    Mr. Robinson. And thank you, Mr. Chairman.
    I think it is--I think the National Association of 
Counties, we took a strong advocacy asking all of you and 
Congress to look at, including local governments, and it was, 
while several of us around the Gulf back here were in 
Washington in March, and it was actually a commissioner from 
Alaska who stepped up and said, ``Everything you said was our 
exact experience.'' And clearly, we didn't learn how to engage 
the locals there. So, I think the more you can do that, the 
better.
    I think it's--certainly that is a starting point, but I 
think when the response actually happens, when the problem 
occurs, at some point or another, the local government has to 
be brought in in a better way than we were, just sitting on the 
sidelines. And that was a very difficult process for us to go 
through, seeing things that we knew and we tried to advocate. 
And there are certainly things as I said, I wouldn't know where 
to begin and either the Pacific or the Arctic in Alaska. But, 
surely, I know there are people who are your constituents that 
do know how to do that.
    And I think somewhere or another they need to be engaged in 
the process, certainly, as I said, in planning, as well as 
coordination, communication and implementation.
    Senator Begich. Very good. Thank you.
    Jim, let me ask you a question or two in regards to Clean 
Water penalties and how to utilize them. I know that is going 
to be one of the big issues that we deal with, how do we put 
that money into work?
    I think you heard Senator Rubio talk a little bit about how 
to monitor, and you have indicated and others have indicated 
that. Can you talk, just give me your thoughts? I know the 
legislation, you know, one of the thoughts is try to do an 80-
20 split, 80 percent for the Gulf and some of the things they 
need, and then 20 percent set aside for other activities which 
could include Arctic scientific work and others. But, how would 
you see if there was an 80-20 split, where that 20 percent 
could end up in regards to the rest of the oceans or waterways 
within the United States?
    Mr. Ayers. Certainly. Thank you, Mr. Chairman.
    As we all know, any time we are discussing the distribution 
of funds these days, it's fraught with peril.
    Senator Begich. That is why I'm giving you the question.
    [Laughter.]
    Mr. Ayers. Thank you very much, Mr. Chairman, and I 
appreciate it.
    Senator Begich. I'm here to help.
    Mr. Ayers. As am I. Senator, it's certainly my view that--
and the Ocean Conservancy strongly supports Senator 
Rockefeller's bill and the use of the Clean Water Act penalties 
toward the 80 percent dedicated toward the Gulf, and certainly 
the idea of having a portion of that be used for the long-term 
monitoring and observation and research is in my mind a 
tremendous step forward with regard to a true commitment to 
ensuring the Gulf of Mexico.
    With regard to the balance of funds, I certainly wouldn't 
speak for, or haven't in a long time, except with regard to 
escort tugs, speak for the oil industry. We see eye to eye, I 
think, on escort tug issues in Alaska.
    But, with regard to the use of other funds that are going 
into the Oil Spill Liability and Trust Fund, those funds are, 
originate as a fee, or a tax if you will. Originally, each 
barrel of oil is taxed, and that discussion came up in OPA 
1990, and actually, the State of Alaska has a per barrel fee. 
Those are public resources and they are owned by the public. 
And that discussion went on 20-something years ago. And those 
funds, that fee per barrel, is there for oil spill, various 
liabilities, and is to be used as investments to deal with oil 
spill issues.
    Clean Water Act penalties are, of course a penalty, unlike, 
in my view, the oil spill per barrel tax, which I suggested an 
increase on earlier, to be clear. But, those dollars, in my 
view, ought to, not to go into the Oil Spill and Liability 
Trust Fund, but be used, in fact, for those areas in large 
marine ecosystems where the industry intends to go conduct 
offshore business.
    So, with regard to your question, specifically, my view is 
that 20 percent ought to be used in those areas where the 
industry is excited and proposing to do offshore business, and 
that money ought to be used to, in fact, put in place the kind 
of infrastructures of monitoring and observation and research 
that I'm talking about. And if they are headed to the arctic, 
my view is, some funds, it makes no sense to me at all to 
relieve the Oil Spill Liability and Trust Fund tax because you 
are paying a penalty. And remember, there is a cap on the Oil 
Spill and Liability Trust Fund, so if you put them in there, 
the caps raise, so you actually are giving some money back, so 
you ought to just write the oil companies a check.
    So, my view is you ought to invest those funds, sir, not, 
and deposit in the oil spill trust--and if they are headed to 
the Arctic, we all know that we have a tremendous gap in 
monitoring observation and research, and a tremendous gap in 
response, according to NOAA, and the Coast Guard, who was just 
here.
    Senator Begich. Very good, let me----
    Mr. Ayers. Thanks. Sorry to eat up your----
    Senator Begich. Not a problem.
    Let me ask another quick question, and then Mr. Milito, I 
will have two quick questions for you.
    But, Jim, last question--Citizen's Advisory Council for 
Arctic. Your, has your organization taken a position on that?
    Mr. Ayers. Citizen's Advisory Council for the Arctic, in my 
view--and I'm sure, and my work with the Ocean Conservancy, 
Center and other people that have worked with the Citizen's 
Advisory Committee have found them very helpful.
    They are awkward. It's not easy to involve the public. It's 
not easy to be transparent. But certainly, we support a 
Citizen's Advisory Committee, we think it's very important, 
certainly, we have worked very closely with the North Slope 
Borough, and tribes, and they ought to be at the table in the 
discussion of what is happening in that ecosystem.
    Senator Begich. Very good.
    Mr. Milito, you heard me ask a question earlier to NOAA in 
regards to this kind of new or enhanced relationship between 
NOAA and BOEMRE in regards to decisions or that, you know, the 
process that will go forward in regards to oil and gas leasing, 
and OCS.
    Can you give me, from the industry standpoint, even though 
it's in a new process, how has that been working? Or is it too 
new? What's your thoughts?
    Mr. Milito. I think at this point, it's too new to form an 
opinion on it. I will say that under the Outer Continental 
Shelf Lands Act, there have been opportunities, and it is an 
option for all Federal agencies to be engaged in the process, 
whether it's the 5-year leasing plan, the actual lease, or the 
permitting process. So, this formalizes it to some degree, and 
I think it actually lays out the steps in which NOAA will be 
able to insert itself. But, in talking to the BOEMRE staff, 
even they believe it's too early to comment and provide an 
opinion on that.
    Senator Begich. OK. Can you tell me, you know--and I will 
be very Alaska-centric here for a second in regards to the 
Arctic and the Arctic development--can you give me, from the 
industry standpoint, how, you have heard a lot of the issues 
that are out there, both from industry, or, from independent 
individuals, as well as organizations and senators, of the 
concern they have is we move forward and what kind of 
development may occur there.
    Give me your two bits on, kind of, how you see the industry 
respond to that, which is different than, in a lot of ways, the 
Gulf. They are different environments, different depths, 
different pressure, a variety of other differences, let alone 
the climate. Can you give me some thoughts on that?
    Mr. Milito. Well, we are obviously seeing a very tailored 
planning process for activities in the Arctic. At this point, 
we are really just looking at the Shell model, and Shell is 
going out of its way to not only meet the regulations, but to 
go beyond the regulations in terms of having the vessels and 
the personnel onsite in the event that there would be any type 
of blowout-type incident, and, as well as having the actual 
prevention measures in place for that Arctic environment. So, 
the exploration plan and the permits associated with it, the 
spill response plans, are very tailored and very robust for 
those purposes.
    I think you know, we have seen a lot of hold ups in the 
process, whether it's through the permitting at the BOEMRE 
level or through the EPA, but it looks like we are getting past 
all that and all those questions are being resolved. So, it's 
going to be a matter of looking forward to very select drilling 
that will occur--and we are not talking about punching holes, 
multiple holes in that Arctic environment. We are talking about 
a very isolated number of wells that are being planned, and 
being allowed to move those forward to just explore to see what 
is there. So, you know, we are hopeful that this is going to 
move forward given the tremendous investment that that brings, 
and also the opportunity to maybe help shore up TAPS as an 
ongoing resource for the country and for Alaska.
    So, there's tremendous benefit to it, and we think that we 
have a strong system in place based upon the tailored way that 
this activity is being addressed.
    Senator Begich. And just for those that are listening, TAPS 
is the Trans-Alaska Pipeline----
    Mr. Milito. I apologize.
    Senator Begich.--which, the volume is decreasing rapidly 
every day.
    Last question for the panel, and again, Mr. Milito, if I 
can ask you to follow up on Senator Rubio's concern, and I 
think Senator Nelson's concern, about Cuba, how, the proximity, 
the lack of jurisdiction we have, and more than likely, the 
inability for us to have a government relationship with Cuba 
for many reasons. We are still in for 40 plus years. But, put 
that aside.
    Do you think industry folks, recognizing that as an issue 
and, you know, I don't know the details of it as much as the 
senators from Florida. But recognizing--and let's assume for a 
moment, for this discussion, it is a significant issue of 
concern if there is a spill there. Do you think the industry 
would be proactive in trying to figure out what kind of 
relationship, for example, I'll just use one example that's 
just kind of going through my mind that, for example, if there 
is a company doing offshore development in Cuba, that they 
would allow U.S. inspectors to review those platforms and 
facilities for standards? I'm throwing that out. I'm not asking 
you for a definitive answer. But, to be proactive, rather than 
waiting for something to happen, that, to be very frank with 
you, from someone from an oil and gas state, if something goes 
wrong in Cuba and it comes to Florida, it's going to have a 
ripple effect to the industry throughout the country, in a 
negative way.
    So, do you think there's a proactive opportunity here, 
rather than waiting for something that could happen in the 
wrong direction?
    Mr. Milito. You know, the industry looks at its operations 
internationally, and we've seen all the standards that are 
being, created here, being shared with those in Europe and 
around the world, and vice versa. And even through the 
Department of Interior, we've seen ministerial forms put 
together. We've brought industry folks to participate in those 
4-hour--all the regulators from around the world get together 
to discuss this. And the problem is, you know, very obviously, 
that Cuba's not at the table. We've seen Interior reach out to 
Mexico and have a dialogue with them.
    And the industry fully supports trying to create 
consistency, because it doesn't make sense to go from one 
region to another and operate, not to have different standards 
in place.
    So, I think there could be an opportunity there. I can't 
give you a definitive answer, but it would make sense, given 
that, those companies operating in Cuba, many of which are 
operating in the Gulf of Mexico. So, that might be a good 
opportunity to try to make sure we have consistency, and 
perhaps, ways to make sure that the capabilities that the U.S. 
has in the Gulf can be deployed to assist in those types of 
responses.
    Senator Begich. Would you mind discussing with your 
association maybe a formal response to that question? You can 
address it to the Committee, and we'll all share it with the 
Senators from Florida. But, I, the thought would be, what is 
the proactive role here that we should be taking from our end, 
but also from, then, the industry's end prior to those kind of 
developments occurring, that we will--You know, Cuba will not 
come to the table. That's a----
    Mr. Milito. Right.
    Senator Begich.--guarantee at this point. And so, what do 
we do to ensure that we have the best standards, even though 
maybe Cuba doesn't have those standards. But, how do we ensure 
the companies that do business there have the best standards, 
so if there's an impact it's, you know, we're prepared for it. 
Would that be acceptable to you, to ask your association for 
kind of a formal response to that?
    Mr. Milito. Yes, we'll go back and run that through.
    [The information referred to follows:]

                                                     August 3, 2011
Hon. Mark Begich, Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Honorable Chairman Begich,

    On July 20, 2011, I had the privilege of testifying before the 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard during 
the hearing entitled, ``Looking to the Future: Lessons in Prevention, 
Response and Restoration from the Gulf Oil Spill.'' During the hearing, 
you requested that API provide a response to the following question:

  <bullet> Please provide a response to the Committee on the ability of 
        the U.S. oil and gas industry to assist companies operating in 
        Cuban waters in the prevention of, or response to, a potential 
        oil spill from offshore drilling operations.

    We respectfully provide the following response to the Subcommittee:
    Unfortunately, due to the laws in place related to U.S. entities 
doing business with Cuba, the U.S. oil and gas industry is restricted 
in its ability to assist Cuban operators in prevention and response 
activities. Effective spill prevention and management requires: (1) 
prevention by incorporating industry best safety practices and 
proactive planning, (2) immediate response plans for capping and 
containment, including purchasing and setting aside any equipment which 
could be necessary and making plans for emergency delivery, and (3) 
long-term response plans for oil cleanup. Current U.S. sanctions 
prohibit U.S. firms from entering into agreements with contractors 
operating in Cuban waters for safety assistance on drilling projects.
    Additionally, capping and containment requires manufacturing and 
setting aside equipment sufficient for an immediate emergency response 
to a particular offshore project. U.S. firms would not be permitted to 
do this at this time. Finally, in the event of a spill, U.S. firms 
would not likely be able to engage in spill cleanup in Cuban waters, 
since such activity would require cooperation with the drilling 
contractor operating in Cuban waters, as well as individual Cubans. 
Current sanctions law does include an exception under which the U.S. 
Department of the Treasury is permitted to issue a specific license to 
firms requesting to do business with Cuban entities. However, this 
exception is rarely utilized and there are significant contractual and 
liability issues associated with seeking a license to engage in 
contracts with Cuban offshore operators.
    Despite the restrictions in place under U.S. sanctions law, the 
U.S. oil and gas industry works constantly and diligently to create and 
maintain standardization of operations on a global basis. Offshore 
operators, drilling contractors, and service/supply companies are 
active internationally, and both safety and business concerns continue 
to drive the industry to achieve consistency throughout the world. API, 
the International Association of Drilling Contractors (IADC), the 
International Organization for Standardization (ISO), the International 
Oil and Gas Producers Association (OGP), and the International 
Petroleum Industry Environmental Conservation Association (IPIECA) all 
work individually and in coordination with each other and other groups 
to create global consistency in oil and gas operations.
    Beginning with its first standard in 1924, API now maintains over 
600 standards covering all segments of the oil and natural gas 
industry. API produces standards, recommended practices, 
specifications, codes and technical publications that cover all parts 
of the industry and its standards program is accredited by the American 
National Standards Institute. To provide just a few examples, for 
offshore exploration and production, API publications cover offshore 
structures and floating production systems, tubular goods (i.e., 
casing, drill pipe), cementing practices, subsurface safety valves and 
wellhead equipment, and blowout preventers. Many API standards are 
being used by ISO as the basis for international standards. API is 
directly responsible for the administration of three major ISO 
subcommittees responsible for developing ISO oil and gas standards. Due 
to API's involvement in these committees, approximately 70 percent of 
all ISO exploration and production standards are based on API 
standards.
    Currently, API is developing Recommended Practice 96, which will 
help improve deepwater well design and installation practices, and 
Bulletin 97, a joint effort with IADC, intended to help link the safety 
system of the drilling contractor with the safety system of the lease 
operator. API is also updating its standard 53 on blowout preventers. 
API staff and members of the standards committees coordinate these 
efforts with OGP so that we are integrating efforts on an international 
basis. Furthermore, in addition to some 100 API standards incorporated 
in the U.S. Code of Federal Regulations, API standards are the most 
widely cited standards by international regulators. A recent study by 
OGP on the use of standards by international regulators found, through 
14 oil producing regions, that ``API standards are dominating, with 225 
references.''
    In addition to international standardization, the industry has a 
strong global program in place to ensure quality in the design and 
manufacture of industry equipment and materials. API publishes dozens 
of specifications that standardize the requirements for the design and 
manufacture of equipment, and API's Monogram Program provides a system 
for the manufacturers of this equipment to obtain a certification, or 
``monogram,'' of quality assurance. In order to receive the monogram, a 
manufacturer must have an approved quality management system in place 
and must demonstrate the continued ability to meet the technical 
requirements identified in the applicable API product specification(s). 
API's Monogram Program is worldwide, with nearly 4000 certified 
manufacturers in 76 countries. Eighty percent of the monograms are 
issued outside of the U.S. Purchasers of industry equipment around the 
globe rely upon the program in the purchase of high-quality, reliable 
equipment.
    With regard to spill response, the U.S. oil and gas industry relies 
upon the utilization of the resources and capabilities of Oil Spill 
Response Organizations, or OSROs, in order to effectively respond to an 
offshore spill. OSROs are active around the world, including in the 
Latin American region. In addition, oil spill response research is 
coordinated closely through the various organizations identified above, 
so that the underlying data and the associate capabilities to respond 
are understood and developed with consistency around the world. For 
example, API has initiated a review of such issues such as dispersant 
use, in-situ burning, and mechanical recovery. This review effort 
involves both U.S. and international stakeholders, and we are 
coordinating closely with the international oil and gas organizations. 
Furthermore, both OGP and IPIECA are very active in addressing issues 
related to spill response at the international level.
    In conclusion, while the U.S. oil and gas industry remains limited 
in its ability to assist companies operating in Cuban waters due to 
current sanctions laws, the industry has been committed to enhancing 
operations around the world through international standardization, 
research, coordination, and information sharing.
    Please feel free to contact API should you have any further 
questions. We greatly appreciated the opportunity to appear before you 
and the subcommittee on this critical topic, and the industry remains 
steadfast in its commitment to operate safely and in an environmentally 
responsible manner.
            Sincerely,
                                                Erik Milito

    Senator Begich. Great. Thank you very much.
    Let me thank the panel in total. Again, thank you very 
much. And, again, there are some additional questions that 
members have already submitted that you'll see, and I hope you 
can respond to those.
    Let me just check with staff and make sure I have to do 
anything official here. The record will be kept open for the 
next 2 weeks for additional questions that will be submitted, 
and then responded to.
    Again, thank you all for participating.
    At this time the hearing is adjourned.
    [Whereupon, at 4:33 p.m. the hearing was adjourned.]
                            A P P E N D I X

 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                                  to 
                            David M. Kennedy
    Question. The Department of Justice, working with NRDA Trustees, 
secured an agreement from BP to provide the early release of $1 billion 
in funding toward restoration projects in the Gulf of Mexico. While 
that initial step was commendable, most experts agree that restoration 
from the spill will take many years, and that there is a need for long-
term monitoring and assessment. Questions remain about how best to 
establish the needed sideboards that will guide the restoration effort 
in the years to come. Mr. Kennedy, as you're aware, this Committee has 
sought to advance the SHORE Act, legislation that would provide 
agencies, coastal states, and stakeholders with the resources needed to 
better prevent spills in the future, and to ensure the long-term 
restoration of the Gulf. We are currently working to update that 
legislation. What advice do you have for the Committee as we seek to 
update the legislation to help guide the long-term Gulf restoration 
effort?
    Answer. While we support many of the provisions in subtitle A, the 
Administration requires greater flexibility in supporting new programs 
and additional activities in light of its fiscal constraints. In 
addition, some of the provisions appear to create inconsistencies in 
the treatment of agencies under the Oil Pollution Act of 1990 and 
others could hamper efficient and effective implementation of the law.
    In October 2011, the Gulf Coast Ecosystem Restoration Task Force, 
established by Presidential Executive Order 13554 on October 5, 2010, 
is to release a Preliminary Gulf of Mexico Regional Ecosystem 
Restoration Strategy (Preliminary Strategy). This Preliminary Strategy 
will outline Gulf Coast ecosystem restoration agenda, including goals 
for ecosystem restoration. The Preliminary Strategy is to identify 
monitoring, research, and scientific assessments needed to support 
decisionmaking for ecosystem restoration efforts and evaluate existing 
monitoring programs and gaps in current data collection. Given the 
focus of the Task Force, the Preliminary Strategy may include 
recommendations that the Senate Commerce Committee may wish to include 
in a revamped SHORE Act.
    In addition, as the Committee updates the legislation, NOAA 
suggests visiting the recommendations from the President's National 
Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling 
report and recommendations released January 11, 2011 (http://
www.oilspillcommission.gov/final-report). Many of the recommendations 
relevant to NOAA were included in the SHORE Act. The Commission was 
charged with determining the causes of the disaster, and providing 
recommendations to improve the country's ability to respond to spills, 
and reforms to make offshore energy production safer.
    NOAA appreciates the opportunity to work with Congress on the 
legislation as it moves forward in the 112th Congress.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                            David M. Kennedy
    Question. The Outer Continental Shelf lands Act (OCSLA) has a 
provision directing the Department of Interior to utilize NOAA science 
to support decisionmaking and even authorizes NOAA to bill them. Since 
Deepwater Horizon, NOAA and BOEMRE have established a Memorandum of 
Understanding (MOU) to better facilitate coordination and collaboration 
between the agencies to ensure that decisionmaking relating to outer 
continental shelf energy resources is based on updated science and the 
expertise of both agencies. NOAA has in the past cited capacity 
limitations as a primary impediment to the ability to provide relevant 
scientific input to the Department of Interior. Since the MOU was 
established, has the Department of Interior utilized its existing 
authority under OCSLA to fund any of NOAA's scientific efforts in 
support of improving offshore energy decisionmaking?
    Answer. Since the signing of the Memorandum of Understanding, on 
May 19, 2011, NOAA has not entered into any new financial agreements 
with BOEMRE for its implementation. However, NOAA and BOEMRE have 
collaborated on the scientific review of multiple BOEMRE documents 
since May, including National Environmental Policy Act (NEPA) documents 
and an analysis of the potential impacts of a very large oil spill in 
the Arctic.
    NOAA has historically received funding for specific research 
projects, many of which are ongoing, relevant to offshore oil and gas 
activities through the BOEMRE Environmental Studies Program. For 
example, NMFS has been working productively with BOEMRE/MMS in the 
Alaska region on science relevant to living marine resources, including 
several successful scientific projects addressing high priority 
research topics. A large portion of the research supported by BOEMRE in 
recent years in Alaska has been focused on research topics of highest 
priority to BOEMRE, including improved information on marine mammal 
distribution and movements in lease sale areas. In addition to ongoing 
studies, NMFS has identified numerous data gaps that are critical to 
NMFS managers that would complement and strengthen the information 
produced by current and past environmental studies.
    NOAA looks forward to continuing to work with BOEMRE under the MOU 
to ensure that high priority needs of mutual concern to both agencies 
will be addressed.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                             to Erik Milito
    Question 1. Going forward, do you think we need greater 
consultation and coordination between agencies like BOEMRE and NOAA on 
OCS decision-making, particularly as it relates to identifying areas 
that should be excluded from lease sales due to their high ecological 
importance and sensitivity?
    Answer. NOAA, the Coast Guard and other agencies have been very 
active in the planning and leasing processes for offshore oil and gas 
development and have played a significant role in this process. In 
fact, BOEMRE relies largely upon data produced and provided by NOAA in 
completing its analysis of the environmental sensitivities of the 
various planning areas, which is a statutory requirement in the 
planning process.
    The interagency consultation and coordination that exists between 
Federal agencies is a result of the existing regulatory framework 
implemented pursuant to the Outer Continental Shelf Lands Act (OCSLA). 
The OCSLA provides multiple opportunities for engagement among BOEMRE, 
other Federal agencies, and state/local governments so that 
environmental, ecological and socioeconomic issues are effectively 
considered and addressed.
    With regard to the development of a proposed leasing program (Five-
Year Program), Section 18 of the OCSLA states ``the Secretary shall 
invite and consider suggestions for such program from any interested 
Federal agency, including the Attorney General, in consultation with 
the Federal Trade Commission, and from the Governor of any State which 
may become an affected State under such proposed program.'' Section 18 
further states, ``The heads of all Federal departments and agencies 
shall provide the Secretary [of the Department of the Interior] with 
any nonprivileged or nonproprietary information he requests to assist 
him in preparing the leasing program and may provide the Secretary with 
any privileged or proprietary information he requests to assist him in 
preparing the leasing program. . . . In addition, the Secretary shall 
utilize the existing capabilities and resources of such Federal 
departments and agencies by appropriate agreement.'' (emphasis added)
    But the requirement to consult and coordinate with other agencies 
is much broader than the Five-Year Program. Section 5 of the OCSLA 
quite simply states, ``[i]n the enforcement of safety, environmental, 
and conservation laws and regulations, the Secretary shall cooperate 
with the relevant departments and agencies of the Federal Government 
and of the affected States.'' (emphasis added)
    Thus, based upon the plain language of the OCSLA, the existing 
framework provides for, and in many cases mandates, opportunities for 
interagency engagement. To that end, NOAA and other agencies have 
consistently participated in the process, by providing important 
information for consideration, by providing comments to BOEMRE and by 
coordinating key decisions with BOEMRE. A review of the 2007-2012 
Proposed Final OCS Leasing Program, the Revised 2007-2012 Final OCS 
Leasing Program, the 2007-2012 Multi-Sale Gulf of Mexico Final 
Environmental Impact Statement, Final Environmental Impact Statement 
for Chukchi Lease Sale 193, and the recently completed Final 
Environmental Impact Statement for Gulf of Mexico Lease Sale 218 in the 
Western Planning Area demonstrate that NOAA and other Federal agencies 
are very involved in the consultation and coordination with BOEMRE on 
OCS decisionmaking.
    In conclusion, the existing framework provides many levels for 
decisionmaking and for environmental analysis and consideration, 
including the development of the Five Year Program, the lease sale 
process, exploration plan approval, and permit approval. There are 27 
statutory authorities that apply to OCS oil and gas operations and 88 
Code of Federal Regulations parts implementing these statutory 
authorities, and there are 24 significant approvals and permits 
applicable to OCS oil and gas operations. This system provides an 
effective means of balancing the expeditious and orderly development of 
the OCS with environmental protection and national security.

    Question 2. How does industry think we can best balance encouraging 
offshore development while at the same time taking potential 
environmental impacts into account?
    Answer. As discussed in the response to question (1) above, there 
is a robust, multi-phase approach in place that allows the government 
to effectively encourage offshore development while taking potential 
environmental impacts into account. Environmental review occurs during 
the development of the Five-Year Program, during the completion of 
multi-sale environmental impact statements, during the completion of 
NEPA documentation for individual lease sales, and during the 
completion of NEPA documentation for exploration and development and 
production plans.
    As mentioned above, the OCSLA provides a comprehensive system for 
planning for and conducting oil and natural gas development on the 
Outer Continental Shelf. Pursuant to Section 18 of the OCSLA, the OCS 
oil and gas leasing program is developed in several stages, with 
requirements for collaboration, consultation, and coordination with 
Federal, state and local governments. In addition, the various stages 
provide significant opportunities for public comment so that the 
viewpoints of all stakeholders can be adequately considered.
    Furthermore, the requirements for preparing an oil and gas leasing 
program under the OCSLA ensure that consideration is given to ecosystem 
management. Section 18 of the OCSLA requires that the program be 
prepared consistent with the following:

        (1) Management of the outer Continental Shelf shall be 
        conducted in a manner which considers economic, social, and 
        environmental values of the renewable and nonrenewable 
        resources contained in the outer Continental Shelf, and the 
        potential impact of oil and gas exploration on other resource 
        values of the outer Continental Shelf and the marine, coastal, 
        and human environments.

        (2) Timing and location of exploration, development and 
        production of oil and gas among the oil- and gas-bearing 
        physiographic regions of the outer Continental Shelf shall be 
        based on a consideration of----

                (A) existing information concerning the geographical, 
                geological, and ecological characteristics of such 
                regions;

                (B) an equitable sharing of developmental benefits and 
                environmental risks among the various regions;

                (C) the location of such regions with respect to, and 
                the relative needs of, regional and national energy 
                markets;

                (D) the location of such regions with respect to other 
                uses of the sea and seabed, including fisheries, 
                navigation, existing or proposed sealanes, potential 
                sites of deepwater ports, and other anticipated uses of 
                the resources and space of the outer Continental Shelf;

                (E) the interest of potential oil and gas producers in 
                the development of oil and gas resources as indicated 
                by exploration or nomination;

                (F) laws, goals, and policies of affected States which 
                have been specifically identified by the Governors of 
                such States as relevant matters for the Secretary's 
                consideration;

                (G) the relative environmental sensitivity and marine 
                productivity of different areas of the outer 
                Continental Shelf; and

                (H) relevant environmental and predictive information 
                for different areas of the outer Continental Shelf.

        (3) The Secretary shall select the timing and location of 
        leasing, to the maximum extent practicable, so as to obtain a 
        proper balance between the potential for environmental damage, 
        the potential for the discovery of oil and gas, and the 
        potential for adverse impact on the coastal zone.

    Furthermore, various other statutes and regulations apply to 
offshore activities, including, among others, the Coastal Zone 
Management Act, the Marine Mammal Protection Act, the Endangered 
Species Act, the Clean Water Act, the Clean Air Act, the Marine 
Protection, Research and Sanctuaries Act, the Comprehensive 
Environmental Response, Compensation and Liability Act, the Resource 
Conservation and Recovery Act, and the Migratory Bird Treaty Act. We 
therefore believe that we currently have an effective statutory 
framework in place to effectively encourage offshore development while 
at the same time taking potential environmental impacts into account. 
However, we do remain concerned that decisions that have been made 
during the regulatory process could have the impact of discouraging 
domestic offshore development and thus dampen prospects for domestic 
job creation and government revenues in the billions of dollars. 
Enclosed are two studies that demonstrate the impacts of slow 
government permitting in offshore oil and gas projects. Also attached 
is a study that demonstrates that more than 500,000 jobs and $190 
billion in Federal revenues could be created if the government allowed 
access to additional Federal lands that have been kept off-limits to 
development, including offshore lands.
    [To view ``Restarting ``the Engine''--Securing American Jobs, 
Investment, and Energy Security'' go to: http://
www.gulfeconomicsurvival.org/phx-content/assets/files/
IHS_Report_Restarting_the_Engine_21July11_FINAL.pdf].
    [To view ``United States Gulf of Mexico Oil and Natural Gas 
Industry Economic Impact Analysis'' go to: http://www.noia.org/website/
staticdownload.asp?id=457
98].
    [To view ``Energy Policy at a Crossroads: An Assessment of the 
Impacts of Increased Access versus Higher Taxes on U.S. Oil and Natural 
Gas Production, Government Revenue, and Employment'' go to: http://
www.api.org/Newsrooom/upload/SOAE_Wood_Mackenzie_Access_vs_Taxes.pdf].
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                      Rear Admiral Paul F. Zukunft
    Question 1. If a Deepwater Horizon-like explosion and subsequent 
spill happened tomorrow, what if anything would the Coast Guard do 
differently?
    Answer. The Deepwater Horizon oil spill was the first event in U.S. 
history to be declared a Spill of National Significance (SONS) and the 
first in which a National Incident Commander (NIC) was designated. 
Despite the unprecedented scope of the disaster, many aspects of the 
response worked very well.
    The National Contingency Plan (NCP) served the Nation well and 
proved effective during the Deepwater Horizon response. The NCP 
provided a sound framework that facilitated the discretion and freedom 
of action required to address contingencies that arose during the 
response.
    Although the NIC's role and function evolved through the course of 
the response, the NIC proved to be an effective command organization 
that served its intended purpose to promote unity of effort across the 
whole-of-government.
    After several near mishaps in the airspace above the oil spill 
response, the NIC, in coordination with U.S. Northern Command and the 
U.S. Air Force, established the Aviation Coordination Center (ACC) at 
Tyndall Air Force Base in Florida to establish command and control over 
the airspace. The ACC helped prevent midair collisions, improved 
situational awareness, validated oil trajectory monitoring, tracked 
skimmers and vessels of opportunity, and directed boom deployment to 
where it was most needed.
    As discussed below, the Coast guard has reviewed and analyzed the 
various Deepwater Horizon reports to identify lessons for preparedness 
improvements and develop national implementation strategies. The Coast 
guard has also implemented numerous initiatives on the lessons learned.

    Question 2. As we approach the one-year anniversary of the capping 
of the Deepwater Horizon well, what are some of the biggest lessons the 
Coast Guard has learned from that historic response?
    Answer. The Coast Guard has gathered a large body of observations, 
perspectives, and opinions regarding the response to the Deepwater 
Horizon oil spill from its internal work to identify strategic lessons 
impacting contingency preparedness, as well as from various other 
Deepwater Horizon reports, such as the President's National Commission 
on the BP Deepwater Horizon Oil Spill and Offshore Drilling's findings, 
the National Incident Commander's (NIC) Report, the Joint Investigation 
Team (JIT) report, and the Incident Specific Performance Review. The 
Coast Guard has reviewed and analyzed this body of work to identify 
lessons for preparedness improvement and to develop appropriate 
national implementation strategies. We are also working with other U.S. 
Government agencies to share lessons learned from Deepwater Horizon 
with our international partners through appropriate bodies such as the 
International Maritime Organization, Arctic Council and others. These 
lessons are currently under review by the Coast Guard for 
prioritization and initiation of the recommended corrective actions.
    The lessons learned from the Deepwater Horizon oil spill emphasized 
the importance of updated and comprehensive Regional Contingency Plans 
(RCPs) and Area Contingency Plans (ACPs) around the Nation. The Coast 
Guard, as the Federal On-Scene Coordinator for oil spills in the 
coastal zone, is ensuring the Worst Case Discharge (WCD) planning 
scenarios are accurate and reflect all potential sources for oil 
spills, including offshore facilities. The Coast Guard and the Bureau 
of Ocean Energy Management and Regulatory Enforcement (BOEMRE) have 
formed a joint Response Work Group to improve interagency partnerships 
and collaboratively work on improving preparedness efforts in several 
areas post-Deepwater Horizon. Significant work group initiatives 
include joint Oil Spill Response Plan (OSRP) Review, RCP and ACP WCD 
Gap Analysis, and joint BOEMRE/Coast Guard pollution equipment 
compliance inspections. The Coast Guard and BOEMRE have conducted a 
joint review of OSRPs in BOEMRE's U.S. Outer Continental Shelf (OCS) 
Gulf of Mexico, Pacific, and Alaska regions. This review, which 
included Coast Guard participants from each region, identified the most 
accurate and up-to-date WCD information for offshore facilities. In 
addition to the OSRP review, a comprehensive analysis of RCPs and ACPs 
was conducted to identify significant WCD preparedness gaps. The Coast 
Guard directed Area Committees to address these gaps and ensure WCD 
planning scenarios in all oil spill contingency plans reflect WCD 
information identified during the joint OSRP review. As mentioned in 
several key Deepwater Horizon lessons learned reports, the Coast Guard 
identified the need for Area Committees to encourage more participation 
from state and local officials in oil spill planning and preparedness 
efforts. The Coast Guard also re-emphasized existing guidance for 
District and Sector Commanders to develop aggressive outreach programs 
with state, parish, county, and other local officials.
    Additionally, the Deepwater Horizon incident and others have 
prompted the Coast Guard to review all operations and systems under its 
responsibility for potential improvements to both regulations and the 
inspection regime of foreign-flagged Mobile Offshore Drilling Units 
(MODU) on the U.S. OCS. Prior to the casualty, we were already pursuing 
improvements to our offshore inspection capability through our marine 
safety improvement program. We recently increased our inspection 
efforts and established an Offshore National Center of Expertise that 
greatly enhances inspector competency. Following the casualty we 
implemented further improvements and are pursuing more. All MODUs 
operating in the United States are subject to annual examinations to 
verify compliance with area laws and international conventions. If that 
exam finds ``questionable equipment, systems, or crew competency 
issues'' the Coast Guard can expand its investigation to determine 
whether a deficiency exists and may require additional tests, 
inspections, or crew drills in MODUs which will result in more frequent 
examinations of the highest risk MODUs based on accident history, past 
discrepancies, flag state performance, and classification society 
performance.
    Marine inspectors will focus on critical systems representing the 
most risk, such as dynamic positioning systems and operator competency. 
Additionally, we are actively engaged in oversight of the rapidly 
developing well spill containment capability (Marine Well Containment 
System and Helix Well Control Group) to promote rigorous testing to 
ensure these response vessels are capable of responding to a deepwater 
well spill and meet applicable safety and environmental requirements. 
We recently established an OCS Activities Matrix Team to leverage 
expertise throughout the Coast Guard including various headquarters 
offices, the Marine Safety Center, the Eighth Coast Guard District in 
New Orleans, LA, and the OCS Center of Expertise. This team will 
maintain attention on emerging OCS issues and enhance the Coast Guard's 
ability to address them, increase our plan review and inspection 
oversight, support investigations and casualty analysis, and provide a 
holistic approach to management of OCS safety programs.

    Question 3. What did we get right and what could we have done 
better?
    Answer. The Deepwater Horizon oil spill was the first event in U.S. 
history to be declared a Spill of National Significance (SONS) and the 
first to designate a National Incident Commander (NIC). Despite the 
unprecedented scope of the disaster, many aspects of the response 
worked very well.
    The National Contingency Plan (NCP) served the Nation well and 
proved effective during the Deepwater Horizon response. The NCP 
provided a sound framework that allowed for the needed discretion and 
freedom of action to address contingencies that arose during the 
response.
    Although the NIC's role and function evolved through the course of 
the response, the NIC proved to be an effective command organization 
that served its intended purpose to promote unity of effort across the 
whole-of-government. This whole-of-government approach was highlighted 
when we also created a supporting plan with the Federal Emergency 
Management Agency's (FEMA) Deepwater Integrated Services Team (DIST), 
comprised of officials from different offices within Department of 
Homeland Security, Department of Health and Human Services, the 
Department of Labor, and the Department of Justice. This supporting 
plan provided a coordinated strategy to fill identified gaps in 
providing affected individual and small businesses benefits and 
assistance. In short, we attempted to meet the human needs of the oil 
spill through several strategies, one of which included a plan to 
ensure equal access to public information through language assistance 
for limited English proficient populations, and documents in alternate 
formats for those with disabilities or functional needs.
    After several near mishaps in the airspace above the oil spill 
response, the NIC, in coordination with U.S. Northern Command and the 
U.S. Air Force, established the Aviation Coordination Center (ACC) at 
Tyndall Air Force Base in Florida to establish command and control over 
the airspace. The ACC helped prevent midair collisions, improved 
situational awareness, validated oil trajectory monitoring, tracked 
skimmers and vessels of opportunity, and directed boom deployment to 
where it was most needed.
    The Coast Guard is also conducting a review of the President's 
National Commission on the BP Deepwater Horizon Oil Spill and Offshore 
Drilling's findings, the NIC's Report, Incident Specific Preparedness 
Review along with the other Deepwater Horizon reports that provide a 
body of observations, perspectives, and opinions. The Coast Guard is 
carefully reviewing these reports to identify areas of positive and 
effective preparedness improvements to develop effective and 
appropriate national implementation strategies. The Coast Guard has 
already taken several actions to address areas where planning and 
preparedness will be improved, including: directing Captains of the 
Port to review Oil Spill Response Plans for offshore facilities; 
requiring Area Committees to include Worst Case Discharge scenarios for 
offshore facilities in their respective Area Contingency Plans; 
increasing State and local outreach and participation in Area Committee 
meetings and activities; participating in a Coast Guard, Federal 
Emergency Management Agency, and Environmental Protection Agency 
workgroup to develop recommendations to harmonize the National 
Contingency Plan and National Response Framework governance constructs. 
Additionally on July 7, 2011, the Coast Guard issued a Federal Register 
Notice announcing an updated policy employing risk based targeting to 
prioritize inspections of foreign-flagged Mobile Offshore Drilling 
Units operating on the Outer Continental Shelf.

    Question 4. The Coast Guard's Incident Specific Preparedness Review 
(ISPR) acknowledged there was confusion among the state and local 
emergency managers between the National Contingency Plan (NCP) top-down 
construct set forth in OPA-90, and the National Response Framework 
(NRF) bottom-up construct used for Stafford Act responses such as 
hurricanes, floods, and earthquakes. Many local government officials 
suggest OPA-90 failed to provide an adequate response to the oil spill. 
Many local officials believe that this response should have been a 
Stafford Act response and that OPA-90 and the NCP hindered the local 
response effort. I understand that the Coast Guard developed policy in 
2009 addressing the connectivity of the NCP and the NRF, yet there is 
little to show that it was effective. Can you describe the Coast 
Guard's efforts in connecting the NCP with the NRF?
    Answer. The policy, Commandant Instruction 16000.22--Coast Guard 
Connectivity to the National Response Framework (NRF), dated November 
09, 2009, describes Coast Guard support and coordination with Federal 
Emergency Management Agency (FEMA) and the States during a Stafford Act 
funded event under the NRF. This policy is not an instruction on the 
alignment between the NRF and the National Contingency Plan (NCP).
    The Coast Guard is actively engaged with FEMA, Environmental 
Protection Agency (EPA), and other interagency partners including 
State, local, and private sector experts to better align the NCP and 
NRF based on statutory requirements, Homeland Security Presidential 
Directive--5, and Presidential Policy Directive--8 (PPD-8). The Coast 
Guard accompanied with other workgroup partners is developing change 
recommendations to better align the NCP and NRF as part of the revision 
to the NRF required by PPD-8.

    Question 5. How should the Coast Guard improve local involvement in 
preparedness activities and familiarity of oil spill response 
processes?
    Answer. As the designated Federal On-Scene Coordinator under the 
National Oil and Hazardous Substance Contingency Plan (NCP) in the 
coastal zone, the local Coast Guard Captain of the Port (COTP) is 
responsible for coordinating local preparedness and response activities 
for their respective coastal zone. These responsibilities include 
overseeing the development of the Area Contingency Plan and organizing 
the Area Committee whose membership is comprised of stakeholders from 
other Federal agencies as well as state, local, tribal and industry 
representatives.
    As mentioned in several key Deepwater Horizon lessons learned 
reports, the Coast Guard has identified the need for Area Committees to 
encourage more participation from state & local officials in oil spill 
planning and preparedness efforts. The Coast Guard has placed a 
reemphasis on its past guidance for District and Sector Commanders to 
develop aggressive outreach programs with States, Parishes, and County 
officials. The Coast Guard's 2011 Strategic Planning Direction directs 
Coast Guard COTPs to conduct outreach on the NCP with a focus on 
engaging both environmental and emergency departments at the state and 
local level. The Coast Guard will continue to encourage more 
participation from state & local officials in oil spill planning and 
preparedness efforts in the form of participation in industry and 
government led drills and exercises as well as Area Committee sponsored 
training and workshops in oil spill preparedness and response.
    The Coast Guard is also updating its national policy guidance to 
address major contingency plan gaps identified in Deepwater Horizon 
lessons learned reports for the identification and protection of 
environmentally sensitive areas, development of oil spill protection 
strategies, Area Committee outreach and coordination, and many other 
areas of improvement.
    Additionally, the Coast Guard co-leads an NCP/National Response 
Framework Alignment Work Group that focuses on ensuring NCP alignment 
language as provided in the Presidential Policy Directive -8 driven 
rewrite of the National Response Framework. This will include having 
both state environmental and emergency management contributors.

    Question 6. Reports suggest the Area Contingency Plans in the Gulf 
of Mexico were inadequate for an incident of this magnitude. The oil 
response plans were not linked to the local Area Contingency Plans and 
a worst case discharge scenario was not contemplated. Local officials 
did not participate in the Area Contingency Plan development. There was 
also a consistent lack of identifying and prioritizing environmentally 
sensitive areas, economically important areas, and the development of 
protective strategies for these areas. Can you describe some of the 
changes the Coast Guard is making to Area Contingency Plans as a result 
of the spill?
    Answer. The Coast Guard and Bureau of Ocean Energy Management, 
Regulation, and Enforcement (BOEMRE) conducted a comprehensive joint 
analysis of Regional Contingency Plans and Area Contingency Plans (ACP) 
to identify significant worst case discharge (WCD) preparedness gaps. 
Some of the critical Worst Case Discharge (WCD) gaps include: Missing 
or incomplete planning assumptions and scenarios, adequacy of WCD oil 
spill response resources, adequacy of WCD protection & recovery 
strategies, and adequacy of WCD dispersant use, in-situ burning, and 
subsea containment strategies.
    As a result of this joint analysis, the Coast Guard is preparing 
detailed WCD process guidance on how to immediately address these gaps 
in Area Contingency Plans. As part of the Coast Guard's FY 2012 
Strategic Planning Direction (SPD), the Coast Guard has directed its 
field commanders to ensure WCD planning scenarios in all oil spill 
contingency plans reflect WCD planning information identified during 
the joint Oil Spill Response Plan review. This SPD also directs Coast 
Guard field units to conduct outreach on the NCP with a focus on 
engaging both environmental and emergency departments at the state 
level. The Coast Guard will continue to encourage its field commanders 
to ensure more participation from state & local officials in oil spill 
planning and preparedness efforts.
    The Coast Guard is also updating its national ACP policy guidance 
to address major contingency plan gaps identified in joint analysis as 
well as several Deepwater Horizon lessons learned reports. Priorities 
for improvements in Coast Guard ACP guidance include: Area Committee 
outreach and coordination, identification and prioritization of 
environmentally and economically significant areas, and development of 
protection strategies.

    Question 7. What kind of guidance should the Coast Guard provide to 
ensure that critical components of the Area Contingency Plan are 
incorporated nationwide? Is this already taking place?
    Answer. The Coast Guard publishes internal policy guidance on 
development and implementation of Area Contingency Plans. The Coast 
Guard is updating its national policy guidance to address contingency 
plan gaps identified in Deepwater Horizon lessons learned reports, 
including: identification and protection of environmentally and 
economically significant areas, development of oil spill protection 
strategies, improving state and local participation in oil spill 
planning efforts, and many other areas of improvement. This guidance 
will also stress the importance of Environmentally Sensitive Index 
(ESI) maps, which are produced by National Oceanic and Atmospheric 
Administration, during oil spill planning and response in making 
informed operational decisions to protect sensitive shoreline and 
habitat.
    To date, the Coast Guard and Bureau of Ocean Energy Management, 
Regulation, and Enforcement (BOEMRE) conducted a comprehensive analysis 
of Regional Contingency Plans (RCP) & Area Contingency Plans (ACP) was 
conducted to identify significant worst case discharge (WCD) 
preparedness gaps. The Coast Guard has directed Area Committees to 
address these gaps ensure WCD planning scenarios in all oil spill 
contingency plans reflect WCD information identified during the joint 
Oil Spill Response Plan review.
    The Coast Guard's 2011 Strategic Planning Direction directs Coast 
Guard field units to conduct outreach on the National Oil and Hazardous 
Substances Pollution Contingency Plan with a focus on engaging both 
environmental and emergency departments at the state level. The Coast 
Guard will continue to encourage its field commanders to ensure more 
participation from state & local officials in oil spill planning and 
preparedness efforts.

    Question 8. OPA-90 requires that Area Contingency Plans identify 
sensitive environmental areas with general protection strategies. But 
there is no nationally recognized, standardized process or the 
identification and prioritization of these environmentally sensitive 
areas. What kind of oversight should the Coast Guard provide to ensure 
adequate local stakeholder participation and identification, 
prioritization, and protection strategies for environmentally sensitive 
areas?
    Answer. As mentioned in several key Deepwater Horizon lessons 
learned reports, the Coast Guard has identified the need for Area 
Committees to encourage more participation from state and local 
officials in oil spill planning and preparedness efforts. The Coast 
Guard has placed a reemphasis on its past guidance for District and 
Sector Commanders to develop aggressive outreach programs with State, 
Parish, and County officials. The Coast Guard's 2011 Strategic Planning 
Direction directs Coast Guard field units to conduct outreach on the 
National Oil and Hazardous Substances Pollution Contingency Plan with a 
focus on engaging both environmental and emergency departments at the 
state level. The Coast Guard will continue to encourage its field 
commanders to ensure more participation from state & local officials in 
oil spill planning and preparedness efforts.
    The Coast Guard is updating its national policy guidance to address 
major contingency plan gaps identified in Deepwater Horizon lessons 
learned reports for the identification and protection of 
environmentally sensitive areas, development of oil spill protection 
strategies, Area Committee outreach and coordination, and many other 
areas of improvement.

    Question 9. How big of a burden would this be on the Coast Guard? 
Is this something that the Coast Guard could easily do?
    Answer. The identification and prioritization of environmentally 
sensitive areas and development of protection strategies are tasks that 
require significant funding, resources, and long-term commitment from 
key Area Committee members. Those activities can be very burdensome on 
many Area Committees, especially those without state-sponsored oil 
spill programs, to carry out these important preparedness activities.
    Significant participation and input from key Area Committee 
stakeholders, especially natural resource trustees and land managers 
that have local knowledge of critical habitat, endangered or protected 
species, or sensitive shorelines, is critical to the successful 
accomplishment of these tasks. As described in the National Contingency 
Plan, the Coast Guard leverages the expertise from lead Federal natural 
resource trustees, specifically National Oceanic and Atmospheric 
Administration (NOAA) and Department of the Interior, to engage Area 
Committees in these important discussions. Ecological Risk Assessments 
(ERA) are valuable science-based tools which assist Area Committees and 
Coast Guard Federal On-Scene Coordinator in making well-informed, 
scientific-based decisions on best response strategies to minimize 
impacts to environmentally sensitive areas. In addition, the Coast 
Guard regularly uses Environmental Sensitive Index maps, which are 
produced by NOAA, during oil spill responses in making informed 
operational decisions.

    Question 10. The Coast Guard expertise in marine safety has waned 
over the last decade due to several factors. The Service has been 
tasked by Congress to focus on homeland security centric missions. The 
successes of OPA-90 and spill prevention programs have also resulted in 
fewer offshore spills and less frequency in large spill events, 
creating the perception that fewer resources are adequate to accomplish 
spill prevention and response objectives.
    The Coast Guard's ``Incident Specific Preparedness Reviews'' also 
that the reorganization to `sectors' merged the services marine safety 
and response with law enforcement and search and rescue, resulting in 
people with little oil spill response training sometimes overseeing 
initial response activities. How can the Coast Guard make ``sector'' 
organization work for all of its missions, including oil spill 
response?
    Answer. The Coast Guard plans on executing the following 
initiatives to enhance oil spill response capability at Sectors:

  <bullet> Institute a Coast Guard Federal On-Scene Commander's 
        Representative (FOSCR) course: Develop a FOSCR course as 
        recommended by the FOSCR Front End Analysis to improve marine 
        environmental response competency among junior officers and 
        enlisted personnel at Sectors who may be called upon to provide 
        command and control functions during a range of oil spill and 
        hazardous material incidents. The first class was held in 
        September 2011.

  <bullet> Establish Permanent Regional Response Team (RRT) Co-Chairs 
        at Districts: Establish civilian, permanent RRT Co-Chairs at 
        each District as provided in the FY 2011 budget process. 
        Permanent Co-Chairs will provide leadership, continuity, and 
        subject matter expertise to the Coast Guard's regional elements 
        of the National Response System (NRS) and National Response 
        Framework (NRF), directly supporting operations carried out at 
        Sectors by Federal On-Scene Commanders (FOSCs).

  <bullet> Establish CG National Incident Management Assist Team 
        (IMAT): Establish a full time CG National IMAT as provided in 
        the President's FY 2012 budget request. A Coast Guard National 
        IMAT will provide immediate deployable incident management 
        surge capacity to Coast Guard Incident Commanders nationwide.

  <bullet> Enhance Crisis Communications and Incident Management 
        Training: Establish position-specific and career-path based ICS 
        competency requirements for key personnel throughout the Coast 
        Guard, and ensure integration into existing guidance for both 
        enlisted and officer career paths. Expand the existing crisis 
        communications training, as well as incident management 
        training available for FOSCs to address all hazards contingency 
        responses expected under the NRF.

    Question 11. As a result of the Deepwater Horizon explosion and 
spill, the memorandum of understanding (MOU) between the Coast Guard 
and BOEMRE is being currently revised. It has been reported that 
officials from both agencies are meeting periodically to discuss 
findings and lessons learned from the joint investigation report. As it 
stands right now, the Coast Guard generally has regulatory 
responsibility for systems on MODUs and other offshore structures that 
are above the waterline; BOEMRE is responsible for systems below the 
waterline. It's my understanding the Coast Guard and BOEMRE either are, 
or soon will be, revising the MOU dealing with MODUs and other offshore 
structures.
    Given the broad array of demands we as a nation place on the Coast 
Guard, I'm concerned at the end of that process the Coast Guard may end 
up doing less (and BOEMRE more) when it comes to inspecting offshore 
oil platforms. How do you expect the new division of responsibilities 
to shake out?
    Answer. The Coast Guard and Bureau of Ocean Energy Management and 
Regulatory Enforcement have agreed to review the Memorandums of 
Agreement and make changes and/or improvements as necessary. The Coast 
Guard will increase focus on inspecting offshore platforms. The Coast 
Guard's Outer Continental Shelf Activities Matrix Team has already 
identified several areas to increase the Coast Guard's plan review and 
inspection oversight efforts, such as: gas detection systems; emergency 
disconnect and shutdown systems; dynamic positioning; and blow out 
preventers. Finally, the Coast Guard is reviewing offshore manning and 
training policies in order to ensure they meet current needs.

    Question 12. Can you assure us that the Coast Guard's 
responsibilities in inspecting offshore installations will not 
decrease?
    Answer. The Coast Guard has no intention of decreasing activities 
that might lessen the safety and security on offshore installations.

    Question 13. As a result of the Deepwater Horizon explosion and 
spill, the memorandum of understanding (MOU) between the Coast Guard 
and BOEMRE is being currently revised. It has been reported that 
officials from both agencies are meeting periodically to discuss 
findings and lessons learned from the joint investigation report. As it 
stands right now, the Coast Guard generally has regulatory responsible 
for systems on MODUs and other offshore structures that are above the 
waterline; BOEMRE is responsible for systems below the waterline.
    The MOU between the Coast Guard and BOEMRE is designed to promote 
interagency consistency in the regulation of Outer Continental Shelf, 
minimize duplication of effort, and aid the agencies in the successful 
completion of their assigned missions. It seems, however, a duplication 
of effort can be a good thing when it comes to the inspection of safety 
systems. I wonder if there needs to be a holistic approach to 
inspecting the offshore drilling platforms. The software that controls 
all of the computerized systems on these high tech rigs is often 
overlooked, but it has clear implications for the safety of life and 
property at sea. Who do you think should inspect the software that 
controls all of the computerized systems of the drilling rigs?
    Answer. Mobile offshore drilling units (MODU) and floating 
facilities typically automate systems on board, such as dynamic 
positioning and ballast control systems. The Coast Guard does not 
directly inspect the ``software'' and ``lines of computer code'' 
associated with these systems. However, during the course of a MODU 
inspection, the Coast Guard will verify that automated critical safety 
systems and associated software, such as dynamic positioning systems 
and ballast control systems, undergo extensive testing to confirm the 
robustness and reliability of that particular system.

    Question 14. Do you think there needs to be some duplication of 
effort-some intentional redundancies--when it comes to inspecting 
safety systems?
    Answer. Yes, some redundancy with respect to inspection of critical 
safety items closely integrated and interdependent with one another, 
such as the gas detection system, emergency disconnect and shutdown 
systems, and blow out preventer is appropriate, given the potential 
impacts should a failure occur.

    Question 15. How do you find the right balance between redundancy 
and efficiency in terms of inspecting offshore platforms?
    Answer. The Coast Guard will seek to achieve the best balance 
between redundancy and efficiency through coordination with primary 
stakeholders operating on the outer continental shelf (OCS). The Coast 
Guard (subject to the availability of funding) will continue to engage 
safety advisory committees, such as National Offshore Safety Advisory 
Committee and Offshore Marine Service Association and participate in 
major industry gatherings such as the Offshore Technology, Floating 
Production, Storage and Offloading Vessel and Dynamic Positioning 
conferences and Deepwater Symposium. Finally, the Coast Guard will 
engage standards development organizations, such as the American 
Petroleum Institute and International Standards Organization, to 
participate in the development of industry consensus standards and the 
Coast Guard will host regional inspectors meetings and invite OCS 
industry participation.

    Question 16. It is evident that the Vessels of Opportunity program 
played a huge role in the response effort. Prior to the oil spill there 
was no VOO program in the area. It was modeled after similar programs 
in other States, most notably Alaska. Yet in the early stages of the 
response there was widespread frustration by for-hire captains because 
there was a big difference between the number requested and the number 
actually needed. Is the Coast Guard developing a national policy for 
incorporating VOO into Area Contingency Plans?
    Answer. The Coast Guard is reviewing the lessons learned and 
recommendations from several Deepwater Horizon lessons learned reports, 
including those related to Vessels of Opportunity (VOO). Although many 
reports indicate the VOO program during Deepwater Horizon was 
successful, there are many issues associated with establishing a 
national VOO program, including funding, maintaining trained VOO 
operators, administration, oversight, selection criteria, and many 
others.
    The VOO program in Alaska is funded and administered by the oil 
industry, with some oversight from the Coast Guard. There are many 
reasons why this program was started in Alaska, most notably the 
remoteness of many of the port areas which greatly increases response 
times of Oil Spill Response Organization (OSRO) and the lack of 
availability of OSRO resources. Establishing VOO programs similar to 
the one in Alaska is not practical for most areas around the country. 
VOO programs have not been established in other areas because there are 
enough OSRO resources available. In addition, the development and 
management of a national VOO program requires a tremendous amount of 
funding and resources as well as training, which is not practical to 
sustain in geographic locations where OSRO resources are available.

    Question 17. What are your thoughts on the VOO program and what 
were the greatest lessons learned?
    Answer. Over 9,000 Vessels of Opportunity (VOOs) were contracted to 
assist with the spill response to perform duties such as placing boom, 
skimming oil, and on-water transportation and support services.
    In response to these challenges, the Federal On-Scene Coordinator 
and the Responsible Party (RP) signed a Deepwater Horizon VOO policy 
letter outlining the strategy for standardized VOO usage, 
organizational structure, required training and safety measures, and 
contractual and logistical requirements of the Deepwater Horizon VOO 
program.
    This program was funded and managed by the RP with considerable 
oversight by the Federal On-Scene Coordinator. The large and variable 
number of VOOs under contract on a daily basis and the unprecedented 
breadth and scope of the VOO program also presented logistical 
challenges to track and outfit VOOs, arrange waste disposal, and ensure 
integration of the VOO fleet into the common operating picture.
    The Deepwater Horizon response VOO program matured significantly 
during the course of the Deepwater Horizon response. VOO's performed 
oil recovery operations, transported shoreline cleanup workers, placed 
and tended boom, and provided general response support to keep 
operations moving. Because of the unprecedented size and scope of this 
spill, VOO's were used effectively to complement and supplement Oil 
Spill Removal Organization capabilities.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                        Hon. Grover C. Robinson
    Question. You stated that the National Contingency plan-top down 
approach- outlined in OPA-90 ``simply does not work in a disaster 
situation.'' Yet expert reports highlight that the OPA-90 structure is 
sound and appropriate for a spill of national significance, although 
the connectivity of the NCP and National Response Framework (NRF) needs 
fixing. Do you think that an expansive outreach program to familiarize 
you and other State and local emergency managers with the NCP will help 
ensure the NCP remains a viable plan for catastrophic oil spill 
response? If so, what ideas do you have?
    Answer. After further research of OPA-90 and the NCP, I feel that 
the training of policies should include all levels of governments which 
will help in defining roles and responsibilities should future events 
occur. It needs to be reinforced that all levels of government having 
jurisdictional responsibilities. Command and Control is key in any 
event regardless of the size of the incident. All parties need to have 
a seat at the table to appropriately address all issues.
    The National Response Framework Flow Chart defines that the On 
Scene Commander determines the status of the response by state and 
local government responders and the company responsible for the release 
or spill (called the potentially responsible party (PRP)). The OSC also 
monitors the situation to determine whether, or how much, Federal 
involvement is necessary.
    The National Contingency Plan  300.115 describes the establishment 
of Regional Response Teams and their roles and responsibilities in the 
National Response System, including, coordinating preparedness, 
planning, and response at the regional level. The RRT consists of a 
standing team made up of representatives of each Federal agency that is 
a member of the NRT, as well as state and local government 
representatives, and also an incident-specific team made up of members 
of the standing team that is activated for a response. The RRT also 
provides oversight and consistency review for area plans within a given 
region. I am not aware of this existing in our region or anywhere else 
in the State of Florida and the lack of the team may have contributed 
to some of the DWH issues that we experienced.
    Sorry for being long winded. A short answer to your question is, 
training is always a plus for future responses.
    My suggestion in accomplish this goal would be to establish a 
Regional Response Team and train together as defined in the NCP.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Dr. R. Eugene Turner
    Question 1. You stated that the state of knowledge about coastal 
ecosystem restoration has not kept up with the pace of development of 
restoration projects. Have you seen any instances where restoration 
efforts have been undertaken with too little scientific input and have 
done more harm than good?
    Answer. We all make mistakes by omission and without harmful 
intentions. Which is why we have reviews, oversight, and regulations. 
But some are noteworthy because of the frequency of occurrence or scale 
of the consequences. Repetitive errors of large scale are especially 
noteworthy.
    A notable combining both is described by Kearney et al., (2011). 
They describe the failure of three river diversions in coastal 
Louisiana. River diversions are a major part of the restoration policy, 
and the State is asking for funds from the Macondo oil spill fines to 
pay for more. These authors analyzed patterns in land loss in the flow 
path of the Caernarvon river diversion, and for two other river 
diversions. It examined whether they do what they are supposed to do. 
The supplemental materials has a video recording a flyover across the 
northern part of the diversion flow path in spring. There is lots of 
open water where there once was land. Google Earth has similar 
comparisons to make if you use the pull-down timeline function.
    They used two different methods to calculate land and lots of 
imagery. It is a credentialed analysis, it is published in an excellent 
journal (by the American Geophysical Union), and the first author 
invented the methodology and used it in Chesapeake Bay.
    Some key points.
    There were no net gains from the diversions at any of the three 
diversions before the hurricanes (1992 to 2005). This means that the 
diversions were not successful in creating land or restoring land. (A 
related analysis demonstrated that the losses before the diversion 
opened were directly related to dredging, which had dropped off to 
practically zero by the time these diversions began operation. Losses 
then were around 0.8 percent annually).
    There were huge losses in the diversion flow path wetlands after 
Katrina/Rita, but not in the reference sites. These losses were about 
142 km<SUP>2</SUP> (55 mi<SUP>2</SUP>), or 33 percent of the area of 
land in the 1930s.
    These losses are many times more than the projected benefits (about 
one third are area created) of 21 sq mi from ALL the projects in the 
2007 GAO report. By comparison, Washington, D.C. is 68 sq mi. About 2/
3rd of the projects funded (identified in the GAO report) were related 
to a redistribution of freshwater. Diversions are, therefore, the 
central planning element of restoration--and they don't work. They also 
cost a lot--the proposed Myrtle Grove diversion, for example, is a few 
hundred millions to build.
    The losses, in fact, are many times larger than the total combined 
area that might be gained from all other projects (projects not 
involving freshwater diversions) identified in the 2007 GAO report. If 
these other projects work, and at the projected cost, then it would 
take 2 billion to restored the lost land in the Caernarvon flow path. 
This is, in other words, an estimate of the cost of misplaced, unused, 
or neglected science infrastructure. That could have been noticed at 
any time in the last 26 years; but it wasn't because, I think, many 
thought this river diversions could not fail, that they were 
``natural,'' or that it was better than doing nothing. They did fail 
because, we think, the river is now full of nutrients that were not 
there when the river formed the marshes 1000s of years ago, and because 
there is a mis-placed emphasis on sediments. This mis-placed emphasis 
resulted in overemphasizing the role of sediments, neglecting 
alternative hypotheses, and assuming that flooding the marshes during 
the river diversion was an insignificant stressor. As a result, 
rigorous monitoring of land gain/loss was not done.
    Monitoring of land gain and loss would be the essential monitoring 
data for coastal restoration. There are no data on land change for 
these projects. Not measuring gains and loss is a fatal flaw when doing 
`adaptive management' or assigning success.
    The reason we pose why these diversions are not helpful is that 
there are nutrients in the river that cause organic soils to decompose 
faster, and to decrease the biomass of live roots. Roots add to soil 
growth and hold it in place during hurricanes. Mineral soils like those 
at the tip of the river or in the Atchafalaya will behave differently 
from the organic soils where most of the diversions are in place or 
planned. People usually ignore this distinction.
    The ``cost'' of the missing science can be estimated by estimating 
how much it would cost to restore the lost 55 sq miles using the 
present restoration costs (note: this restoration may not be any more 
successful than the diversions). That cost runs in the billions of 
dollars.

    Question 2. Which scientific information gaps need to be filled to 
go about restoration in a smarter and more effective way?
    Answer. Improve the infrastructure and the necessary information 
will be developed.
    The science infrastructure needs to be improved in at least three 
ways: (1) Modeling is a potentially helpful component of restoration, 
but is not a substitute for data. (2) information about the ecological 
systems needs to be constantly monitored and upgraded. (3) we need to 
have some humility about what we do not know, and to temper the sense 
that ``controlling nature'' is possible, or even desirable.
(1) Ecosystem Models
    Models are a potentially useful means to overcome some of the 
problems managing both complicated and complex systems. But modeling 
can be conducted and received within very different levels of certainty 
and acceptance. If the model is assumed to faithfully predict the 
future, then there may be little interest in defining the bounds of 
expectation. Even if these bounds of expectation are identified, the 
prediction may be useless in the long term. If the ecosystem model of 
an undisturbed estuary, for example, is based on the average 
conditions, perhaps because of limited field data or foregoing data 
incorporation, then model predictions may give comforting, but 
erroneous, results when novel conditions arise and interact with other 
factors. For example, a 20-year record of monthly precipitation may be 
useful to predict estuarine salinity--until there is a hurricane. In 
this case, the prediction of estuarine salinity may be accurate 99 
percent of the time, but not accumulate during the 1 percent of the 
time during which a surge of saltwater is trapped behind a flood 
protection levee, causing plant death. But, if the model is assumed to 
have significant unknowns, then it will have wide bounds of 
expectation, perhaps demonstrating the model's heuristic value, but 
undermining confidence applying it for management purposes.
    Some models are, unfortunately, sometimes mis-used to stifle 
discussion of alternative discussion by creating the aura of a mis-
placed level of certainty to create a political advantage that 
suppresses debate, especially if the model is opaque. This is not to 
say that models are inherently unconstructive--they aren't. The climate 
change models, for example, are well-ventilated by an inclusive 
participant list, alternative views are sought, and there is an 
abundance of data to test the models. It is the context in which the 
models are developed and discussed that makes the global climate change 
models useful, rather than a hindrance. And that context is a key--to 
create an accepted and useful network of communication and information 
exchange that illuminates the areas of risks inherent in accepting 
different levels of certainty represented in models, how to adapt to 
new information, and to accurately identify complex system behaviors.
(2) Adaptive management and monitoring (AMM)
    There is an undeniable and striking absence of effective monitoring 
and adaptive management in restoration. This situation reveals a 
resistance to: (1) effective monitoring of project design, (2) 
implementation and assessment of post-construction developments in 
meaningful ways, (3) consideration of alternative outcomes in the 
beginning, including project failure, (4) intellectual audits, and, (5) 
introduction of new information. Ralph and Poole (2003) said 
``Contemporary approaches to adaptive management preclude iterative, 
self-correcting management approaches by promising, but failing to 
implement, adequate and integrated monitoring programs.'' (p. 244). If 
restoration efforts actively embraced the AMM, then monitoring is 
independent to better close the feedback loop, questions arising are 
used to direct the restoration, a strong experimental framework is 
included, the design phase is well-ventilated, and the capabilities to 
monitor would drive the definition of goals--not the other way around. 
If goals are not monitored, then how else is ``success'' quantified and 
compared to some metric of success? If the AMM is adopted in fact, then 
monitoring program goals and metrics are developed before determining 
what management might be appropriate, before agreeing on management, 
and, before specific management actions are started. In this way 
management can optimize results and reduce the opportunities to do 
irrevocable harm when something unexpected happens--and unexpected 
things will happen in complex systems.
(3) Humility
    The absence of humility jeopardizes opportunities to reduce 
financial waste, raise confidence in agency competency, and it may 
result in more damage.
    Below are a few simple goals that that may help avoid potentially 
fatal flaws of logic, administration lapses, and financial waste.

  (1) Assume that key pieces of information are missing and may not be 
    revealed (ever);

  (2) Because of the collective and respected ignorance, be flexible in 
    how to develop, evaluate and apply new information and 
    perspectives; learn how to create the context for that situation;

  (3) Include many small steps that are addressed in multiple ways;

  (4) Let data trump concepts, not the reverse. If ``the bigger, the 
    better'' is the operating model, then the model is likely to be 
    superficially abstract (this is not to dispute the need for 
    hierarchy or a division of labor);

  (5) Assume that surprises will occur;

  (6) Develop exit strategies, including how to reverse interventions;

  (7) Most important of all: Do no harm; do not implement plans that 
    may be irreversible if they go awry; assume that they will go awry. 
    Never assume that they will work exactly as planned. If 
    irreversible outcomes are anticipated, then start with the smallest 
    plans, not the largest ones. Do not assume absolute knowledge.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                      Rear Admiral Paul F. Zukunft
    Question 1. What changes are the Coast Guard implementing, or do we 
need to make legislatively, to make sure that the rigs still operating 
on the Outer Continental Shelf have a response plan in place that is 
actually capable of doing what it says it will in the event of an 
explosion or spill?
    Answer. A joint Response Workgroup (the Workgroup) between the 
Coast Guard and the Bureau of Ocean Energy Management, Regulation, and 
Enforcement (BOEMRE) was chartered to address lessons learned from the 
Deepwater Horizon oil spill and relevant recommendations of the Outer 
Continental Shelf Safety Oversight Board. The ultimate goal of the 
Workgroup is to improve national oil discharge planning, preparedness, 
and response for facilities located seaward of the coastline through 
improved alignment of BOEMRE and Coast Guard regulatory authorities and 
preparedness oversight activities.
    As part of this workgroup, the Coast Guard & BOEMRE conducted a 
comprehensive joint analysis of Regional Contingency Plans (RCP) & Area 
Contingency Plans (ACP) to identify significant worst case discharge 
(WCD) preparedness gaps. Some of the critical WCD gaps include: Missing 
or incomplete planning assumptions and scenarios, adequacy of WCD oil 
spill response resources, adequacy of WCD protection & recovery 
strategies, and adequacy of WCD dispersant use, in-situ burning, and 
subsea containment strategies.
    As a result of this joint analysis, the Coast Guard is preparing 
detailed WCD process guidance on how to immediately address these gaps 
in Area Contingency Plans. As part of the Coast Guard's FY 2012 
Strategic Planning Direction (SPD), the Coast Guard has directed its 
field commanders to ensure WCD planning scenarios in all oil spill 
contingency plans reflect WCD planning information identified during 
the joint Oil Spill Response Plan (OSRP) review. The Coast Guard will 
continue to encourage its field commanders to ensure more participation 
from state & local officials in oil spill planning and preparedness 
efforts.
    The Coast Guard is also updating its national ACP policy guidance 
to address major contingency plan gaps identified in joint analysis as 
well as several Deepwater Horizon lessons learned reports. Priorities 
for improvements in Coast Guard ACP guidance include: Area Committee 
outreach and coordination, identification and prioritization of 
environmentally and economically significant areas, and development of 
protection strategies.

    Question 2. The Coast Guard's Incident Specific. Preparedness 
Review found that in fact, the recruitment of these vessels and the 
management of their operations suffered from several challenges. The 
extensive on-the-water experience of the fishing industry was not 
utilized to its fullest extent, and the large number of vessels lacked 
efficient activation, coordination and clear communications with the 
Incident Command Posts and local authorities.
    Is USCG evaluating this program in a formal manner, or soliciting 
feedback from the vessels of opportunity on how this program might have 
been more effective? How can we better utilize the expertise and 
important local knowledge offered by the fishing and marine communities 
should the need arise in the future?
    Answer. The Coast Guard is reviewing the lessons learned and 
recommendations from several Deepwater Horizon lessons learned reports, 
including those related to Vessels of Opportunity (VOO). As mentioned 
in the Incident Specific Preparedness Review, the unprecedented breadth 
and scope of the VOO program presented logistical challenges to track 
and outfit VOOs, arrange waste disposal, and ensure integration of the 
VOO fleet into the common operating picture.
    There are many issues associated with addressing these challenges; 
including funding for exercises and training, oversight, and 
administration of VOO programs, whether implemented at the local, 
regional, or national level. There is also a question of determination 
of need for and value of VOO programs around the country. Early 
assessment indicates that during a major spill event, the best use of 
fisherman and marine community resources may be to focus their efforts 
toward transport of personnel and equipment between bases and active 
response operations platforms to support vessel traffic management in 
the vicinity of impacted areas, and as subject matter experts in local 
geography and hydrography.
    The Coast Guard has been and will continue to work at the Area 
Committee, regional, and national levels to ensure better employment of 
these important local resources in future spill events.

    Question 3. Faced with an emergency, the government had to make 
decisions about high-volume and subsea dispersant use within time 
frames that denied officials the opportunity to gather necessary 
information. Has the Coast Guard made any changes in their response 
plans as a result of the controversy surrounding use of dispersants?
    Answer. Except when human life is immediately and imminently 
threatened, the decision whether to authorize the use of dispersants 
requires the advice and consent of the Environmental Protection Agency 
(EPA), and, as appropriate, the affected state representative to the 
Regional Response Team (RRT), and consultation with the Department of 
Commerce (DOC), the Department of the Interior (DOI), when practicable.
    Prior to Deepwater Horizon (DWH), this decision-making process was 
routinely executed at the RRT level for incidents involving an 
instantaneous discharge at or near the surface of the water.
    Post DWH, the Coast Guard is coordinating with RRTs and Area 
Committees (who oversee Area Contingency Plans) to review existing pre-
authorization agreements regarding dispersant application. The Coast 
Guard is working with National Response Team representatives from the 
EPA, DOC, and the DOI to develop a framework for RRTs to make sound 
decisions regarding subsea dispersant use. The EPA is revising the 
regulations governing the criteria for listing dispersants on the 
Product Schedule in Subpart J of the National Oil and Hazardous 
Substances Pollution Contingency Plan (NCP) and the Coast Guard will 
work with the EPA in that process. The Coast Guard is also 
participating in a National Oceanic and Atmospheric Administration led 
effort to conduct critical research projects on surface and subsurface 
dispersant use that will more fully inform future dispersant 
application decision-making processes.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Olympia J. Snowe to 
                            David M. Kennedy
    Question 1. Faced with an emergency, the government had to make 
decisions about high-volume and subsea dispersant use within time 
frames that denied officials the opportunity to gather necessary 
information. Has NOAA conducted any research on the impact of this 
dispersant use in the past year, and if so, what has been learned?
    Answer. NOAA is conducting work on dispersants since the Deepwater 
Horizon oil spill in two main areas. First, NOAA is conducting a 
project focused on compiling and analyzing operational response data 
from the spill to improve our understanding of, among other things, the 
efficacy and trade-offs of dispersant use. This is being conducted with 
$1 million from NOAA's FY 2010 supplemental appropriations funding 
through an existing partnership with the University of New Hampshire's 
Coastal Response Research Center. The NOAA project involves a broad 
synthesis of oil spill response data, with the goal of determining 
whether existing (pre-Deepwater Horizon spill) research and development 
(R&D) priorities are still appropriate, and which new areas of R&D are 
needed. The project is broadly examining R&D needs including fate, 
transport, effectiveness, toxicity, and human dimensions. The lessons 
learned will be shared at the appropriate stages within the Deepwater 
Horizon Natural Resources Damage Assessment process. Approximately 50 
percent of the funding authorized for this project has been set aside 
for R&D grants to address these gaps.
    Second, NOAA continues to conduct R&D on dispersants and seafood 
safety. NOAA has studied the uptake and persistence of dispersant 
constituents in edible fish and shellfish tissues and found that it is 
low and not a significant concern for seafood safety. There are 
numerous dispersant formulations available or in development for 
mitigation of oil spills under different physical conditions of the 
marine environment.
    A systematic assessment of less known dispersant constituents and 
their fate in aquatic species is warranted.
    To avoid duplications of effort, NOAA's work is being coordinated 
with the thirteen-member Interagency Coordinating Committee on Oil 
Pollution Research (ICCOPR), which includes USCG, DOI and EPA. All of 
these agencies have participated as part of steering committee for the 
NOAA project and took part in a recent dispersant workshop at the NOAA 
Disaster Response Center in Mobile, AL. NOAA is also coordinating with 
EPA on dispersant information that would be relative to spills in 
foreign waters that could impact the U.S. (i.e., Bahamas and Cuba).
    Independent of the Natural Resource Damage Assessment activities, 
the U.S. Geological Survey (USGS) has developed and published methods 
for the chemical analysis of water samples containing dispersant 
allowing for improved detection limits. Currently, USGS scientists are 
applying these methods to water samples collected from nearshore and 
offshore sites in the northern Gulf of Mexico. NOAA will work with the 
USGS and DOI Trustees to integrate their results into planning 
activities for future scientific investigations on dispersants with a 
focus on how the dispersant concentrations relate to short- and long-
term biological responses.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Olympia J. Snowe to 
                        Hon. Grover C. Robinson
    Question. What recommendations would you make to ensure that 
Federal agencies coordinating a major response effort like the 
Deepwater Horizon are utilizing the knowledge and experience that local 
officials and community members bring to the table?
    Answer. The best way to engage local officials is by reforming the 
Oil Pollution Act of 1990 to include them as part of the team. 
Currently it is my understanding the law requires coordination between 
the responsible party, Federal agencies and state agencies. Since the 
Deepwater Horizon spill has been contained, local governments have been 
advocating for inclusion in the event this occurs again. The only way 
that I see that we will definitively be included is by language in the 
law. Otherwise, it is too easy for the responsible party or Federal 
agencies to dismiss us by them saying they are simply following the 
law.
    I would like to be clear that I do not believe anyone in the 
Federal agencies have an intent to exclude local governments. It is 
simply in the heat of the moment in trying to coordinate their own 
Federal response they overlook what local governments can provide.
    The reason this occurs is first there is a national and Federal 
response that needs to be taken in Federal/international waters. Only 
the Federal Government and the responsible party have the tools and the 
expertise to administer and handle that response. However, once that 
oil spill moves from international Federal waters into state and local 
waters, including inland estuaries, it should be the response to engage 
local governments at that time both in the planning, implementation, 
and oversight role.
    Please understand that if local governments are not engaged in all 
three roles the response would be less than effective. Additionally, if 
local governments are provided jurisdictional direction and oversight 
of their own local areas, that will also free up Federal resources to 
continue to fight any spill in the Federal/international waters. If any 
local jurisdiction is not capable of supplying the needed finances and 
manpower resources to handle these commitments, they can partner with 
state and even Federal agencies to assist. However, those local 
jurisdictions that do have proper funding and manpower should be able 
to hold some authority and decisionmaking within their jurisdiction.
    All of this comes with the assumption that the total overall 
coordination will be through the Federal agencies, and local agencies 
will have to be in constant communication and provide information to 
the unified command for overall direction of the entire Federal 
response. While the total response will be made from Unified Command 
location, there should be decentralized decisionmaking for local 
theatres provided to the local governments within their own 
jurisdictions.
    Please note that all of this can happen and would be the best 
alternative to provide complete and adequate protection for our mutual 
constituencies. The only obstacle prohibiting this approach currently 
is the Federal law which simply needs to be amended to again allow 
local governments to be involved in the planning, implementation and 
oversight of any response and recovery within their jurisdiction.
    Clearly locals will still be under the authority of both the state 
and Federal Governments; however, they should .have the ability to make 
some determination within the new framework provided for autonomous 
decisions and oversight.
    If you have any further questions or comments, please feel free to 
contact me. Thank you again for all the work you have been doing to 
evaluate this problem. We in local government greatly appreciate the 
opportunity to be involved and be a part of the team. Thank you again 
for making the difference.

                                  <all>

</pre></body></html>
